Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998




    THE INSPECTOR GENERAL’S MESSAGE

This semiannual report of the Office of Inspector General (OIG) details some of our most significant
accomplishments for the period April 1 - September 30, 1998. During this period, the OIG focused
its audit and investigative resources on activities that support accomplishment of the goals
established in our strategic plan. These goals reflect the OIG vision to provide the Department of Labor
(DOL) and Congress with quality information, recommendations, and technical assistance.
Particularly noteworthy during this reporting period have been our accomplishments in:

•      identifying and effecting the return to the Government of $6.1 million in employment and
       training funds improperly held by a grantee;

•      identifying an effective mechanism to increase the distribution of millions of dollars in back
       wages owed to workers that are held in trust by the Department;

•      identifying ways to enhance the Mine Safety and Health Administration's regional coal mine
       safety and health inspections program;

•      identifying and calling attention to the problems faced early next year by the
       Unemployment Insurance System as a result of the Year 2000 problem;

•      providing consultation assistance to DOL agencies in their implementation of the
       Government Performance and Results Act and the Information Technology Management
       and Reform Act;

•      uncovering fraud against DOL’s unemployment and disability compensation programs;

•      combating labor racketeering in unions and the workplace through successful indictments
       and convictions in the areas of employee benefit plans, labor-management relations, and
       internal union affairs; and

•      calling attention to legislative changes needed to improve aspects of the Department’s
       pension, workers’ compensation, and program evaluation functions.

My staff and I are committed to effecting positive change, reducing vulnerabilities, and contributing
to the Department’s achievement of its own strategic goals. I look forward to continuing to work
effectively with the Secretary and DOL staff at all levels in our common goal of ensuring the
effectiveness, efficiency, and integrity of the programs that serve and protect American workers
and retirees.



Charles C. Masten
Inspector General


                                                       i
Semiannual Report to the Congress                                                                     April 1, 1998 - September 30, 1998




  TABLE OF CONTENTS

THE INSPECTOR GENERAL’S MESSAGE ..................................................................... i
TABLE OF CONTENTS ................................................................................................... ii
SIGNIFICANT CONCERNS ............................................................................................ iv
SELECTED STATISTICS................................................................................................. x

EMPLOYMENT AND TRAINING ...................................................................................... 1
Job Training Partnership Act .............................................................................................. 2
Federally Administered Programs ...................................................................................... 7
Native American Programs ................................................................................................ 7
Migrant and Seasonal Farmworker Programs .................................................................... 9
Job Corps .......................................................................................................................... 9
Consultation Activities .................................................................................................. 10
National Activities .......................................................................................................... 12
School to Work .............................................................................................................. 13
Senior Community Service Employment Program ..................................................... 15
Other Employment and Training Programs ................................................................ 18
Audit Resolution ............................................................................................................ 19
Employment and Training Investigations ................................................................... 21

WORKPLACE BENEFITS ............................................................................................. 24
Federal Employees' Compensation Act Investigations ............................................. 24
FECA Medical Provider Audit ....................................................................................... 29
Evaluation of FECA Program Administration Issues.................................................. 30
Longshore Harbor Workers' Compensation Act ........................................................ 31
Unemployment Insurance Program ............................................................................. 32
Fraud in the Unemployment Insurance Program ................................................................ 32
Unemployment Insurance Audits and Evaluations .................................................... 35
Pension and Welfare Benefits Administration ............................................................ 40

THE OIG LABOR RACKETEERING PROGRAM........................................................... 44
Employee Benefits and Pensions ..................................................................................... 45
Labor Management Relations .......................................................................................... 48
Internal Union Affairs ........................................................................................................ 49




                                                                       ii
Semiannual Report to the Congress                                                           April 1, 1998 - September 30, 1998




                WORKPLACE SAFETY, HEALTH, AND STANDARDS......................... 53
                Audit of MSHA .......................................................................................... 53
                MSHA Evaluation ...................................................................................... 55
                OSHA Evaluation ...................................................................................... 57
                Workplace Standards ............................................................................ 58
                Wage and Hour Division ........................................................................ 58
                Fair Labor Standards Act .......................................................................... 58
                Davis-Bacon Act ....................................................................................... 61

                DEPARTMENTAL MANAGEMENT ........................................................                       63
                The Department of Labor Y2K Problem ................................................                   63
                OIG Reviews Under GPRA .....................................................................           65
                Employee Integrity Investigations .........................................................            67

                LEGISLATIVE RECOMMENDATIONS ................................................... 70

                APPENDIX ............................................................................................... 75
                Audit Schedules ........................................................................................ 77
                Funds Put to Better Use - Agreed to by DOL ............................................. 78
                Funds Put to Better Use - Implemented by DOL ......................................... 79
                Resolution Activity Related to OIG Issued Audit Reports ............................ 80
                DOL Final Actions Related to OIG Audit Reports ....................................... 81
                Delinquent Debts Owed to DOL ................................................................ 82
                Unresolved Audits Over 6 Months .............................................................. 83
                Final Audit Reports Issued by the OIG ....................................................... 87

                INVESTIGATIONS SCHEDULES ........................................................... 89
                Detail of Accomplishments ........................................................................ 89
                Financial Accomplishments ....................................................................... 90
                Office of Investigations Case List ............................................................. 91

                OFFICE OF ANALYSIS, COMPLAINTS, AND EVALUATIONS:
                COMPLAINT ACTIVITY ......................................................................... 101




                                                               iii
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998




  SIGNIFICANT CONCERNS

 UI SYSTEM AT-RISK                  The Unemployment Insurance (UI) System processes about $22
 FOR Y2K COMPLI-                    billion in benefit payments annually in 53 jurisdictions nationwide.
 CATIONS                            UI benefits are provided to approximately 7 million people
                                    through a Federal-State partnership with each state’s State
                                    Employment Security Agency (SESA) office. The OIG is
                                    concerned with the effect the Y2K problem will have on the benefit
                                    component of the UI system because it has to be compliant by
                                    January 1, 1999. When initiating an unemployment insurance
                                    claim, a benefit year is established for 1 year forward from the
                                    date when the claim is filed. Therefore, if a claim is filed on
                                    January 4, 1999, the system will calculate a benefit year ending
                                    date of January 4, 2000. Consequently, a system could deny
                                    benefits and/or eligibility to a claimant who files after January 1,
                                    1999, if it is not Y2K compliant. There are seven states and
                                    territories struggling to maintain sufficient Y2K progress. They
                                    include: Arkansas, Delaware, the District of Columbia, Montana,
                                    New Mexico, Puerto Rico, and the Virgin Islands. These
                                    jurisdictions make about $140 million in benefit payments to
                                    195,000 claimants quarterly. Each of these have their own unique
                                    UI system architecture, applications, and associated problems
                                    that could cause Y2K difficulties. In addition to the seven “at-risk”
                                    states and territories, other states were placed on a “watch list”
                                    due to previous performance problems relating to system
                                    development efforts. These states include: Illinois, Louisiana,
                                    Maine, and Nevada.

                                    DOL officials are focusing on the problem and formed a technical
                                    assessment and assistance team that recently met with
                                    representatives from Puerto Rico. However, Y2K UI solutions
                                    must be found and implemented before January 1999 to ensure
                                    a smooth transition and continuation of benefits for individuals
                                    who must temporarily rely on UI as a source of income.




                                                         iv
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



 LACK OF                            Information Technology is a high-cost, critically important
 COVERAGE OF DOL                    function, providing essential data and information to the
 INFORMATION                        Congress, the public, and the Department itself. DOL program
 TECHNOLOGY                         officials use information residing in DOL computers to pay
 ACTIVITIES                         benefits, target enforcement efforts, compile labor statistics and
                                    make other decisions that affect the health, safety, and economic
                                    security of Americans. In addition, Congress depends on this
                                    information to assess the results and impact of DOL programs.

                                    Because of the high cost and importance to DOL’s mission,
                                    investments in information technology related to large mission-
                                    critical systems pose great risks. The risks need to be identified
                                    and mitigated to avoid inflated budgets, cost overruns, and
                                    delays. Auditing the life-cycles of these system development
                                    efforts is critical to ensuring they meet their intended objectives at
                                    acceptable costs. Recent developments, including the Year
                                    2000 problem and widely publicized breaches of Government
                                    computer security and personal privacy, have focused further
                                    attention on this issue.

                                    As the Department becomes more dependent on the use of IT to
                                    carry out its mission, the OIG has developed a 5-year audit plan
                                    identifying and prioritizing IT issues for oversight. However, we
                                    are concerned that competing priorities and increased statutory
                                    mandates have diffused the OIG’s ability to provide adequate
                                    coverage of IT issues in the Department. Without the ability to
                                    oversee DOL’s management of its IT functions, the OIG cannot
                                    provide assurances that the Department is producing accurate
                                    data, with appropriate data security, within the requirements of
                                    applicable laws. An even greater risk lies in the potential
                                    disruption of services, benefits, and information on which
                                    Americans depend.

 CONTINUED                          OIG oversight of the UI program has identified system
 PROLIFERATION OF                   weaknesses including a significant increase in the number of
 UI FRAUD SCHEMES                   fictitious and fraudulent employer schemes, internal embezzle-
                                    ment schemes, and the fraudulent collection of UI benefits by
                                    illegal aliens using counterfeit or unissued social security
                                    numbers. As a result of OIG’s shifting of resources to investigate
                                    UI fraud, we have uncovered a substantial increase in multi-state
                                    fictitious and fraudulent employer schemes. These investigations
                                    have identified schemes which have resulted in substantial



                                                         v
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    losses to the UI trust fund. Additionally, in several investigations
                                    the perpetrators possessed documents that would enable them
                                    to expand their fraudulent filings by introducing fictitious
                                    employers and claimants into state UI programs. Our
                                    investigations have disclosed that the ability to file electronic and
                                    mail claims presented these individuals with the opportunity to
                                    defraud multiple states from a single location. In addition,
                                    individuals were able to create unlimited false identities through
                                    the use of fraudulent or unissued social security numbers thereby
                                    creating an unlimited potential for filing false claims. The OIG is
                                    very concerned about the continued proliferation of these types of
                                    schemes against the UI program.

  ABUSES BY                         Private pension plans, with an estimated $3.5 trillion in assets
  PENSION PLAN                      serve as an attractive target to organized criminal elements,
  SERVICE                           corrupt pension plan officials, and individuals who influence the
  PROVIDERS                         investment activity of the pension assets. Recently, labor
                                    racketeering investigations involving the investment of pension
                                    plan monies that are jointly administered by labor union
                                    representatives and management representatives (Taft-Hartley
                                    plans), have elevated the OIG’s concern over the security of the
                                    assets in this segment of the pension plan universe.

                                    OIG investigations have uncovered many criminal enterprises
                                    perpetrated by financial and investment service providers to the
                                    Nation’s pension plans. These investigations have revealed
                                    abuses by sophisticated investment advisors and pension plan
                                    administrators who have the opportunity and ability to structure
                                    complex financial schemes to conceal their criminal activity. The
                                    OIG is concerned that abuses by financial investment service
                                    providers can result in great dollar losses because they typically
                                    provide investment or financial advice to more than one plan.

                                    Based on recent investigative results and the fact that service
                                    providers typically control the investment of hundreds of millions
                                    of dollars of pension monies, the OIG has identified this area of
                                    the pension arena as especially vulnerable to organized crime
                                    activity and abuse.




                                                         vi
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



  WORKFORCE                         The Workforce Investment Act of 1998 (WIA) was signed into law
  DEVELOPMENT                       on August 7, 1998. The Act authorizes workforce development
  LEGISLATION                       activities to be carried out through statewide and local workforce
  PRESENTS                          investment systems to increase the employment, occupational
  CHALLENGES FOR                    skills attainment, retention and earnings of participants, in turn
  COST SHARING                      reducing welfare dependency and improving the productivity of
  AND PROGRAM                       the Nation’s workforce. WIA repeals the Job Training Partnership
  REPORTING                         Act, DOL’s principal employment and training program, effective
                                    July 1, 2000, and promotes coordination among programs in the
                                    workforce development arena. The Employment and Training
                                    Administration (ETA) plans to publish an interim final rule in
                                    February 1999 to implement the WIA programs under its
                                    jurisdiction.

                                    A significant feature of WIA is the establishment of one-stop
                                    delivery systems within each local workforce investment area.
                                    WIA designates certain entities -- including WIA Title I Workforce
                                    Investment System providers, welfare-to-work systems, Wagner-
                                    Peyser Act programs, vocational rehabilitation operators and
                                    others -- as required one-stop partners. The one-stop delivery
                                    system may include additional partners, such as Food Stamps
                                    programs, at local discretion. WIA requires that each local
                                    workforce investment board enter into memoranda of
                                    understanding with the partners to define how the one-stop
                                    system will operate in the local area.

                                    Included in the required memoranda of understanding is how the
                                    costs of the system and the services provided will be funded.
                                    However, cost funding and cost sharing present special
                                    problems in a one-stop environment. Even before the passage
                                    of WIA, states and local governments moving toward integrated
                                    service delivery were faced with the challenge of allocating costs
                                    among the participating agencies. Because funding was
                                    received under multiple Federal, state and local programs, the
                                    early attempts at integration were often confronted with disparate
                                    rules and limitations regarding which costs were allowable, and
                                    to what extent, under each funding stream. Individual Federal
                                    programs were subject to different cost principles depending on
                                    the type of entity receiving the funds; JTPA was not directly subject
                                    to any Federal cost principles, but rather, to @substantially
                                    equivalent@ principles, as prescribed by the Secretary of Labor.




                                                         vii
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    These complexities greatly increased the administrative burden
                                    of accounting for costs and benefits in an environment where it
                                    was increasingly difficult to discern to which program the
                                    participants belonged and who should be paying the cost of their
                                    services. Moreover, a fundamental principle of Federal grant
                                    accounting -- that costs may be charged to a Federal program
                                    only to the extent that benefits are received by that program --
                                    created potential hazards for the participating agencies. For
                                    example, where a particular item of shared cost was not allowable
                                    under one set of program regulations, a disproportionate amount
                                    may have been borne by the other participating funding sources,
                                    contrary to Federal cost principles.

                                    To assist the early one-stops in addressing these issues, ETA
                                    published a technical assistance guide, Sharing Resources to
                                    Provide Integrated Services - A Guide to Activity-Based Cost
                                    Allocation, in April 1996. The guide proposed alternative cost
                                    allocation methodologies focusing on bottom line measures of
                                    benefits based on outcomes achieved (supportive services,
                                    training completions and job placements, for example), as
                                    opposed to more traditional approaches that emphasized
                                    processes and inputs (time, effort, space, etc.). Because of the
                                    new methodology’s potential for reducing the administrative
                                    burden associated with grant cost accounting, the Office of
                                    Management and Budget approved the guide for application on
                                    a pilot basis by a limited number of one-stop operators during
                                    Fiscal Years 1997 and 1998.

                                    We encourage ETA to continue its efforts to reduce the
                                    administrative burden of cost sharing in an increasingly
                                    integrated environment. We believe such efforts will enhance the
                                    ability of the WIA system to provide meaningful accounting for
                                    program costs by benefits received. Moreover, ETA’s initiative
                                    furthers the objectives of the Chief Financial Officers Act and the
                                    Government Performance and Results Act by moving the system
                                    toward measuring the full costs of results achieved under the
                                    Nation’s workforce development programs.

                                    We note that the same difficulties confronting cost sharing under
                                    the new workforce development system will also affect program
                                    results reporting, as the various organizations attempt to portray
                                    the achievements associated with their respective investments.



                                                        viii
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    The potentially fluid nature of how participants will move into and
                                    out of the various programs’ domains, further complicated by
                                    differing definitions of program inputs and outcomes, will tax the
                                    system to come up with ways to fairly present their programmatic
                                    results. We encourage ETA to address these issues through the
                                    policy development and rule making process.

 DOL FINANCIAL                      As noted in our last semiannual report, the Department has made
 SYSTEMS'                           great strides in financial management and has positioned itself to
 COMPLIANCE WITH                    prepare timely and accurate annual financial statements, as
 NEW FEDERAL                        required by the CFO Act and the Government Management
 REQUIREMENTS                       Reform Act. This is most notably evidenced by the fact that the
                                    Department received its first ever clean opinion on its financial
                                    statements for FY 1997. However, despite this progress, DOL
                                    still faces several significant deficiencies in its day-to-day
                                    accounting operations, primarily related to needed improve-
                                    ments in financial management system design.

                                    The OIG is required by the Federal Financial Management
                                    Improvement Act (FFMIA) to assess the Department’s financial
                                    management systems for compliance with a number of financial
                                    management and accounting requirements.               We have
                                    determined that seven DOL systems do not substantially meet
                                    one or more of these requirements. These systems pertain to the
                                    accounting for back wages, ETA grant-related receivables,
                                    MSHA and OSHA penalties, and Job Corps’ investment in real
                                    and personal property. FFMIA gives the Department 3 years to
                                    correct the noted deficiencies. The Department is now entering
                                    year 2 of the 3-year period. The Department should employ every
                                    effort to ensure these system deficiencies are corrected within
                                    the required time frame. We will assess the Department’s
                                    progress during our audit of the FY 1998 financial statements.




                                                        ix
  Semiannual Report to the Congress                                                                       April 1, 1998 - September 30, 1998




  SELECTED STATISTICS
  Office Of Audit

  Reports Issued On DOL Activities............................................................................... 47
  Total Questioned Costs .............................................................................. $20.8 million
  Dollars Resolved ........................................................................................... $9.3 million
  Allowed........................................................................................................... $1.0 million
  Disallowed ..................................................................................................... $8.3 million
  Recommendations That Funds Be Put To Better Use ............................... $2.3 million
  Other Monetary Impact .................................................................................. $5.2 million


  Office Of Investigations

  Cases Opened ............................................................................................................ 313
  Cases Closed ............................................................................................................. 224
  Cases Referred For Prosecution .............................................................................. 227
  Cases Referred For Administrative/Civil Action ....................................................... 175
  Indictments ................................................................................................................. 195
  Convictions ................................................................................................................. 144
  Debarments .................................................................................................................. 27

  Recoveries, Cost Efficiencies, Restitutions, Fines/Penalties,
  Forfeitures, And Civil Monetary Action ....................................................... $29,214,485




NOTE: The Office of Investigations conducts criminal investigations of individuals which can lead to prosecutions ("convictions") by criminal
complaints, warrants, informations, indictments, or pre-trial diversion agreements. Successful prosecutions may carry sentences such as
fines, restitutions, forfeitures, or other monetary penalties. The Office of Investigations' financial accomplishments also include administrative
and civil actions which are further detailed and defined can be found on page 90 of this report.




                                                                           x
Semiannual Report to the Congress                                                                             April 1, 1997 - September 30, 1997




TABLE OF CONTENTS

THE INSPECTOR GENERAL’S MESSAGE ..................................................................... i

TABLE OF CONTENTS ................................................................................................... ii

EXECUTIVE SUMMARY ................................................................................................. iv

SELECTED STATISTICS ............................................................................................... vii

EMPLOYMENT AND TRAINING ...................................................................................... 1
Job Training Partnership Act ...................................................................................................... 1
    Job Corps ................................................................................................................................. 2
School-To-Work ............................................................................................................................ 9
Barriers to Work-Based Learning ............................................................................................. 10
One-Stop Career Centers ......................................................................................................... 11
Other Employment and Training Programs ............................................................................. 12
Other Employment and Training Consultation ........................................................................ 13
Employment and Training Investigations ................................................................................. 14
Audit Resolution ......................................................................................................................... 16
      Unresolved Audits Over 180 Days Old ............................................................................... 18


WORKPLACE BENEFITS ............................................................................................. 20
Pension and Employee Benefit Plan Enforcement ................................................................. 20
Worker Disability Benefits ......................................................................................................... 24
Department of Labor Compensation Programs ............................................................................ 24
       Federal Employees’ Compensation Act Program ............................................................. 24
       Claimant Fraud .................................................................................................................. 28
       Longshore and Harbor Workers’ Compensation Act ......................................................... 30
Unemployment Insurance Benefits .......................................................................................... 31
Fraud in the Unemployment Insurance Program .......................................................................... 31
Audit Work in the UI program ........................................................................................................ 32

THE OIG LABOR RACKETEERING PROGRAM........................................................... 37
Industry Probes ........................................................................................................................... 38
Civil RICO Actions ...................................................................................................................... 38
Internal Union Affairs .................................................................................................................. 40
Employee Benefits and Pension Plans .................................................................................... 41




                                                                              ii
Semiannual Report to the Congress                                                                         April 1, 1997 - September 30, 1997




WORKPLACE STANDARDS ........................................................................................ 45
Wage and Hour ........................................................................................................................... 45
     Davis Bacon ...................................................................................................................... 45
     Davis Bacon Fraud ............................................................................................................ 46
     FLSA Enforcement ............................................................................................................ 47

DEPARTMENTAL MANAGEMENT .............................................................................. 48
Employee Integrity and Ethics.......................................................................................... 50

APPENDIX ..................................................................................................................... 51
Audit Schedules .............................................................................................................. 51
       Questioned Costs ................................................................................................ 51
       Disallowed Costs ................................................................................................ 51
       Recommendations That Funds Be Put To Better Use .......................................... 52
       Unresolved Audits Over 6 Months ........................................................................ 53
       Final Audit Reports Issued by the OIG .................................................................. 56

INVESTIGATIONS SCHEDULES .................................................................................60
     Breakdown of Accomplishments...........................................................................60
     Analysis of Complaint Activity ............................................................................... 61
     Financial Accomplishments .................................................................................. 62
     Office of Investigations Case List .......................................................................... xx




                                                                          iii
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998




EMPLOYMENT AND
TRAINING
OIG Goal: Optimize the use of funds appropriated for training and employment pro-
grams by enhancing program performance and accountability

                                    The Department of Labor is charged with providing employment
                                    and training services for the unemployed and underemployed,
                                    employment security for workers, and for administering programs
                                    that are directed to the employment needs of U.S. workers and
                                    the workforce needs of employers. The Department’s Employ-
                                    ment and Training Administration (ETA) administers a number
                                    of statutes related to this function. This function is accomplished
                                    through grants to states and through National programs.

                                    This continues to be a critical time in DOL’s history with respect
                                    to employment and training because DOL’s programs are an
                                    important factor in the implementation of welfare reform. The
                                    Department’s ability to provide effective training and employment
                                    services to help individuals transition from dependency on pub-
                                    lic assistance to self-sufficiency is key to the success of welfare
                                    reform. Of equal importance is the fact that with the passage of
                                    GPRA, Congress and the Administration are mandating that pro-
                                    grams be effective, have a positive impact, and produce a posi-
                                    tive return on the taxpayers’ investment.

                                    Because of the importance of DOL’s employment and training
                                    activities, the OIG has a goal under its 6-year GPRA Strategic
                                    Plan. Accordingly, the OIG is utilizing its extensive, in-house ex-
                                    perience with these programs to provide information to the De-
                                    partment and Congress regarding key programs.

                                    During this reporting period, the OIG devoted significant re-
                                    sources toward achieving our employment and training strategic
                                    goal. The OIG completed audits relating to various key pro-
                                    grams that identified performance problems and financial com-
                                    pliance weaknesses. Illustrations of our audit activities follow.
                                    The Job Training Partnership Act (JTPA) is the largest training
                                    program administered by ETA. The purpose of JTPA is to pre-
                                    pare youths and adults facing serious barriers to employment



                                                        1
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    for participation in the labor force, by providing them with train-
                                    ing and other services that will result in increased employment
                                    and earnings.


                                    We performed an audit of the JTPA Title II-A program’s efforts to
JOB TRAINING                        serve the Aid to Families with Dependent Children (AFDC) popu-
PARTNERSHIP                         lation by evaluating services received and outcomes obtained
ACT                                 for AFDC recipients who terminated from the JTPA program
                                    during the period July 1, 1995 through June 30, 1996. Our pur-
                                    pose was to establish some benchmarks which could be used
                                    to evaluate future programs’ progress in serving AFDC partici-
                                    pants.

Audit of JTPA                       While JTPA provided occupational skills training to only 32,238
Services to AFDC                    of 76,246 participants in the program year covered in our audit,
Population                          the audit revealed that those participants who received occupa-
                                    tional skills training had higher placement rates with employers,
                                    higher earnings in the year following termination from the pro-
                                    gram, and were more attached to a single employer than those
                                    who did not receive occupational skills training. Furthermore,
                                    while only a small percentage of those with math/reading skill
                                    deficiencies received non-occupational skills training to address
                                    those needs, those who received such training had higher earn-
                                    ings than those who did not receive training.

                                    Of the 76,246 AFDC recipients served under JTPA during our
                                    audit:

                                       •   42,488 (56 percent) received JTPA-funded training
                                       •   19,005 (25 percent) appeared to have received some
                                            type of training from other funding sources (e.g.,
                                           JOBS,Pell grants)
                                       •   14,753 (19 percent) received no training from any source
                                           -774 received some JTPA-funded supportive services
                                           -13,979 received only objective assessment




                                                        2
Semiannual Report to the Congress                                         April 1, 1998 - September 30, 1998



                                JTPA outcomes for AFDC recipients:

                                •     AFDC Status: 52,238 participants (69 percent) were
                                      not receiving AFDC at the time of our audit fieldwork.
                                      However, the reason these participants’ AFDC was
                                      stopped does not appear to be because of the partici-
                                      pants’ post-JTPA earnings: 15 percent had no earnings,
                                      and 44 percent had no earnings or earnings of less than
                                      $5,000 for the four quarters following the quarter of termi-
                                      nation from the JTPA program.

                                •     Earnings capacity: For the 4 quarters following the JTPA
                                      program termination quarter, 23 percent of all AFDC re-
                                      cipients had no earnings, 40 percent had no earnings or
                                      earned less than $2,500, and 54 percent had no earnings
                                      or earned less than $5,000. Participants who received
                                      JTPA-funded occupational skills training tended to have
                                      more earnings in the year following the quarter of termi-
                                      nation from the JTPA program than those participants who
                                      received only non-occupational training or objective as-
                                      sessment. Furthermore, participants who received non-
                                      occupational skills training to address reading and math
                                      skills deficiencies earned more than those who did not
                                      receive the training.

                                •     Participants’ attachment to the labor market: For the
                                      year following their program termination, 29,875
                                      particpants (39 percent) had wages in all four quarters.
                                      Of these participants, 19,685 (66 percent) had wages with
                                      only oneor two employers. Of the 19,685, 73.5 percent
                                      received occupational training while in JTPA.

                                •      Placement rates into unsubsidized employment:
                                      The Service Delivery Areas (SDA) reported placements
                                      for 38,364 participants (50 percent). We found that 69
                                      percent of the participants who received occupational
                                      skills training were placed, 39 percent of those who re-
                                      ceived only non-occupational skills training were placed,
                                      and only 4 percent of those who received no training were
                                      placed.




                                                   3
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    Characteristics of AFDC recipients:

                                    •      The typical AFDC recipient who enrolled in the JTPA pro-
                                           gram was an unemployed, single mother under 30 years
                                           of age with one dependent. The participant had little or no
                                           previous work history, a 12th grade education or GED,
                                           and received between $250 and $500 per month in AFDC
                                           benefits.

                                    •      The vast majority (76 percent) of JTPA’s AFDC
                                           recipients had a high school diploma/GED education or
                                           higher, although the reading and math skills for these
                                           participants did not reflect the higher level of education
                                           (i.e., of the high school graduate/GED education level
                                           participants, 45 percent had math skills and 14 percent
                                           had reading skills below the 9th grade level).

                                    •       Further, 9 percent of the participants had no barriers to
                                           employment, and 71 percent had two or fewer barriers to
                                           employment documented in the Standardized Program
                                           Information Report (SPIR) or SDAs’ management infor-
                                           mation systems.

                                    This report was intended for informational purposes and did not
                                    include any recommendations. (Report No. 06-98-002-03-340; issued
                                    May 7, 1998)

  Audit of Florida’s                The OIG audited Florida’s Performance Based Incentive Fund-
  Performance Based                 ing (PBIF) program. Community colleges and adult vocational
  Incentive Funding                 schools that participated in the PBIF program received fixed-fee
  Program                           “incentive payments” when JTPA eligible students enrolled in
                                    prescribed courses, received another fee after a JTPA student
                                    completed training, and received a final incentive payment when
                                    a JTPA student found a job. The fees were loosely based upon
                                    the schools’ average per-student-instructional costs for the pre-
                                    vious year. The fees were recalculated annually. Florida’s legis-
                                    lature required that PBIF funds be used for such purposes as
                                    upgrading equipment and expanding educational programs.

                                    We reviewed PBIF program activities that occurred during the
                                    period March 1, 1995 through June 9, 1998. As a part of our
                                    audit, we selected a random sample of 18 community colleges




                                                        4
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    and school districts and a sample of 270 JTPA participants for
                                    whom the schools had received “incentive payments” to deter-
                                    mine what services had been received. Most of the students
                                    had been referred to the schools by Regional Workforce Devel-
                                    opment Boards (RWDBs), which also receive JTPA and other
                                    Federal monies.

                                    In our sample, RWDBs paid for 92 percent of JTPA students’
                                    tuition and fees from Federal sources (predominately JTPA
                                    funds). Hence, the “incentive payments” received by the schools
                                    were in addition to tuition and fees already paid with JTPA funds
                                    for students referred by the RWDBs.

                                    Interviews with school officials and students alike revealed that
                                    JTPA students were required to meet the same entrance crite-
                                    ria, had to satisfy the same academic requirements, and received
                                    the same placement assistance as the general student popula-
                                    tion. School officials indicated they did not provide JTPA stu-
                                    dents with any services that were not available to the general
                                    student population.

                                    Our audit concluded that the fees paid the schools were not jus-
                                    tified. For JTPA expenditures to be allowable, they must be nec-
                                    essary and reasonable, provide activities which are in addition
                                    to those already available in an area, and not be a general ex-
                                    pense required to carry out responsibilities of state or local gov-
                                    ernments.

                                    We concluded that the PBIF program is a funding mechanism
                                    that uses JTPA monies as a means of supplanting Florida’s adult
                                    educational costs. There is no distinction between the services
                                    provided JTPA students, for whom the schools received addi-
                                    tional fees (incentive payments), and the services provided to
                                    the general student population. Had JTPA funds not been avail-
                                    able, state and local funds would have been required to enhance
                                    adult vocational programs.

                                    We recommended that ETA recover $11,419,499 of JTPA funds
                                    that Florida misspent on the PBIF program and any additional
                                    JTPA funds misspent on the program subsequent to our audit




                                                        5
Semiannual Report to the Congress                                             April 1, 1998 - September 30, 1998



                                    period. We also recommended that ETA closely monitor Florida’s
                                    grant activities to ensure that programs are consistent with the
                                    JTPA.

                                    In its response, Florida indicated that the PBIF program was
                                    never intended to fund special services to any sub-set of its
                                    student clientele. The response also indicates that without fi-
                                    nancial inducements, the schools are under no obligation to re-
                                    focus their programs on high skills/high wage programs or ex-
                                    pand their capacity to serve more students, particularly those
                                    from “designated populations.”

                                    We disagree. The PBIF program operated outside the param-
                                    eters allowed by the JTPA’s provisions. JTPA monies are pro-
                                    vided expressly for the purpose of assisting certain target group
                                    members. As Florida residents, JTPA participants are entitled
                                    to have a portion of their educational costs borne by the State,
                                    as occurs for other students. However, the PBIF program did not
                                    use JTPA funds to provide additional services or assistance to
                                    JTPA students. (Report Number 04-98-005-03-340; issued September
                                    25, 1998)

Audit of JobMatch                   We performed a financial/compliance and program results audit
Grant                               of JobMatch, one of 13 DOL-funded demonstration projects com-
                                    prising the Health Care Workers Retraining Program adminis-
                                    tered under JTPA Title III . JobMatch was jointly operated by the
                                    Service Employees International Union and San Francisco State
                                    University to serve 100 “at risk” employees of San Francisco’s
                                    Department of Public Health. The audit covered the grant pe-
                                    riod June 30, 1995 through December 31, 1996.

                                    We concluded that ETA could not rely on the financial or pro-
                                    gram results reported by JobMatch. The Grantee’s Detailed
                                    Statement of Costs did not accurately reflect allowable expendi-
                                    tures made by JobMatch in accordance with the grant agree-
                                    ment. In addition, the program results reported by JobMatch
                                    were not reliable or complete.

                                    For the audit period, JobMatch reported and claimed costs of
                                    $471,810. Due to the weaknesses in internal controls and lack
                                    of supporting documentation for certain costs, we questioned
                                    $243,078, or over half of the total claimed. We also found that




                                                        6
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    JobMatch had not accurately reported program results or fulfilled
                                    summary reporting requirements.

                                    We recommended the Assistant Secretary for Employment and
                                    Training:

                                    •      Disallow the $243,078 in identified questioned costs.

                                    •      Require JobMatch to submit a corrected Grantee’s De-
                                           tailed Statement of Costs as part of the grant’s financial
                                           reporting responsibilities.

                                    •      Require JobMatch to submit complete documentation on
                                           the 56 individuals who received services.

                                    •      Require JobMatch to submit a final project report to ETA.

                                    JobMatch agreed that some costs had been duplicated or were
                                    not supported and, in response to our audit, they voluntarily re-
                                    turned $78,565 to DOL. However, JobMatch did not agree with
                                    all of the questioned costs in the audit report and subsequently
                                    forwarded revised cost figures. (Report No. 09-98-003-03-340; issued
                                    September 29, 1998)



                                    Under JTPA Title IV, DOL administers a number of Federal pro-
 FEDERALLY                          grams to provide employment and training services to targeted
 ADMINISTERED                       groups. Programs administered under Title IV include the Na-
 PROGRAMS                           tive American Program, the Migrant and Seasonal Farmworker
                                    Program, and the Job Corps Program. In addition, DOL carries
                                    out other “National Activities” to help individuals with special
                                    needs.

 NATIVE AMERICAN                    In response to a congressional request, the OIG conducted a
 PROGRAMS                           financial and compliance audit of Job Training Partnership Act
                                    (JTPA) grants awarded to the Cherokee Nation of Oklahoma
                                    (Cherokee Nation) as follows: Title IV-A, Sec. 401, Native Ameri-
 Cherokee Nation                    can Programs (July 1, 1994 through June 30, 1997) and Title II-
 JTPA Financial and                 B, Summer Youth Employment and Training Program (SYETP)
 Compliance Audit                   (October 1, 1994 through September 30, 1997).




                                                          7
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    We identified significant weaknesses in the internal control struc-
                                    ture over Federal funds received by the Cherokee Nation. We
                                    determined that their financial management system did not meet
                                    administrative requirements applicable to Native American Tribal
                                    Government grantees during our 3-year audit period.

                                    The audit identified $529,272 of direct and indirect questioned
                                    costs which resulted from excessive lease costs, employee com-
                                    pensation expenses being overcharged and misclassified to
                                    JTPA, unallowable GSA vehicle expenses, unsupported adjust-
                                    ments to the general ledger to shift costs from other programs to
                                    JTPA, unallowable travel expenses, and unsupported equipment
                                    charges. In addition, we identified $145,048 in costs that were
                                    charged to the wrong program cost category. For example,
                                    $141,620 of employee compensation costs for JTPA adminis-
                                    trative tasks were misclassified as training assistance rather than
                                    administrative costs.

                                    We recommended that the Assistant Secretary for Employment
                                    and Training disallow $529,272 of reported costs and require
                                    the grantee to reallocate $145,048 of misclassified costs from
                                    the training assistance to the administration cost category. We
                                    also recommended that the Assistant Secretary require the
                                    Cherokee Nation to correct the long-standing inadequacies of
                                    its accounting and financial management systems, develop and
                                    implement written policies and procedures sufficient to maintain
                                    control and accountability over JTPA funds and other assets,
                                    implement planned corrective actions relative to past and present
                                    audit recommendations, maintain adequate records to support
                                    the expenditure of all JTPA funds, discontinue the practice of
                                    shifting expenses from other programs to JTPA to overcome other
                                    programs’ fund deficiencies, and develop and implement inter-
                                    nal controls adequate to safeguard and account for JTPA prop-
                                    erty. The Cherokee Nation responded that their financial man-
                                    agement system was undergoing major improvements that should
                                    be soon implemented. They disagreed with the questioned costs
                                    issues, but did not provide sufficient documentation to change
                                    our recommendations. (Report No. 06-98-009-03-340; issued Septem-
                                    ber 25, 1998)




                                                        8
Semiannual Report to the Congress                                                 April 1, 1998 - September 30, 1998



  MIGRANT AND                       The Migrant and Seasonal Farmworker (MSFW) Program is ad-
  SEASONAL                          ministered nationwide through grants to public and nonprofit or-
  FARMWORKER                        ganizations. The program aims to address the special training,
  PROGRAMS                          educational, and employment needs of seasonal farmworkers.

 Audit of Portable                  We conducted an audit of the Portable Practical Educational
 Practical Educational              Preparation, Inc. (PPEP), covering operations for Program Year
 Preparation, Inc.                  (PY) 1996. PPEP operates in Arizona and provides a variety of
                                    employment-related services. Overall, we concluded PPEP was
                                    properly administering its MSFW program funds. PPEP’s fi-
                                    nancial systems were adequate and program results were ad-
                                    equately reported and properly supported. However, in PY 1996,
                                    PPEP reported and claimed costs of $2,059,677 for two DOL
                                    grants. Of this amount, our report questioned costs of $183,286.
                                    We questioned: (a) $118,434 because the costs of the MSFW
                                    program funds were used to pay for nonparticipants, and (b)
                                    $64,852 because of inaccuracies in the costs for PPEP’s loan
                                    program to small businesses. In response to the draft report,
                                    PPEP generally disagreed with our first finding and recommen-
                                    dation, stating that they had followed ETA guidelines. For the
                                    second finding, PPEP proposed to change its procedures for
                                    allocating costs for their loan program to the MSFW program.
                                    (Report No. 09-98-004-03-365; issued September 28, 1998)



 JOB CORPS                          The Job Corps is a residential training program that helps allevi-
                                    ate severe employment problems faced by economically disad-
                                    vantaged youth by providing educational and vocational skills
                                    training, work experience, counseling, housing and other sup-
                                    port services at 114 Job Corps Centers nationwide. More than
                                    1.8 million young people have been served since the program’s
                                    inception in 1964, and more than 68,000 are served each year.

 OIG Questions                      At ETA’s request, the OIG reviewed additional construction costs
 $618,776 of                        claimed by Aspinet Construction Company (Aspinet) in a revised
 Additional Costs by                Request for Equitable Adjustment (REA). In June 1995, the Job
 Job Corps Con-                     Corps entered into a fixed-price contract with Aspinet to com-
 struction Contractor               plete the renovation of several buildings of the Job Corps Center
                                    in New Haven, Connecticut. This contract was a replacement for
                                    a defaulted contract. Through modifications and change orders,
                                    the contract amount totaled $4,266,155.




                                                         9
Semiannual Report to the Congress                                                  April 1, 1998 - September 30, 1998



                                    In February 1996, Aspinet submitted a Request for Equitable
                                    Adjustment (REA). Aspinet asserted that the contract comple-
                                    tion date had been extended due to numerous changes in con-
                                    struction procedures ordered by Job Corps and that the result-
                                    ing delay in the contract completion date caused them to incur
                                    increased costs for which they were not reimbursed. Aspinet
                                    further asserted that the change orders issued by Job Corps,
                                    which ultimately resulted in contract modifications, were neces-
                                    sitated by hidden and concealed conditions which surfaced with
                                    regularity. Aspinet stated that the situation required their con-
                                    stant presence on the job and precluded it from using its re-
                                    sources on other revenue-producing projects.

                                    In February 1997, Aspinet submitted a “certified” revised REA
                                    which claimed $820,702 in net additional costs and mark-ups.
                                    The REA included costs for extended home office overhead,
                                    extended field office overhead, subcontractor costs, professional
                                    fees, interest, and profit. The OIG report questions, or sets aside
                                    for review by the Contracting Officer, $618,776 (or 75 percent)
                                    of the contractor’s claim. The primary reason OIG questioned
                                    the costs was that Aspinet and its subcontractors failed to com-
                                    ply with the Federal cost reimbursement principles and/or the
                                    terms and conditions of the DOL construction contract. (Report
                                    (No. 18-98-011-03-370; issued July 28, 1998)



 CONSULTATION                       The Job Corps’ National Training Contractors (NTCs) are orga-
 ACTIVITIES                         nizations which have union and/or industry affiliations and are
                                    long-standing providers of vocational training services at Job
                                    Corps centers nationwide. Nine NTCs are collectively awarded
                                    about $41 million annually to provide vocational training and
                                    placement services to Job Corps students, primarily in the con-
                                    struction industry.

  JobCorps                          In September 1997, the OIG issued an audit report on the Plas-
  Workgroup                         terers and Cement Masons Program. A primary finding of the
  Improves Placement                report was that approximately 76 percent of the students placed
  Services                          in training-related employment remained employed with the ini-
                                    tial employer only about 3½ months. Further, the majority of these
                                    former students had very low wages reported in state Unemploy-
                                    ment Insurance wage records. The OIG found that minimal post-
                                    placement follow-up services were being provided to these former




                                                          10
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    students. Given the significant amount of resources invested in
                                    the students’ Job Corps training, we recommended that addi-
                                    tional post-placement follow-up be provided to improve the stu-
                                    dents’ post-program employment experience.

                                    In the time since the OIG’s finding and recommendation, the Of-
                                    fice of Job Corps established an “NTC Placement Follow-up
                                    Workgroup,” comprised of representatives from all nine NTCs,
                                    the Office of Job Corps, and the OIG. As a result of initiatives
                                    developed by the Workgroup, all nine NTCs have independently
                                    implemented post-placement follow-up procedures for their re-
                                    spective organizations. Further, the Office of Job Corps now
                                    includes language in each NTC contract requiring that job place-
                                    ment and post-termination follow-up services be provided to stu-
                                    dent completers for one year from the date they leave the pro-
                                    gram.

                                    Data submitted by the NTCs for the two quarters after imple-
                                    mentation of the follow-up procedures indicate that a significant
                                    number of additional placements and job search assistance are
                                    being provided to former students. For example, for the two quar-
                                    ters ending June 30, 1998, the Home Builders Institute reported
                                    that an additional 1,576 student completers were contacted, that
                                    job search assistance was provided to 781 of the completers,
                                    and jobs were found for 686 completers. The workgroup plans
                                    to continue to meet periodically to share results and provide each
                                    organization an opportunity to adopt the most effective proce-
                                    dures for its organization.

 Job Corps                          In March 1998, the OIG issued an audit report of placement ser-
 Placement                          vices to terminating Job Corps students. (Adopting Best Prac-
 Contractor                         tices Can Improve Placement Services to Students Terminat-
 Workgroup
                                    ing From the Job Corps Program - Report No. 03-98-006-03-
                                    370). The audit was a cooperative effort with Job Corps which
                                    found that, although there have been significant improvements
                                    in placement results in recent years, improvements need to be
                                    made in delivering and documenting the placement services pro-
                                    vided to Job Corps students.

                                    The Director of Job Corps created a workgroup to address the
                                    report recommendations. The workgroup consisted of repre-
                                    sentatives from Job Corps’ national and regional offices, place-




                                                       11
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    ment contractors, and the OIG. The overall purpose of the
                                    workgroup was to develop the products needed to implement
                                    the audit report recommendations. Specifically, the tasks re-
                                    quired the workgroup to develop policy changes, an instrument
                                    to document placement contractors’ student assessment and the
                                    action plan for placing the student, a monitoring guide to be used
                                    by Job Corps regional office staff to monitor placement contrac-
                                    tors, and a memorandum to communicate the best practices to
                                    all placement contractors. The workgroup completed all the as-
                                    signed tasks and the results were provided to the Director of
                                    Job Corps on May 1, 1998. Job Corps is in the process of imple-
                                    menting the workgroup recommendations.


 NATIONAL                           We conducted a financial, compliance, and performance audit
 ACTIVITIES                         of the noncompetitive Title IV Disability Program Grant of The
                                    Arc of the United States for the period July 1, 1995, through June
 Audit of the Arc of the            30, 1997. The grant was administered by The Arc’s National
 United States                      Employment Training Program (NETP) division. The purpose of
 Disability Program                 the grant was to provide on-the-job training (OJT) opportunities
 Grant                              to individuals with IQs of 70 or below to enhance their opportuni-
                                    ties to enter the labor market. We found the grantee’s costs to
                                    be allowable and supported and the grantee’s program outcomes
                                    to be positive.

                                    Generally, we found that of the participants for whom employers
                                    received some OJT costs reimbursement, 76 percent were re-
                                    ported by The Arc as placed in unsubsidized employment after
                                    program completion or termination. Our independent analysis
                                    of three quarters of post-program wages for a sample of 300
                                    participants supports The Arc’s claimed 76 percent placement
                                    rate. In fact, we found 81 percent of our sample had some wages
                                    in one or more of the three quarters following the quarter they
                                    completed or were terminated from the OJT program. Further-
                                    more, 36 percent of those participants with post-program earn-
                                    ings had wages with one or more non-OJT employers, 47 per-
                                    cent had wages in all three quarters, and 81 percent had wages
                                    in at least two quarters.

                                    Based on the average three quarters of earnings for the 300
                                    participants evaluated, annualized earnings for these participants
                                    were approximately $3,600. While the annualized earnings may




                                                       12
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    not appear to be significant, these earnings are for individuals
                                    with IQs of 70 and below who are working part-time, and who,
                                    without this program, may not have had the opportunity to earn
                                    any income. Consequently, the investment of $1,068 per en-
                                    rollee appears to be reasonable for the program outcomes, both
                                    earnings and attachment to the labor market. (Report No. 06-98-
                                    008-03-340; issued September 14, 1998)



                                    The School-to-Work Opportunities Act of 1994 provides the op-
 SCHOOL                             portunity for states to establish School-to-Work (STW) systems
 TO                                 using Federal funding provided and administered jointly by the
 WORK                               U.S. Departments of Education and Labor. Federal funds are to
                                    be used as venture capital to underwrite the initial costs of es-
                                    tablishing statewide STW systems that will eventually be main-
                                    tained with other Federal, state, and local resources. Consis-
                                    tent with our commitment to provide technical assistance to the
                                    Department, the OIG worked with the National School-to-Work
                                    Opportunities Office to develop those elements that are indica-
                                    tive of a sustainable STW system.

 Iowa School-to-Work                The School-to-Work (STW) Opportunities Act of 1994 provides
 Program Can Be                     opportunities for states and localities to establish STW systems
 Enhanced                           using Federal funding provided and administered jointly by the
                                    U.S. Departments of Education and Labor. Federal funds are to
                                    be used as venture capital to underwrite the initial costs of es-
                                    tablishing statewide STW systems that eventually will be main-
                                    tained with other Federal, state, and local resources. Consis-
                                    tent with our commitment to provide technical assistance to the
                                    Department, the OIG previously worked with the National School-
                                    to-Work Opportunities Office and the Department of Education
                                    OIG to develop those elements that are indicative of a sustain-
                                    able STW system.

                                    The State of Iowa received Federal funding to establish a state-
                                    wide STW system. The OIG conducted a performance audit on
                                    the sustainability of Iowa’s STW initiative. Specifically, our ob-
                                    jective was to determine if Iowa had institutionalized the elements
                                    identified as indicative of a sustainable STW system. Iowa’s
                                    STW system is administered by the Iowa Department of Eco-
                                    nomic Development, the Iowa Department of Education, and Iowa
                                    Workforce Development.




                                                        13
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    Our audit disclosed that Iowa had initiated numerous actions that,
                                    when fully implemented, should ensure the sustainability of the
                                    statewide STW initiative after the expiration of STW Federal fund-
                                    ing, slated for September 30, 2000. Some notable examples
                                    include: the enactment of State law, the establishment of sup-
                                    portive policies and strategies, and the active interdepartmental
                                    participation and leadership of State government.

                                    However, our audit identified three potential limitations where
                                    enhancements may be needed to ensure the sustainability of the
                                    Iowa’s STW system. We recommended that ETA collaborate
                                    with the State to address the following:

                                    •      Student participation in STW activities is not a statewide
                                           graduation requirement.

                                    •      State certification requirements for teachers and guidance
                                           counselors lack mandatory STW training.

                                    •      The development of Iowa’s Integrated Information Sys-
                                           tem needs to be expedited.

                                    ETA and Iowa officials agree in principle that our recommenda-
                                    tions are pieces that could help build an even deeper sustaining
                                    element for Iowa. However, regarding the first and second find-
                                    ings, ETA officials believe that the STW Act specifically desig-
                                    nates policy and decision-making authority as being solely within
                                    the purview of the State.

                                    Iowa officials believe that collaborating with ETA officials on es-
                                    tablishing graduation requirements would only aid in promoting
                                    the current concern that the Federal and State Governments de-
                                    sire to eliminate local control. Iowa officials will submit a recom-
                                    mendation to the State of Iowa Board of Educational Examiners
                                    indicating that serious consideration be given to adding STW-
                                    related training to the State certification criteria regarding new
                                    teachers entering the education system.

                                    ETA and Iowa officials agree with the third recommendation. ETA
                                    officials agree that the timely implementation of a sound data




                                                        14
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    management system is an important component in the evalua-
                                    tion, accountability, and continuous improvement of STW sys-
                                    tems.

                                    In consideration of ETA’s and Iowa’s responses, we have par-
                                    tially resolved the second finding and resolved the third finding.
                                    However, the first finding remains unresolved. (Report No. 05-98-
                                    006-03-385; issued September 28, 1998)



                                    The Senior Community Service Employment Program (SCSEP)
 SENIOR                             is authorized under Title V of the Older Americans Act of 1965,
 COMMUNITY                          and funded through grants from the U.S. Department of Labor to
                                    public and private nonprofit national-level organizations and to
 SERVICE
                                    units of State government. The purpose of the SCSEP is to pro-
 EMPLOYMENT                         vide subsidized part-time work/training opportunities in commu-
 PROGRAM                            nity service activities for unemployed low-income persons, 55
                                    years and older.


 National Council of                As one of the private nonprofit national-level organizations, for
 Senior Citizens                    over 20 years the National Council of Senior Citizens (NCSC)
                                    has received a grant as a sponsor of the SCSEP program. Its
                                    Program Year (PY)1997 grant amount was $66.4 million which,
                                    through 147 local affiliates, provided work and training oppor-
                                    tunities for 9,300 older workers.

                                    During PY 1983, uncertainty existed regarding the continued
                                    existence of the SCSEP. In response to this uncertainty, the
                                    NCSC established a NCSC/DOL Unemployment Insurance Con-
                                    tingency Fund (Fund) whose purpose was to provide financial
                                    assistance in lieu of unemployment insurance benefits to pro-
                                    gram enrollees who, had the program been terminated, would
                                    have lost their SCSEP work/training positions. The creation of
                                    the Fund was authorized by DOL for the purpose described above.
                                    Accordingly, the Fund was established in 1984 with an initial
                                    contribution of $1.8 million of unspent SCSEP grant funds, spe-
                                    cifically for the purpose of paying unemployment compensation-
                                    like benefits to NCSC’s approximately 10,000 program enroll-
                                    ees in the event the program was terminated. The program, how-
                                    ever, was not terminated and continued to operate in a normal
                                    fashion. Subsequently, NCSC did not make any program re-




                                                        15
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    lated disbursements from the Fund, specifically payments to pro-
                                    gram enrollees, whether they were terminated or not.

                                    In 1988, NCSC transferred amounts in the Fund to a newly-cre-
                                    ated NCSC/DOL Unemployment Trust Fund (Trust). This trans-
                                    fer occurred 3 years before NCSC incurred its first program-
                                    related expense (termination payments for older workers leav-
                                    ing the program) from the Fund/Trust, and by which time the predi-
                                    cate contingency which fostered creation of the Fund had long-
                                    since dissipated.

                                    The OIG performed an “agreed-upon procedures” review of the
                                    Fund (which operated 1984-1988) and its successor, the Trust
                                    (which operated 1988 - 1998). Through March 5, 1998, total
                                    Fund/Trust revenues were about $9 million. This included contri-
                                    butions by NCSC of over $4.2 million of unspent SCSEP grant
                                    funds, and earned investment income of over $4.7 million. Pro-
                                    gram expenses included (a) about $1.8 million for termination
                                    payments and hospital indemnity plan insurance, and (b) ad-
                                    ministrative expenses of almost $1.1 million. As of March 5,
                                    1988, there was a Trust balance of about $6.1 million.

                                    The OIG concluded that there was no genuine need for this fund,
                                    no regulatory or grant conditions which supported its existence,
                                    and the funds in the Trust retained their Federal designation.
                                    Accordingly, the OIG questioned the legitimacy of the Trust, and
                                    recommended that ETA require NCSC to discontinue the Trust
                                    and return the Trust balance to the U.S. Treasury. The DOL Grant
                                    Officer agreed with the OIG recommendations, determined that
                                    the Trust was inappropriate, and in a letter dated February 3,
                                    1998, directed NCSC to terminate the Trust and return the Trust
                                    balance to the U.S. Treasury. NCSC disagreed with the Grant
                                    Officer and on February 4, 1998, filed suit in the U.S. District
                                    Court for the District of Columbia for the purpose of obtaining a
                                    ruling that the funds in the Trust were non-Federal over which the
                                    Department of Labor had no claim or control.

                                    Subsequently, NCSC entered into a Settlement Agreement with
                                    the Department, which is discussed in the Audit Resolution sec-
                                    tion of this report. NCSC has since returned over $5 million to
                                    the U.S. Treasury and almost $1 million to the Senior Aides Pro-
                                    gram. (Report No. 18-98-009-03-360; issued April 24, 1998)




                                                       16
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



  Audit of the National             Our audit of the National Asian Pacific Center on Aging (NAPCA)
  Asian Pacific Center              identified $330,146 of questionable expenditures charged to
  on Aging                          three Federal grant programs: $157,872 - DOL, $109,373 - En-
                                    vironmental Protection Agency, and $62,901 - Health and Hu-
                                    man Services. We performed this audit in response to com-
                                    plaints received by DOL alleging that NAPCA was misusing
                                    Federal grant monies by charging the Federal grant programs
                                    for inappropriate or unallowable administrative activities. Spe-
                                    cifically the complaints alleged that: (1) administrative staff were
                                    pressured into accepting a year-end salary bonus paid from
                                    Federal grant funds and then required to “donate” the majority of
                                    the bonus payment back to the NAPCA; (2) consulting contracts
                                    were being awarded to friends of NAPCA management at in-
                                    flated prices; (3) NAPCA was engaging in lobbying activities
                                    usingFederal grant funds and using grant monies to pay for air
                                    travel, entertainment and gifts for members of Congress or their
                                    staffs; (4) inappropriate travel and miscellaneous expense
                                    charges were being reimbursed by Federal grants; and (5) furni-
                                    ture and equipment purchased with grant monies were being
                                    used for personal benefit by staff members or were unneces-
                                    sary for efficient grant operation.

                                    We identified and developed evidence which supported all or
                                    part of the first four allegations. We did not attempt to develop
                                    evidence to support the fifth complaint because NAPCA did not
                                    maintain property management records.

                                    We concluded the issues highlighted in the complaints are symp-
                                    tomatic of a larger, pervasive set of system flaws which crosscut
                                    all NAPCA Federal grant programs. NAPCA has not established
                                    and implemented adequate systems to ensure administrative
                                    expenditures charged to Federal grant programs are allowable
                                    and properly allocated among the programs. Specifically,
                                    NAPCA does not maintain adequate financial management, pro-
                                    curement and property management systems as required by
                                    Office of Management and Budget (OMB) Circulars A-122 and
                                    A-110.

                                    We recommended the Assistant Secretary for Employment and
                                    Training: (1) take immediate action to recover $157,872 of unal-
                                    lowable DOL grant reimbursements; (2) award no further grants
                                    to NAPCA until ETA is satisfied that acceptable program man-




                                                        17
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



                                    agement systems have been established to safeguard grant
                                    funds; and (3) place NAPCA on Special Award Status as de-
                                    fined in OMB Circular A-110, Subpart B once the required man-
                                    agement systems are established and implemented.

                                    Our recommendations apply only to funds granted by DOL. The
                                    Inspectors General of other affected Federal agencies have been
                                    notified of our findings and will make their own determinations
                                    based upon their analysis of the issues. (Report No. 09-98-201-03-
                                    360; issued September 30, 1998)



                                    Following the January 1994 California earthquake, Congress
 OTHER                              passed a supplemental appropriation to fund a variety of post-
 EMPLOYMENT                         earthquake rehabilitation and related activities. In January 1995,
 AND TRAINING                       the Los Angeles County Service Delivery Area, Community and
                                    Senior Services of Los Angeles County (CSSLAC), received a
 PROGRAMS
                                    $5 million grant to provide pre-apprenticeship training to 1,000
                                    young adults living in the areas most impacted by the earthquake.
                                    Once these individuals completed the training, they were to be
 Los Angeles County
                                    placed in apprentice positions with firms engaged in earthquake
 Successfully
                                    recovery and other federally funded construction projects. The
 Implements
                                    OIG audited the $4.2 million of grant funds expended by the
 Earthquake
                                    County for the period January 1995 through June 1997.
 Recovery Program
                                    The grant required that at least 85 percent of the participants be
                                    between 18 and 35 years of age, and that no more that 15 per-
                                    cent of the participants be between 36 and 40. The OIG found
                                    that Los Angeles CSSLAC was effectively providing services to
                                    these individuals as required by the grant. Furthermore, the grant
                                    funds were, for the most part, properly expended. The audit re-
                                    sulted in questioned costs totaling $89,576, or about 2 percent
                                    of the grant expenditures. The preponderance of questioned
                                    costs, $75,446, resulted from charges which were not supported
                                    by documentation sufficient for the auditors to conclude that they
                                    were proper grant expenditures. Other questioned costs resulted
                                    from ineligible participants, overpayments, and prior year costs
                                    which were allocated to the current year. CSSLAC concurred
                                    with most of the OIG’s findings. (Report No. 18-98-007-03-001; issued
                                    April 7, 1998)




                                                        18
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



                                    Most OIG audit reports contain recommendations for improved
 AUDIT                              operations and, where appropriate, question Federal funds which
 RESOLUTION                         were improperly expended. Completion of an audit, however, is
                                    only one component of the auditing process, whose ultimate ob-
                                    jective is more efficient or effective government operations. Af-
                                    ter the audit report has been issued, it is the responsibility of the
                                    DOL program agency to take corrective action and/or recover
                                    improperly expended funds. The following are examples of sig-
                                    nificant audit resolution achieved during this reporting period.

 DOL Recovers                       The OIG issued an audit report questioning the legitimacy of the
 $6.1 Million from                  Unemployment Insurance contingency fund of the National Coun-
 NCSC                               cil of Senior Citizens (NCSC). The fund was first established in
                                    1984 with unspent DOL grant funds. The OIG recommended
                                    that ETA require NCSC to discontinue the fund and return the
                                    balance to the U.S. Treasury.

                                    In a negotiated Settlement Agreement, NCSC has agreed to
                                    return to the U.S. Treasury all of the grant funds contributed plus
                                    one-half of the interest balance, or a total of $5,168,282. On
                                    August 7, 1998, the Department of Justice received this amount
                                    on behalf of DOL. Further, DOL has agreed to recognize the
                                    other one-half of the interest balance, or $931,391, as program
                                    income for use in NCSC’s Senior Community Service Employ-
                                    ment Program grants for Program Years 1998 and 1999. NCSC
                                    has agreed to dissolve the fund and completely expend this pro-
                                    gram income by June 30, 2000. (Report No. 18-98-009-03-360, issued
                                    April 24, 1998)

 DOL Recovers                       The OIG issued an audit report on the National Council on the
 $554,475 from NCOA                 Aging, Inc. (NCOA) costs claimed under its Federal SCSEP
                                    grants for the 3-year period of January 1991 through December
                                    1993. The report questioned $1.2 million, the majority of which
                                    were indirect costs. In April 1997, the DOL Grant Officer disal-
                                    lowed the entire $1.2 million questioned. The DOL portion of the
                                    disallowed costs was $963,793, with the remaining portion per-
                                    taining to other Federal agencies which awarded funding to
                                    NCOA. Although NCOA appealed the Grant Officer’s decision
                                    to the DOL’s Office of Administrative Law Judges, NCOA and
                                    DOL continued discussions towards reaching a settlement.




                                                        19
Semiannual Report to the Congress                                                 April 1, 1998 - September 30, 1998



                                    Because the audit questioned certain indirect costs which re-
                                    sulted from NCOA accounting practices that remained uncor-
                                    rected during Fiscal Years 1994-1996, which were subsequent
                                    to the audit period, both parties agreed that, had these years
                                    been audited, $300,000 represented a reasonable estimate of
                                    disallowed indirect costs for the DOL grants for this period. Fur-
                                    ther, inasmuch as DOL agreed not to audit the indirect costs
                                    claimed for this period, absent indications of fraud, both parties
                                    accepted $1,263,793 as the final amount of DOL disallowed
                                    costs.

                                    Based upon a review of NCOA’s financial records, DOL con-
                                    cluded NCOA did not possess sufficient non-Federal funds to
                                    pay the final amount of disallowed costs. Accordingly, DOL de-
                                    termined it is in its best interests to accept NCOA’s offer of
                                    $554,475 to satisfy these disallowed costs. This amount was
                                    repaid through DOL’s retention of the final payment of $154,475
                                    for NCOA’s SCSEP grant for the year ending June 30, 1995,
                                    and a cash repayment of $400,000 which was remitted to DOL
                                    by NCOA on June 26, 1998. (Report No. 18-95-018-07-735; issued
                                    August 18, 1995)

 ETA Disallows                      Under three separate contracts, Calvillo & Associates, Inc. (CAI)
 $248,945 of Costs                  provided various program services to the Job Corps. For the
 Claimed by Former                  period June 1992 through May 1996, the OIG audited aspects of
 Job Corps                          the contracts and, in two audit reports, questioned $384,445 in
 Contractor                         direct and indirect costs claimed by CAI. The ETA Grant Officer
                                    issued a single final decision which disallowed $248,945 of the
                                    costs questioned in the two reports. Calvillo & Associates is no
                                    longer a Job Corps contractor. (Report Nos. 18-97-002-07-735; issued
                                    November 1, 1996, and 18-97-015-07-735, issued March 31, 1997)

 United Sioux Tribes                In an audit of the United Sioux Tribes of South Dakota Develop-
 of South Dakota:                   ment Corporation (UST) for the period July 1995 through June
 ETA Disallows                      1997, the OIG questioned $303,615. Over 90 percent of the
 $303,615 Questioned                questioned costs occurred because UST: (a) reported adminis-
 Costs                              trative costs that exceeded the 20 percent ceiling limitation; and
                                    (b) charged JTPA with costs that should have been charged to
                                    UST and another Federal grant. The ETA Grant Officer has dis-
                                    allowed the entire $303,615 questioned by the OIG. (Report No.
                                    18-98-006-03-355, issued March 13, 1998)




                                                         20
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



                                    OIG investigations continue to reveal that the Department’s em-
EMPLOYMENT                          ployment and training programs remain vulnerable to fraud and
AND TRAINING                        abuse. Listed below are illustrations of the OIG’s accomplish-
INVESTIGATIONS                      ments in this area during this 6-month reporting period.

                                    The OIG recently investigated a highly complex health fraud
California Health Plan              scheme involving the JTPA program and a health maintenance
Employee Pleads                     organization. The case, which was the first of its kind, involved a
Guilty to Fraud                     health care insurance application reviewer in a scheme designed
                                    to defraud a health plan through the use of falsified JTPA docu-
                                    mentation.

                                    The Transition Plan, a Kaiser Permanente-created health care
                                    plan, was established as a community-based program which
                                    offered low cost, limited-term health care insurance coverage to
                                    low-income families. Among the qualifications to enter the plan
                                    were that the applicant had participated in a vocational/occupa-
                                    tional training program through a social assistance or govern-
                                    ment agency such as JTPA.

                                    This OIG investigation uncovered a Transition Plan employee
                                    receiving kickbacks for enrolling ineligible individuals. As a re-
                                    viewer, Crystal Williams’ duties included reviewing health care
                                    insurance applications for membership into the Transition Plan.
                                    From approximately May 1992 through June 1994, Williams de-
                                    vised and participated in a scheme where she fraudulently en-
                                    rolled over 200 applicants into the Transition Plan. Williams and
                                    other brokers solicited ineligible applicants to participate in the
                                    Transition Plan by falsifying JTPA registration/enrollment docu-
                                    ments. Williams then received kickbacks from the applicants in
                                    return for enrolling these ineligible people into the Transition Plan.
                                    Williams collected approximately $40,000 in kickbacks and
                                    caused losses to Kaiser Permanente in excess of $900,000 in
                                    premiums and services provided to ineligible members. On
                                    March 30, 1998, Crystal Williams pled guilty to one count of mail
                                    fraud. U.S. v. Williams (C.D. of California)

Two Defendants Guilty               Elimelech Naiman, the Director of Training and Employment for
of Misappropriating                 the organization called Council of Jewish Organizations (COJO)
Federal Funds                       in New York, was recently found guilty of one count of misappli-
                                    cation of Federal funds, one application of corrupt payment of
                                    funds and seven counts of mail fraud. In addition, a second de-




                                                         21
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



                                    fendant, Paul Chernick, pled guilty to conspiracy, misappropria-
                                    tion of Federal funds, corrupt payment of funds, mail fraud, wire
                                    fraud, and tax evasion. Chernick and Naiman, who were execu-
                                    tives with COJO, had been charged in a six count indictment on
                                    March 27, 1997.

                                    The OIG investigation revealed that COJO had inappropriately
                                    received a total of approximately $1.9 million in JTPA funds to
                                    train students. The indictment charged that Chernick and Naiman
                                    misused the COJO funds for their own personal benefit, as well
                                    as the benefit of COJO employees and others. This case was a
                                    joint investigation with OIG agents, and investigators from the
                                    U.S. Attorney’s office, and the New York City Department of In-
                                    vestigation. U.S. v. Naiman, Chernick (E.D. of New York)

  San Francisco                     This investigation revealed that Gary Abdullah, an On-the-Job
  Contractor                        Training (OJT) contractor, submitted false reimbursement in-
  Sentenced for Job                 voices to the San Francisco Private Industry Council (PIC). He
  Training Fraud                    entered into two OJT contracts with the PIC, agreeing to train
                                    and hire a total of six OJT participants at the pay rate of $20.00
                                    per hour. Abdullah signed and submitted reimbursement invoices
                                    to the PIC claiming that he paid $20.00 per hour to each partici-
                                    pant that he trained and employed at his clothing business. The
                                    OIG found that Abdullah only paid each participant between $5.00
                                    and $10.00 per hour, and did not employ the participants for the
                                    number of contracted work hours that were claimed. On July 13,
                                    1998, Abdullah was sentenced to serve four months’ of home
                                    confinement, was placed under probation for one year and was
                                    also ordered to pay $9,544 in restitution to the PIC. U.S. v. Abdullah
                                    (N.D. of California)


  Texas Man                         The owner of a chain of nursing homes in Texas and Oklahoma,
  Sentenced for Visa                Billy Jewell, was sentenced after having pled guilty to conspiracy
  Fraud Involving                   and wire fraud charges. The investigation revealed that Clara
  Foreign Nurses                    Kim, Veronica Hewitt, and Holly Arthur Estreller entered into
                                    agreements with Billy Jewel, whereby they obtained H1-A non-
                                    immigrant work visas and furnished nurses for employment at
                                    nursing homes in Lubbock, Texas. Once in the United States,
                                    the nurses were underpaid, assigned other places to work, and
                                    in some instances, money was extorted from them with the threat




                                                           22
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    of reporting them to the INS for working out of status. This case
                                    is the result of “Operation Windmill” involving DOL, State De-
                                    partment, the IRS, and the INS.

                                    Jewell was sentenced to serve 37 months’ in prison followed by
                                    36 months’ supervised release, and ordered to pay restitution of
                                    over $1.5 million to DOL, to be disbursed in the form of
                                    backwages to a total of 402 nurses. Defendants, Kim, Hewitt,
                                    and Estreller were sentenced after having pled guilty to charges
                                    of visa fraud and aiding and abetting. Kim was sentenced to
                                    four months’ imprisonment, and two years’ probation, and
                                    Estreller received five months’ imprisonment, and two years’ pro-
                                    bation. Hewitt received three years’ probation and 200 hours of
                                    community service. U.S. v. Jewell, et al. (N.D. of Texas)

 Texas Attorney                     The investigation disclosed that attorney James T. Garrett and
 Sentenced for                      Martha Polanco, Garrett’s office manager, submitted false ap-
 Defrauding Foreign                 plications for alien labor certifications, and charged the aliens
 Labor Certification                for the submission of applications that they knew had little or no
 Program                            chance of being approved. In some instances, aliens were
                                    charged and the documents were never filed. As a result of the
                                    investigation, Garrett and Polanco were charged with conspiracy,
                                    mail fraud, encouraging unlawful immigration, and submitting a
                                    false tax return.

                                    In May, Garrett was sentenced to serve 21 months’ in prison
                                    and 3 years’ of probation. During the sentencing, Garrett pro-
                                    duced a letter of resignation to be sent to the State Bar of
                                    Texas. Polanco was sentenced to 12 months’ in prison and or-
                                    dered to serve 3 years’ probation for her part in this scheme.
                                    The investigation was conducted jointly with the INS and the
                                    IRS. U.S. v. Garrett (S.D. of Texas)




                                                       23
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998




    WORKPLACE BENEFITS

 OIG Goal: Safeguard workers’ and retirees’ benefit programs by enhancing
 program performance and accountability.


                                    The U.S. Department of Labor administers several programs
                                    and statutes designed to provide and protect the benefits of
                                    workers and retirees. These include the Federal Employees’
                                    Compensation Act (FECA) Program, the Longshore and Har-
                                    bor Workers’ Compensation Program (LHWCA), the Unemploy-
                                    ment Insurance (UI) Program, and key provisions of the Employee
                                    Retirement Income Security Act (ERISA).

                                    Protection of workplace benefits is critically important because
                                    it affects the lives of millions of workers and retirees, and be-
                                    cause it involves billions of taxpayer dollars. During this report-
                                    ing period, the OIG completed several important audits and in-
                                    vestigations related to achieving this goal, which are detailed in
                                    this section. Significant investigative accomplishments in the
                                    area of employee benefits and pension plans can be found in
                                    the OIG Labor Racketeering Program section of this report.


                                    FECA is a comprehensive workers’ compensation law for Fed-
  FEDERAL                           eral employees that is designed to provide coverage for work-
  EMPLOYEES’                        related injuries or deaths. Benefits are paid from the Employ-
  COMPENSATION                      ees’ Compensation Fund, which is administered by the Office of
  ACT                               Workers’ Compensation Programs (OWCP) and principally
  INVESTIGATIONS                    funded through a chargeback to the employing agency. FECA
                                    covers about 3 million Federal employees and postal workers.

  INVESTIGATIVE                     During this reporting period, our office has devoted significant
  ACCOMPLISHMENTS                   resources in auditing, evaluating, and investigating aspects of
                                    the FECA program. Our continuing efforts in this program are
                                    concentrated in two general areas: medical service providers
                                    who bill the Government for services that were not rendered,
                                    charge multiple times for the same procedure, bill for non-exis-




                                                        24
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    tent illnesses or injuries, or overcharge for services; and claim-
                                    ants who defraud the program by reporting false injuries, recover
                                    but continue claiming benefits, or do not report or under-report
                                    their outside employment income to OWCP.

 Former Arizona                     Charles E. Anger, a former U.S. Postal Service employee, had
 Postal Worker                      collected over $239,000 in FECA benefits since March 1988 for
 Sentenced for FECA                 a job-related back injury. Anger filed an injury claim with OWCP
 Scam                               on November 18, 1996, alleging a back strain while employed
                                    as a driver with Royal Oaks Lifecare Center in Sun City, Arizona.
                                    The OIG investigation found that Anger was employed as a driver
                                    at Royal Oaks Lifecare Center from November 1, 1993 to Janu-
                                    ary 2, 1997 and failed to report his work and earnings to OWCP.
                                    Anger managed to fraudulently collect over $96,000 in FECA
                                    benefits during this period and his benefits were subsequently
                                    terminated. After having pled guilty to making false statements
                                    to obtain federal employees’ compensation, Anger was sen-
                                    tenced to serve 6 months’ of home confinement, was placed un-
                                    der probation for 1 year, and was ordered to pay $96,408 in
                                    restitution to the OWCP. U.S. v. Anger (D. of Arizona)

 Oregon Man Pleads                  This investigation established that Charles A. Crenshaw worked
 Guilty to FECA Fraud               for his father as a roofer on a cash basis since 1986 while draw-
                                    ing FECA benefits. Based on OIG’s investigation, OWCP de-
                                    termined Crenshaw was overpaid $173,979.32 in FECA ben-
                                    efits. On August 20, 1998, Crenshaw pled guilty to an informa-
                                    tion filed in Oregon charging him with filing a false statement to
                                    the U.S. Department of Labor. Sentencing is pending. U.S. v.
                                    Crenshaw (D. of Oregon)

 FECA Scam                          On November 11, 1967, Anthony Giunta sustained a back injury
 Uncovered                          after jumping from a mail truck. Over 30 years, he collected in
                                    excess of $600,000 in FECA compensation benefits. A joint
                                    investigation between the OIG and the U.S. Postal Inspection
                                    Service revealed that Giunta was employed as a car salesman
                                    from August 1993 to November 1993 with Camelback Liquida-
                                    tion Center while collecting FECA benefits. On July 25, 1997, a
                                    federal jury convicted Giunta on one count of making false state-
                                    ments to obtain FECA benefits. On May 27, 1998, Giunta was
                                    sentenced in the District of Arizona to 8 months’ imprisonment
                                    and ordered to pay restitution in the amount of $42,792. U.S. v.
                                    Giunta (D. of Arizona)




                                                             25
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



 Woman Defrauds                     In November 1981, Maria Maldonado filed a claim for a lower
 FECA Program                       back injury that she had sustained while working as a pharmacy
                                    assistant for the Veterans Administration in Puerto Rico. From
                                    April 1993 through October 1996 Maldonado was employed at
                                    Sam’s Club in Puerto Rico under a false social security number.
                                    During this time, she collected FECA benefits and advised
                                    OWCP that she was not employed. On July 21, 1998, Maldonado
                                    was sentenced in the District of Puerto Rico for violations of FECA
                                    fraud and fraudulent use of a social security number. She was
                                    sentenced to 4 months’ home detention, 4 years’ probation, and
                                    ordered to pay restitution in the amount of $57,870.50. Of this
                                    sum she was ordered to pay $52,241.50 to DOL, and $5,629 to
                                    SSA. Maldonado had previously pled guilty to a two count infor-
                                    mation on February 19, 1998. U.S. v. Maldonado (D. Of Puerto Rico)

 New York                           The OIG investigation revealed that Nicholas Pascucci was em-
 Psychologist Pleads                ployed as a child psychologist from 1984 to 1993 at various
 Guilty to $300,000                 schools in the New York area while receiving FECA benefits.
 FECA Fraud Scheme                  He also held private counseling sessions in an office in Queens,
                                    New York, while also teaching classes at Long Island University.
                                    In 1992, Pascucci and his wife opened a pre-school, a children’s
                                    evaluation business, and a children’s transportation company in
                                    Queens. The pre-school and children’s evaluations were funded
                                    by the New York State Departments’ of Education and Health.
                                    During this time, Pascucci acted as an administrator of the pre-
                                    school, and he conducted child evaluations. An OIG investiga-
                                    tion found that Pascucci obtained over $300,000 in FECA ben-
                                    efits from August 1984 through March 1997. On August 7, 1998,
                                    Pascucci pled guilty to a nine count indictment: three counts of
                                    mail fraud, three counts of FECA fraud, and three counts of mak-
                                    ing false statements. U.S. v. Pascucci (S.D. of New York)

 Park Service                       Brenda Welsh-Sequoyah, former National Park Service em-
 Employee Defrauds                  ployee, was sentenced on August 25, 1998, for making false
 FECA                               claims to OWCP and the American Postal Workers’ Union Health
                                    Plan. Welsh had pled guilty to fabricating her pharmaceutical
                                    and medical bills for services that she had not received. Her
                                    total false claims exceeded $80,000 and she fraudulently received
                                    in excess of $60,000.

                                    Welsh was sentenced to one year of home detention with elec-
                                    tronic monitoring, three years’ of probation and restitution of




                                                        26
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    $67,644.66. This case was conducted jointly with the FBI and IG
                                    at the Office of Personnel Management. U.S. v. Welsh-Sequoyah
                                    (W.D. of North Carolina)


 Postal Employee                    Arlin E. Scheib, Jr., a U.S. Postal Service letter carrier, had been
 Defrauds FECA                      receiving federal workers’ compensation benefits since a 1990
                                    automobile accident. From August 1995 to March 1998, Scheib
                                    was employed in his brother’s home improvement business and
                                    had engaged in strenuous work, such as painting, wallpapering,
                                    drywalling, and roofing. During this period, Scheib received ap-
                                    proximately $62,000 in disability benefits that he was not en-
                                    titled to receive. On May 27, 1998 in U.S. District Court, Harris-
                                    burg, Pennsylvania, Scheib and his half-brother, Randall
                                    Scheffler, waived indictment by a grand jury and pled guilty to
                                    criminal informations charging Scheib with federal workers’ com-
                                    pensation fraud and Scheffler with conspiracy to commit federal
                                    workers’ compensation fraud. As part of his guilty plea, Scheib
                                    resigned from the U. S. Postal Service and voluntarily withdrew
                                    his FECA claim and his sentence is currently pending. Scheffler
                                    admitted to conspiring with Scheib to defraud OWCP by agree-
                                    ing to pay him “under the table” and not submitting W-2 and 1099
                                    forms to the IRS. U.S. v. Scheib, Scheffler (M.D. of Pennsylvania)

 Texas Doctor                       An OIG investigation disclosed that Dr. Arthur C. Bieganowski,
 Indicted in                        his brother, attorney, Victor Bieganowski, and their certified pub-
 $15 Million Medical                lic accountant allegedly defrauded the federal government and
 Scam                               private insurance companies handling personal injury and work-
                                    ers’ compensation cases by more than $15 million. Dr.
                                    Bieganowski owned and operated several medical related busi-
                                    nesses in the U.S., Mexico, and the Grand Caymans Islands.

                                    The investigation disclosed that Dr. Bieganowski perpetuated
                                    several different schemes and false billing practices, including
                                    excessive billing for over 100 patients per day. Sign-in logs show
                                    an average of 80 to 133 patients signed in per day. Dr.
                                    Bieganowski allegedly diagnosed and/or instructed his staff to
                                    diagnose almost every patient as having the same medical con-
                                    dition regardless if they were a vehicle accident patient or a work-
                                    ers’ compensation patient. Dr. Bieganowski allegedly instructed
                                    his staff to submit forms to the Texas Workers' Compensation
                                    Insurance Fund, OWCP, and private insurance companies bill-
                                    ing for Hubbard Tank therapy, when, in fact, he did not even pos-




                                                          27
Semiannual Report to the Congress                                           April 1, 1998 - September 30, 1998



                                sess a Hubbard Tank. In addition, he allegedly billed for com-
                                prehensive outpatient visits on dates that he was unavailable to
                                patients or out of the office and/or out of town. He then allegedly
                                double billed by charging for an office visit and a treatment pro-
                                cedure when the care should have been covered under one
                                charge. Over a period of 7 years, OWCP has paid Dr.
                                Bieganowski approximately $1.4 million.

                                On August 4, 1998, a federal grand jury returned an indictment
                                against Dr. Arthur C. Bieganowski and eight others, including
                                his brother, Victor Bieganowski. The 23 count indictment included
                                violations of conspiracy to commit mail fraud, mail fraud, aiding
                                and abetting, perjury, conspiracy to launder monetary instruments,
                                and criminal forfeiture. In addition to Dr. Arthur C. Bieganowski
                                and Victor Bieganowski, their CPA was also indicted.

                                This was a joint investigation with the FBI, IRS, Postal Inspection
                                Service, Defense Criminal Investigative Service, Texas Work-
                                ers’ Compensation Commission, the Texas Workers’ Compen-
                                sation Insurance Fund, and the U.S. Marshals Service. U.S. v.
                                Bieganowski, et al. (W.D. of Texas)

 Doctor Found Guilty            In a similar scam, Dr. Bernard Dolenz billed each patient’s insur-
 in $1 Million Billing          ance carrier (OWCP and private insurance) for a 45-50 minute
 Scheme                         psychotherapy session and a 40 minute comprehensive medi-
                                cal exam. Dr. Dolenz submitted claims for treatment to as many
                                as 40 patients a day, which would have required a 60-hour work
                                week. Patients testified that they saw the doctor for less than 15
                                minutes. Brenda Dolenz Helmer, the doctor’s daughter, prepared
                                the insurance billing forms for the clinic. From 1993-94, Dr. Dolenz
                                submitted bills to insurance carriers totaling over $1 million.
                                Helmer testified on behalf of the prosecution after she pled guilty
                                to an information charge. In August, Dr. Dolenz was found guilty
                                on 12 counts of mail fraud. This case was investigated jointly by
                                the OIG, the FBI and the Texas Workers’ Compensation Com-
                                mission. U.S. v. Dolenz (N.D. of Texas)




                                                      28
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



 FECA MEDICAL                       In a September 1997 report, we estimated that at least $7 mil-
 PROVIDERS AUDIT:                   lion is lost annually because of improper or abusive medical pro-
 DOL TAKES ACTION                   vider billings. We also identified a number of billings which we
 TO REDUCE                          believed the Office of Workers’ Compensation Programs
 OVERBILLING                        (OWCP) should analyze for improprieties. We recommended
                                    OWCP procure a commercial system to screen medical billings
                                    for code manipulation in the Federal Employees’ Compensa-
                                    tion Act (FECA) program and pursue collection actions, if war-
                                    ranted.

                                    The OWCP agreed with both of our recommendations. During
                                    the reporting period, OWCP has:

                                    •      Mailed collection letters to 1,002 providers who failed to
                                           reply to the first mailing (OWCP had previously mailed
                                           collection letters to 1,675 providers).

                                    •      Received refunds of $74,018 from 77 providers. To date
                                           OWCP has received a total of $216,099 from 371
                                           providers.

                                    •      Researched appeals from 437 providers associated with
                                           $320,056 in payments and granted appeals for
                                           98 percent of the contested line items.

                                    •      Provided training to data entry staff to emphasize the need
                                           for complete and accurate entry of data billing codes to
                                           limit the number of invalid errors identified by future
                                           screening programs (Data input errors caused some of
                                           the billing problems identified by our audit).

                                    •      Included the lease of a commercial software package in
                                           its FY 1999 budget submission and submitted a Request
                                           for Information to the Department’s procurement staff to
                                           assist in the development of the Request for Proposal.

                                    Additionally, to improve the controls over the bill paying process,
                                    OWCP plans to establish criteria for the level of payment and/or
                                    frequency of services. This is the final account on audit resolu-
                                    tion of (Report No. 09-97-200-04-431, issued September 29, 1997.)




                                                        29
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



 EVALUATION OF
 FECA PROGRAM                       The OIG reviewed the administration of the Federal Employees’
 ADMINISTRATION                     Compensation program to address issues raised in a letter for-
 ISSUES                             warded to OIG by the Secretary of Labor. The objective of our
                                    review was to evaluate the Assistant Secretary’s concerns with
                                    respect to the acceptance of initial claims for benefits filed under
                                    the FECA, the termination of benefits and the appeals process
                                    administered by the Branch of Hearings and Review. Our re-
                                    view did not confirm the existence of a systemic anti-claimant
                                    bias within OWCP, but, to the contrary, found evidence of a bal-
                                    anced commitment by the agency to both improving the quality
                                    of service to claimants and ensuring the cost-effective adminis-
                                    tration of the program.

                                    The OIG’s conclusions were based upon our evaluation of
                                    OWCP’s Strategic Plan, review of their testimony before the
                                    Subcommittee on Workforce Protections of the House Commit-
                                    tee on Education and the Workforce, and analysis of statistical
                                    information pertaining to the Branch of Hearings and Review and
                                    the Employees’ Compensation Appeals Board (ECAB). In ad-
                                    dition to the program issues raised by the complainant, we re-
                                    viewed four specific issues with regard to OWCP’s alleged anti-
                                    claimant bias.

                                    •      The complainant raised concerns that OWCP has pro-
                                           mulgated improper procedures, resulting in the routine
                                           termination of FECA benefits without affording claimants
                                           their statutory right to an examination by a third physician.
                                           However, we found that the existing provisions of the
                                           FECA Procedure Manual for determining whether a
                                           referral to a third, impartial physician is required have been
                                           upheld by ECAB and two district court decisions.

                                    •      The complainant indicated that the use of second opinion
                                           physician (SECOP)’s reports to deny benefits, the bur-
                                           den of responding to the questions OWCP directs to
                                           SECOPs, and the perception that the FECA process is
                                           of questionable impartiality have caused many doctors to
                                           discontinue accepting FECA referrals. Thus, the pool of
                                           available doctors willing to provide the opinions to OWCP
                                           is reduced. However, a GAO review conducted in 1994
                                           of OWCP’s processes for selecting physicians did not
                                           identify problems with the agency’s practices at that time,



                                                        30
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                           and the information with respect to conditions since 1994
                                           does not justify a new study.

                                    •      Our review identified minimal evidence supporting the
                                           complainant’s concern that OWCP’s review of draft deci-
                                           sions prepared by Hearing Representatives of the Branch
                                           of Hearings and Review constitutes an organizational
                                           conflict of interest or interferes with the issuance of fair
                                           decisions in favor of injured employees. The responsi-
                                           bilities of OWCP do not conflict with the supervision of
                                           the hearings function. More importantly, the allegation that
                                           OWCP reviews of draft decisions interfere with the issu-
                                           ance of decisions to restore benefits to injured workers,
                                           was not substantiated by either our interviews or the sta-
                                           tistical outcomes of the appeal processes.

                                    •      With respect to the complainant’s concerns that OWCP
                                           neither permits sufficient time for injured workers to pro-
                                           vide the additional evidence necessary to perfect a com-
                                           pensation claim, nor expeditiously reviews such informa-
                                           tion after a “burden of proof” denial, we have deferred
                                           potential evaluation of this issue pending action by ESA’s
                                           Reinvention team on a related proposal. (Report No. 15-
                                           OACE-98-OWCP; issued July 2,1998.)


 LONGSHORE AND                      The Longshore and Harbor Workers’ Compensation Act
 HARBOR                             (LHWCA) program is an entitlement program administered by
 WORKERS’                           the Department of Labor. This program provides benefits to
 COMPENSATION                       maritime workers who are injured while working.
 ACT

 Audit of the                       The Longshore and Harbor Workers’ Compensation Act
 Longshore and                      (LHWCA), enacted in 1927, establishes a Federal compensa-
 Harbor Workers’                    tion system for Longshore and other specific classes of workers
 Compensation Act                   whose injuries occur upon navigable waters of the United States
 Fund and the                       or adjoining facilities like piers and dry docks. The Employment
 D.C. Workmen’s                     Standards Administration (ESA), Division of Longshore and
 Compensation Act                   Harbor Workers’ Compensation (DLHWC) has direct responsi-
 Special Fund                       bility for administration of the Fund. The Fund provides compen-
                                    sation, and in certain cases, medical care payments to employ-




                                                       31
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998




                                    ees disabled from injuries which occurred on the navigable wa-
                                    ters of the United States, or in adjoining areas used for loading,
                                    unloading, repairing, or building a vessel.

                                    The original LHWC Act was extended to cover employees under
                                    the District of Columbia Workmen’s Compensation Act (DCCA)
                                    Special Fund. This Fund offers compensation and, in certain
                                    cases, medical care payments to District of Columbia employ-
                                    ees for work-related injuries or death for cases dated prior to
                                    July 26, 1982. The ESA/DLHWC also administers this special
                                    Fund.

                                    Our annual audit of these two special Funds identified weak-
                                    nesses in DLHWC’s internal controls for reporting and authoriz-
                                    ing payments to rehabilitation service providers. These control
                                    weaknesses within the rehabilitation payment process contrib-
                                    uted to the fraudulent payment of more than $500,000 to ficti-
                                    tious rehabilitation vendors over a 4-year period. As a result, we
                                    recommended changes to the internal control over the payment
                                    process. DLHWC agreed with the recommendation and is de-
                                    veloping an automated system to increase existing controls.
                                    There were no recommendations in the DCCA report. (Report
                                    No. 12-98-004-04-432--Longshore and Report No. 12-98-005-04-432--D.C.
                                    Workmen’s Compensation Act; issued May 14, 1998)



   UNEMPLOYMENT                     Another worker benefit program in which the OIG has concen-
   INSURANCE                        trated its efforts is the Unemployment Insurance (UI) system. UI
   PROGRAM                          benefits are the initial financial support provided to workers who
                                    lose their job through no fault of their own. Its mission, coupled
                                    with the fact that this is a multi-billion dollar program, makes
                                    monitoring and ensuring its integrity extremely important.
  FRAUD IN THE UI
  PROGRAM                           The OIG continues to be concerned with the increasing number
                                    of fictitious employer schemes that are perpetuated against the
                                    UI program. Elaborate schemes are devised, often involving
                                    multiple states, by professional criminals that have an intimate
                                    understanding of the UI system. These criminals set up phony
                                    companies by gathering social security numbers and using them
                                    for nonexistent employees. They then gain liability status from
                                    the state by writing to the UI system stating that they have em-




                                                        32
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    ployed between 10 and 25 individuals, during that quarter, at a
                                    certain wage. After status is obtained, post offices boxes are
                                    rented to serve as the mailing address of the phony companies
                                    and the employees. These schemes can be devastating to the
                                    state UI systems, because numerous benefit checks can be ob-
                                    tained by a single scheme in a very short period of time. The
                                    following cases are examples of recent OIG investigations of fic-
                                    titious employer schemes.
 Ohio Construction
 Family Indicted for UI             The FBI, IRS, and Labor OIG agents jointly conducted this grand
 Fraud                              jury investigation of the Acevedo family, their businesses, and
                                    associates, for their part in a complex fictitious employer scheme.
                                    The Acevedos engaged in construction activities in Ohio using a
                                    series of rapidly changing business names, often paying em-
                                    ployees in cash and keeping few and generally inaccurate
                                    records. Through this method, they were allegedly able to avoid
                                    the payment of income taxes, payroll taxes, and unemployment
                                    insurance premiums. The Acevedo family was linked to over 40
                                    business names operating in Northeast Ohio during the last 10
                                    years.

                                    Acevedo, his brother Dennis, and his wife, Tammy Debernardi,
                                    were all indicted on charges of conspiracy to commit mail fraud.
                                    In addition, Gilbert was indicted on eight counts of mail fraud, all
                                    in connection with the failure of their businesses to pay premi-
                                    ums, keep and report payroll records, and their claim for and
                                    receipt of UI benefits from these companies. Ultimately, the Ohio
                                    Bureau of Employment Services (OBES) lost over $100,000 in
                                    estimated UI premiums, penalties, and unverified claims in con-
                                    nection with three selected companies, and paid a total of
                                    $34,921 in fraudulent UI benefits to Gilbert and Dennis.

                                    Glibert also made false loan applications with Ronald Jackson,
                                    the owner/operator of America’s Transporter, Inc., who provided
                                    Gilbert with bank loans based upon a false contract. In all, the
                                    fraud amounted to $116,921 of actual bank losses and $745,000
                                    in false loan applications. Gilbert was also indicted on three
                                    counts of conspiracy to commit bank fraud for his false loan ap-
                                    plications, one count of income tax fraud in the amount of $1,227,
                                    and two counts of filing false claims against the U.S. Govern-
                                    ment




                                                        33
Semiannual Report to the Congress                                             April 1, 1998 - September 30, 1998




                                in the amount of $10,185. In a separate action, Ronald Jackson
                                was charged by information with one count of bank fraud result-
                                ing in the loss by the Lorain National Bank of Lorain, OH, of
 Washington Men                 $331,000. U.S. v. Acevedo, et al. (N.D. of Ohio)
 Collect UI Money for
 Non-Existent                   This OIG investigation disclosed that from January 1994 to May
 Employees                      1997, Thomas Allard, in conspiracy with James Thompson and
                                Dale Sutley, fraudulently obtained UI benefits from Washington
                                State. Allard obtained master business licenses and filed fraudu-
                                lent employer quarterly reports of employee wages for two paint
                                contracting companies that did not exist. No work was conducted,
                                there were no employees, and no wages were paid. Allard sub-
                                sequently reported that the companies had ceased business
                                operations. Allard filed UI claims in the names of fictitious em-
                                ployees, some with false social security numbers, thereby ob-
                                taining UI benefits. The loss to Washington State was approxi-
                                mately $86,500. An additional savings of $46,000 was realized
                                when benefit payment of active UI claims were terminated. In
                                May, Thomas Allard was sentenced to five months’ incarcera-
                                tion, and five months’ electronic home detention. He was or-
                                dered to pay $71,660 individually and $15,120 jointly and sever-
                                ally with Thompson and Sutley. In June, Sutley pled guilty to con-
                                spiracy to commit mail fraud. U.S. v. Allard, et al. (E.D. District of
 Woman Sentenced                Washington)
 for Multi-State Scam
                                From 1995 to 1997, Cathryn Parker perpetrated fictitious em-
                                ployer schemes in Washington, Hawaii, California, Arizona, and
                                Connecticut. An OIG investigation revealed that Parker created
                                12 phony businesses, used more than 29 aliases, and filed UI
                                claims for more than 16 fictitious employees of the companies.
                                Through these schemes, Parker fraudulently obtained approxi-
                                mately $70,133 in UI benefits. In June, Parker was ordered to
                                serve a 13-month split sentence. She was remanded to the Bu-
                                reau of Prisons for 7 months', after which she will then serve 6
                                months' community confinement, and finally, will serve 3 years'
                                probation. She was ordered to make restitution in the amount of
 Connecticut Woman              $36,000. U.S. v. Parker (N.D. of California)
 Sentenced for UI
 Fraud                          Wanda Nurse was found guilty of defrauding several government
                                funded assistance programs. Between August 1993 and Feb-




                                                     34
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    ruary 1994, she had received $11,748 in UI benefits, including
                                    emergency unemployment compensation benefits, while failing
                                    to report her substantial earnings. Nurse was convicted of mail
                                    fraud, social security fraud, bank fraud and false statements in
                                    government programs. Nurse was concurrently indicted for de-
                                    frauding the state and federally funded AFDC program, the Con-
                                    necticut Energy Assistance Program, Child Care Subsidy Pro-
                                    gram and Unemployment Compensation Program. Nurse also
                                    provided false income information and a false social security
                                    number to obtain consumer credit. On August 26, 1998, in U.S.
                                    District Court in New Haven, Connecticut, Wanda Nurse was
                                    sentenced to six years’ in prison, followed by five years’ proba-
                                    tion and ordered to pay restitution in the amount of $60,448. U.S.
 Massachusetts UI                   v. Nurse (D. of Connecticut)
 Fraud Scheme
 Ended                              In April, Coriolano Romero, was sentenced to ten months’ con-
                                    finement, three years’ probation, and ordered to pay restitution
                                    of $55,250. On January 30, 1998, Romero had pled guilty to
                                    one count of conspiracy, one count of theft from a program re-
                                    ceiving federal funds and one count of fraudulent use of social
                                    security numbers. The charges stemmed from a February 1992
                                    indictment charging Massachusetts Department of Employment
                                    and Training (DET) employees Paul Louie, Jimmy Leon, and
                                    Romero with operating a scheme to fraudulently collect approxi-
                                    mately $88,000 in unemployment insurance benefits. Leon and
                                    a former DET employee, Louie, were indicted and pled guilty
                                    during 1992; however, Romero was a fugitive from 1992 until he
                                    was arrested in July 1997. U.S. v. Romero (D. of Massachusetts)

 UI AUDITS AND
 EVALUATIONS                        We performed a limited scope audit of the employee leasing
                                    industry in the State of Georgia covering the 5-year period be-
                                    ginning January 1, 1992, through December 31, 1996. In addi-
                                    tion, we computed Unemployment Insurance (UI) Trust Fund
 Audit of Employee                  losses through the end of 1997.
 Leasing Industry in
 Georgia                            The audit was undertaken as a result of the rapid growth (25
                                    percent annually) of the employee leasing industry. Our objec-
                                    tive was to determine what effect employee leasing companies
                                    had on Georgia’s UI Trust Fund. The results of our audit dis-
                                    closed that there were no adverse effects on the UI Trust Fund
                                    from bona fide employee leasing operations. However, we found




                                                           35
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    that abusive “shell” transactions resulted in a $1,683,260 loss to
                                    the UI Trust Fund. Of this, $79,631 resulted from abusive affili-
                                    ated “shell” transactions and $1,603,629 represented illegal and/
                                    or abusive purchased “shell” transactions.

                                    For purposes of the audit, the OIG defined “shell” leasing activity
                                    as occurring when: (a) an employee leasing company transfers
                                    all or a major portion of its employees to a relatively inactive or
                                    dormant company which is owned or purchased by the leasing
                                    company to obtain a lower UI tax rate, (b) a significant percent-
                                    age (20 percent or more) of employees are transferred from one
                                    employer to another with common ownership and control; and
                                    (c) losses to the UI Trust Fund occur because the successor
                                    company has a lower UI tax rate than the predecessor.

                                    “Shell” leasing activities are abusive and undermine the UI expe-
                                    rience rating tax system. The results of our audit indicate that
                                    improvements are needed in both operating procedures and in
                                    Georgia State law to better identify employee leasing compa-
                                    nies subject to the State’s bonding requirements and to deter
                                    abusive “shell” leasing company activities.

                                    Because of the risk of loss to the UI Trust Fund, we recommended
                                    that the Assistant Secretary for Employment and Training work
                                    with the Commissioner of the Georgia Department of Labor to
                                    accomplish the following:

                                    •      Pursue all available remedies pertaining to abusive em-
                                           ployee “shell” leasing activities and recover UI Trust Fund
                                           losses resulting from violations of Georgia’s statute in the
                                           amount of $1,603,629.

                                    •      Pursue remedial action to amend the State of Georgia
                                           Employment Security Law to prohibit any reduction in UI
                                           tax rates caused solely by multiple transfers of employ-
                                           ees from one affiliated employee leasing company to
                                           another. In this regard, consideration should be given to
                                           classifying affiliated leasing companies into one experi-
                                           ence rating category to eliminate inter-affiliate transfer
                                           abuses.

                                    •      Revise the employer status report to incorporate a ques-




                                                        36
Semiannual Report to the Congress                                                  April 1, 1998 - September 30, 1998



                                           tion specifically asking employers if they are engaged in
                                           the leasing of employees to other employers (client firms).
                                    •      Develop written procedures and ensure that employer sta-
                                           tus reports are thoroughly reviewed for leasing company
                                           identification, and questionnaires are sent to suspected
                                           leasing companies on a regular basis. Companies not
                                           responding are contacted and all responses are properly
                                           reviewed and accounted for.

                                    The Georgia Department of Labor strongly disagreed with our
                                    findings and declined to take any action on our recommenda-
                                    tions to recover the $1.6 million in losses that we believe resulted
                                    from violations of the State’s successorship laws. Georgia de-
                                    fended the right of any employer with significant, rapidly-growing
                                    unemployment tax liabilities to seek the most tax-favorable sta-
                                    tus available under the law and stated that the tax-saving strate-
                                    gies employed by employee leasing companies are not illegal.
                                    Georgia says the practices described are generally legal and
                                    are commonly utilized by members of other industries to achieve
                                    tax savings.

                                    We stand by our findings that the improper use of successor
                                    rates by employee leasing companies not eligible to use them
                                    costs the UI trust fund $1.6 million. We likewise stand by our
                                    recommendations that Georgia, as part of its stewardship re-
                                    sponsibility, should attempt to recover these funds and take ac-
                                    tion to prevent such abuses in the future.

                                    We agree with Georgia that any employer has the right to seek
                                    the most tax-favorable status available under the law and that
                                    proper use of the State’s successor statutes to gain favorable
                                    tax rate status is not illegal. Report No. 03-98-007-03-315; issued Sep-
 Improvements are                   tember 30, 1998)
 Needed in the
 Evaluation of Audit                We have been working closely with the Unemployment Insurance
 Quality and the                    Service (UIS) on an ongoing audit to identify the best practices
 Reporting of Blocked               used by states in conducting UI field tax audits. During the course
 Claims Audits                      of the audit, we conducted a survey, via an Internet questionnaire,
                                    of the states’ field tax audit activities. Based on our survey re-
                                    sults and discussions with UIS, we identified two findings on which
                                    both UIS and the OIG concur that immediate action can be initi-




                                                         37
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998




                                ated. We also noted that significant improvements have been
                                made in the quality of the states’ field tax audit programs through
                                implementation of the Tax Performance System.

                                First, we found that the criteria used for the evaluation of audit
                                quality are too stringent. UIS agrees that some changes to the
                                criteria used for the evaluation of Field Audit Quality are neces-
                                sary and is considering convening a task force to develop new
                                scoring criteria. Secondly, we found that ETA’s Contributions
                                Operations report excludes statistics on the search for hidden
                                wages (blocked claims). Consequently, some states are not per-
                                forming these types of audits because no credit is given to them.
                                Our preliminary results suggest that this type of audit can result in
                                significant assessments. One state indicated that in 1997 they
                                found an additional $5,600,000 of contributions from blocked
                                claims that were not reportable achievements on ETA’s Contri-
                                butions Operations report. UIS concurs with our recommenda-
                                tion and is scheduled to formulate changes to the tax audit policy
                                by January 1, 1999. (Report No. 03-98-008-03-315; issued September 9,
  Review of UI                  1998)
  Contingency and
  Disaster Recovery             At the ETA’s request, and in cooperation with the UIS, the OIG
  Plans and                     performed a review into the vulnerability of the State Employ-
  Readiness                     ment Security Agencies’ (SESA) Unemployment Insurance (UI)
                                programs and their planned readiness to overcome such threats.
                                We conducted a survey of the 53 SESAs and evaluated the qual-
                                ity of current SESA contingency and disaster recovery plans.

                                This review was performed using agreed-upon procedures in
                                cooperation with the UIS. These procedures included surveying
                                all 53 SESAs and evaluating SESA contingency and disaster
                                recovery plans for quality. OIG performed the evaluation of SESA
                                plans and scored the quality of each plan by comparing each
                                plan to that of key plan components. In determining the SESA
                                jurisdictions most vulnerable to the risks of disaster and their ability
                                to recover, OIG used certain factors from the survey results and
                                overall scores of plan quality. As a result of our work, we identi-
                                fied 30 vulnerable UI jurisdictions.




                                                     38
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998




                                    The chart shown above illustrates 18 jurisdictions with plans that
                                    received a quality rating of less than 1, 5 being the best possible
                                    score. An overall score was derived from the key component
                                    scores and a list was prepared of the jurisdictions that are con-
                                    sidered most at-risk. Of the 18 jurisdictions, the plans of 13 were
                                    rated 0 because no plan existed and another 5 jurisdictions’ plans
                                    were of such poor quality the overall rating was greater than 0
                                    but less than 1, and only 3 of 53 jurisdictions rated 4 or above.
                                    This chart also shows other various categories related to the
                                    quality of the plans and includes the 4 jurisdictions that were not




                                                        39
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



                                    rated because plans, although reported to exist, were not sub-
                                    mitted to OIG.
                                    Additionally, the OIG found that all jurisdictions were, to some
                                    degree, vulnerable and not fully ready to deal with potential threats.
                                    The OIG also found that 11 jurisdictions had a plan that was more
                                    than 5 years old. (Report No. 17-98-006-03-315; issued September 30,
                                    1998)

 PENSION AND
 WELFARE                            The Pension and Welfare Benefits Administration (PWBA) is
 BENEFITS                           responsible for administering Title I of the Employee Retirement
 ADMINISTRATION                     Income Security Act 1974 (ERISA), which governs the rights and
                                    financial security of employee benefit plan participants and ben-
                                    eficiaries in the nation’s private pension and welfare benefit plan
                                    system. PWBA’s responsibilities include promulgating regula-
                                    tions, providing interpretations of ERISA, and enforcing the pro-
                                    visions found in Title I.

                                    In turn, the OIG has made the protection of the retirement secu-
                                    rity of American workers a top priority. To meet this objective, the
                                    OIG has continued its long-standing commitment to protect work-
 Audit of PWBA’s                    ers’ retirement assets through its audit oversight of PWBA.
 Delinquent Filer
 Voluntary                          We conducted an audit of the PWBA Delinquent Filer Voluntary
 Compliance Program                 Compliance (DFVC) program. Our primary objective was to
                                    determine if the DFVC program was significantly increasing com-
                                    pliance with ERISA reporting requirements or whether PWBA
                                    should modify or terminate the program. Through the end of FY
                                    1997, PWBA’s reported DFVC program results include 7,675
                                    annual report filings that had been delinquent and approximately
                                    $22.4 million in voluntary civil penalties paid.

                                    Overall, we concluded that the DFVC program was beneficial in
                                    encouraging plan administrators to file delinquent annual reports.
                                    We also concluded that the civil monetary amounts applied un-
                                    der the program were appropriate. The DFVC program is low
                                    cost and provides a good return on investment relative to the
                                    number of filings received and the amount of voluntary civil pen-
                                    alties collected. PWBA did an excellent job in publicizing the




                                                         40
Semiannual Report to the Congress                                             April 1, 1998 - September 30, 1998




                                    DFVC program in its public outreach and education efforts. How-
                                    ever, we identified three areas where the DFVC program needed
                                    improvement, as follows:

                                    •      PWBA needed to improve its monitoring of DFVC filers'
                                           continuing compliance with ERISA reporting require-
                                           ments. Over 50 percent of the plans using the DFVC pro-
                                           gram are out of compliance again within 3 years with no
                                           follow-up action by PWBA.

                                    •       PWBA was not effectively administering the DFVC ac-
                                           cording to program requirements. Specifically, PWBA
                                           collected penalties from plans that did not owe them, for
                                           periods for which PWBA had no statutory authority to as-
                                           sess penalties, and for incorrect amounts.

                                    •      The PWBA DFVC database used for program manage-
                                           ment and information contained a significant amount of
                                           errors. We found on overall error rate of 18.5 percent on
                                           data important to DFVC program management.

                                    We recommended that the Assistant Secretary for PWBA:

                                    •      Monitor DFVC filer compliance with reporting require-
                                           ments on a continuing basis.

                                    •      Establish performance measures which gauge the suc-
                                           cess of the DFVC program in obtaining continuing com-
                                           pliance with ERISA.

                                    •      Establish management control procedures over the DFVC
                                           program to ensure compliance with laws and regulations.

                                    PWBA generally disagreed with the need to take additional ac-
                                    tions on our recommendations. They did not agree that the DFVC
                                    program needed specific monitoring or performance measures
                                    or that an internal review of fringe benefit and amended returns
                                    was necessary. PWBA did agree, however, to consider estab-
                                    lishing performance measures for timeliness of compliance with
                                    ERISA’s reporting requirements for all plan filers and to develop




                                                       41
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    PWBA expressed concerns regarding OIG audit methodology
                                    and assumptions. They indicated that the OIG needed to review
                                    some of its underlying assumptions and its statistical analysis
                                    based on those assumptions.

                                    Based on PWBA’s response, we have reviewed our methodol-
                                    ogy and assumptions in conjunction with additional information
                                    provided by PWBA. As a result, we have revised some statisti-
                                    cal projections of overpayments and underpayments. However,
                                    this did not cause us to change our recommendations, and we
                                    believe that the procedural changes are still warranted. We have
                                    provided additional comments after each finding and have re-
                                    sponded to PWBA’s concerns on our methodology and assump-
                                    tions. PWBA and the OIG are continuing to discuss the report
                                    and its recommendations. (Report No. 09-98-005-12-121; issued Sep-
                                    tember 30, 1998)

 PWBA - ERISA                       In the March 1998 Semiannual Report, the OIG reported on the
 Streamlining and                   status of, and concerns related to, the development of PWBA’s
 Enforcement Initia-                ERISA Filing and Acceptance System (EFAST) Enforcement
 tives                              Management System (EMS). At that time, the OIG had concerns
                                    about:

                                    •      PWBA evaluating EFAST vendor proposals for design
                                           and development and whether the contracts could be
                                           awarded by June 1, 1998.

                                    •      PWBA’s ability to have the new Form 5500 Series revi-
                                           sions approved and published in time to allow the con-
                                           tractors to begin development of the new EFAST system.

                                    •      PWBA promoting the use of electronic filing, since there
                                           were no legislative barriers to making such a requirement.

                                    The following updates the status of the EFAST, Form 5500 se-
                                    ries revisions and EMS system development efforts for this semi-
                                    annual period.

                                    •      While PWBA’s procurement to acquire EFAST proto-
                                           type development contractors has been protracted, two
                                           competitive contract awards were made on September
                                           28, 1998. PWBA and the Department have successfully




                                                       42
Semiannual Report to the Congress                                                 April 1, 1998 - September 30, 1998



                                            cleared the Form 5500 revisions and instructions and
                                            submitted them to OMB for Paperwork Reduction Act
                                            clearance and approval. Approval has not yet been
                                            granted by OMB. The EFAST system development is
                                            dependent on approval of the Form 5500 revisions.

                                    •       PWBA’s estimated cost for EFAST development has in-
                                            creased by $1 million. EFAST development will be $11.3
                                            million. The Congress appropriated $6 million in FY 1997
                                            (2-year funding) and included an additional $3 million for
                                            this effort in PWBA’s FY 1998 budget. PWBA reported
                                            that it also has available $2.3 million for use from its op-
                                            erational budget.

                                    •       PWBA was provided a legal opinion by the Department
                                            of Labor’s Solicitor that clears the way for phased-in man-
                                            dated electronic filing and has requested the IRS and
                                            PBGC also provide their concurrence.

                                    •       PWBA is on schedule to fully implement its new EMS by
                                            January 1999.

                                    (Report No. 17-98-019-12-001; issued September 30, 1998)

                                    Previously, OIG reported the results of its limited scope audit of
                                    selected procedures relating to the State of Maryland, Depart-
                                    ment of Labor, Licensing and Regulation (DLLR) Division of
                                    Unemployment Insurance (UI).

 Property in the                    During this reporting period, DOL received confirmation that
 amount of $1,454,065               $1,454,065 of capitalized fixed assets for the period covering
 Restored                           July 1995 to the present had been restored to the UI inventory
                                    system. The costs of the property were undeterminable because
                                    DLLR did not maintain an inventory control system to record
                                    equipment purchases above the capitalization limit established
                                    for sensitive and non-sensitive equipment. Therefore, the cost
                                    of the property could not be determined at the time of our audit.
                                    However, it is now confirmed that $1,454,065 of capitalized fixed
                                    assets have been restored and all data entries and updating of
                                    inventory transactions have been entered into the Fixed Assets
                                    Reporting System. (Report No. 03-97-057-03-315; issued September
                                    30, 1998)




                                                         43
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998




  OIG LABOR RACKETEERING
  PROGRAM
OIG Goal: Combat the influence of organized crime and labor racketeering in the
workplace.

                                    The OIG at Labor is unique in that it is mandated by Congress to
                                    carry out a criminal enforcement program to combat organized
                                    crime influence and labor racketeering in the workplace. Labor
                                    racketeering includes the use of union or benefit plan assets or
                                    power for personal benefit. The underlying concept is that a union
                                    (or a benefit plan) is organized for the benefit of its members, not
                                    its leaders. When racketeers take over, that relationship is sub-
                                    verted, and the union leadership reaps the benefits by exploiting
                                    the members. As a part of the OIG’s 5-year Strategic Plan, the
                                    OIG has established a specific goal to identify and reduce labor
                                    racketeering in the workplace.

                                    The objectives under this goal are to:

                                    •      Conduct investigations of labor racketeering activities of
                                           pension and employee welfare benefit plan officials, plan
                                           administrators, and service providers.

                                    •      Conduct industry probes into organized crime’s domina-
                                           tion or influence over unions and employers operating in
                                           those industries.

                                    •      Conduct investigations of union corruption, including the
                                           use of all available enforcement tools to remove orga-
                                           nized crime and to restore democratic procedures in
                                           unions.

                                    The accomplishments achieved during this reporting period dem-
                                    onstrate a sharpened focus on this priority work.




                                                        44
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998




 EMPLOYEE                           Over the past several years, the OIG has seen a significant rise
 BENEFITS AND                       in “white collar” criminal activity involving union pension plans.
 PENSIONS                           While typical embezzlement of pension assets schemes con-
                                    tinue, OIG investigations are revealing criminal activity in the arena
                                    of pension asset investments. The OIG continues to uncover
                                    schemes ranging from the theft of pension investment returns, to
                                    improper fees and commissions being diverted to investment
                                    advisors. Since union-affiliated pension plans comprise approxi-
                                    mately $400 billion, the OIG is concerned that there is little
                                    coordinated oversight of this arena.

                                    The OIG aims to: coordinate with outside agencies to target pen-
                                    sion investment scams; identify changes within ERISA to better
                                    deal with deficient plans, and deficient plan service providers;
                                    and begin to more aggressively target corrupt unions, providers
                                    and participants involved in pension investment criminal activity.
                                    The OIG continues to be greatly concerned about this trouble-
                                    some trend, and plans on making pension investigations one of
                                    our highest priorities.
  Bogus Investment
  Advisor Charged                   As part of our nationwide initiative to combat abuses of pension
  with Defrauding                   plan assets, the OIG worked jointly with the Department’s Pen-
  Pension Plan                      sion and Welfare Benefits Administration to show how task forces
                                    can help to end pension plan abuse.

                                    In an August indictment, Allan Huppe has been charged with
                                    embezzling $750,000 from the Highland Nursing Home, Inc.,
                                    Retirement Plan in Massena, New York. Huppe, purporting to
                                    be an investment advisor, contacted Edward Kaneb, a trustee of
                                    the retirement plan, and told him that at no risk to the retirement
                                    plan’s assets, he would use plan assets to purchase and sell
                                    financial instruments. Huppe allegedly said he would repay the
                                    money out of trading profits; however, the indictment charges
                                    that Huppe used the proceeds for a variety of personal purposes.
                                    On repeated occasions, Huppe provided written confirmation
                                    indicating that the deposit balances at Navy Street Bancorp,
                                    which Huppe owned, were in excess of $750,000 when in fact
                                    the funds had been disbursed.

                                    Huppe was indicted and arrested on three counts of wire fraud
                                    and one count of embezzlement. The indictment charges that




                                                         45
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    Huppe used funds deposited from the retirement plan for vari-
                                    ous personal purposes. This case was jointly investigated with
                                    the FBI and the PWBA. U.S. v. Huppe (N.D. of New York)
  $10 Million Pension
  Scam Stopped                      In September 1997, Charles Henry Klisser, of Carlsbad, Califor-
                                    nia, met with an OIG undercover agent who told Klisser that he
                                    had access to stolen pension money. Klisser agreed to take
                                    $10 million in embezzled union pension fund assets and invest
                                    them in “bank guarantees,” claiming that he would make com-
                                    missions and fees on the money and double the investment within
                                    two months.

                                    Klisser was ultimately found guilty of fraud in agreeing to invest
                                    $10 million in embezzled union pension funds, and he was con-
                                    victed of wire fraud in U.S. District Court in Brooklyn, New York,
                                    on June 19, 1998. Sentencing for Klisser is currently pending.
                                    This was the result of a joint undercover investigation conducted
                                    with the FBI. U.S. v. Klisser (E.D. of New York)
  $1.5 Million
  Embezzled from                    A joint investigation with the PWBA and FBI disclosed that Gary
  401K Plan                         Moore, President of Moore Benefit Systems, Inc., embezzled
                                    $1.52 million from the Emergi-Lite, Inc., 401K pension plan.
                                    Moore avoided detection for almost 10 years by providing com-
                                    pany officials and plan participants with false quarterly statements
                                    of individual accounts. During this period, Moore also provided
                                    the U.S. Treasury with false Annual Financial Reports.

                                    In June 1998, Gary D. Moore pled guilty in the Federal District
                                    Court of Connecticut to a two-count information charging him with
                                    embezzlement of ERISA-covered funds and making false state-
                                    ments or concealment of facts regarding ERISA. U.S. v. Moore (D.
                                    of Connecticut)
  California Man Sen-
  tenced for Pension                In April 1998, Michael P. Rosen pled guilty to one count of theft
  Fraud                             from an employee benefit plan, one count of making and sub-
                                    scribing to a false tax return and one count of mail fraud. Rosen
                                    persuaded many of his investors and officials of pension plans
                                    covered by ERISA to invest their life savings. He prepared false
                                    and forged promissory notes and deeds of trust bearing a forged
                                    notary signature which he used to deceive his investors.

                                    The Court sentenced Rosen to 37 months in federal prison, to




                                                        46
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



                                    run consecutively with a state sentence for a grand theft convic-
                                    tion, and three years’ of probation. In addition, the Court ordered
                                    Rosen to make full restitution to the victims for $6.5 million jointly
                                    with co-defendant Linda N. Johnstone, Rosen’s bookkeeper.
                                    Rosen was barred from holding any position with a fiduciary re-
                                    sponsibility and ordered to file amended federal income tax re-
                                    turns for the years 1992 through 1996.

                                    Linda N. Johnstone pled guilty to mail fraud and aiding and abet-
                                    ting. The Court sentenced Johnstone to 12 months in prison and
                                    three years’ probation, and barred her from seeking employment
                                    with a financial institution. The case was handled jointly by the
                                    OIG, the FBI, the IRS, the Rohnert Park Police Department, and
                                    the Sonoma County DA’s Office. U.S. v. Rosen, Johnstone (N.D. of
                                    California)
 California Contractor
 Embezzles from                     In June 1997, George Michael Shipsey, a real estate developer/
 Construction Union                 contractor and principal of a construction partnership, was con-
 Pension Plans                      victed of embezzlement and money laundering. The indictment
                                    charged Shipsey with fraudulently obtaining a portion of loan pro-
                                    ceeds for a construction project.

                                    Four union pension plans granted Shipsey’s partnership a con-
                                    struction loan to finance a project on which Shipsey defaulted.
                                    The pension plans invested additional funds to complete the
                                    project. Shipsey obtained the construction loan money in piece-
                                    meal fashion through drawer requests. By submitting false re-
                                    quests for loan proceeds, over-billing, and double-billing, Shipsey
                                    diverted money from the project to work done on his private resi-
                                    dence. Shipsey also demanded and received kickbacks from
                                    the subcontractors.

                                    The Court ordered Shipsey to pay restitution to the following
                                    union pension plans: Carpenters Pension Trust Fund of North-
                                    ern California - $ 437,765.30; Operating Engineers Pension
                                    Trust - $116,784.59; Sheet Metal Workers of Northern Califor-
                                    nia Pension - $116,784.59; and, Northern California Plastering
                                    Industry Trust - $36,450.59, for a total of over $700,000. In
                                    addition Shipsey was sentenced to 37 months’ incarceration,
                                    and 36 months’ supervisory release. U.S. v. Shipsey (N.D. of Califor-
                                    nia)




                                                         47
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



 Health Insurance
 Fraud Scheme                       Solomon Sprei pled guilty to two counts of conspiracy to defraud
 Uncovered                          many individuals and several insurers of $17 million. Sprei owned
                                    American Employee Group Benefits Administrator, Inc. and As-
                                    sociate Members Brokerage Group, Inc. Sprei recruited mem-
                                    bers from the public and corporate entities as associates of Lo-
                                    cal 906 of the Retail Drug, Cigar, Soda & Luncheonette Em-
                                    ployees Union and Local 1-J of the Service Employees Interna-
                                    tional Union (SEIU). In exchange for monthly fees to the unions,
                                    Sprei promised to obtain health insurance.

                                    Sprei purchased health insurance coverage from five major in-
                                    surance companies by misrepresenting the member individuals
                                    as preexisting members of the unions. He received group insur-
                                    ance coverage rates, even though members were not a part of
                                    any preexisting group.

                                    In August 1998, Solomon Sprei was sentenced to 30 months’ in
                                    prison, 36 months’ probation, and ordered to pay $1.8 million
                                    dollars in restitution to the insurance companies, to be paid to
                                    claimants. This was a joint case with PWBA and the Postal In-
                                    spection Service. U.S. v. Sprei (S.D. of New York)


 LABOR-                             The OIG continues to investigate illegal payments from employ-
 MANAGEMENT                         ers to union officials. These prohibited payments are usually for
 RELATIONS                          sweetheart contracts that allow the employers to save money on
                                    wages and benefits. Corrupt union officials also use their posi-
                                    tion to extort employers, in exchange for union peace.
 Garment Industry
 Probe Nets Top Mob                 In April 1998, in the Southern District of New York, members of
 Leaders                            three organized crime families were arrested and indicted on
                                    racketeering and extortion charges in the New York garment in-
                                    dustry. This investigation centered around the historical control
                                    of organized crime in New York’s garment district. Organized
                                    crime, through their control of the labor unions and trucking com-
                                    panies, extorted businesses by threatening labor unrest if their
                                    demands were not met. The garment district was divided be-
                                    tween several families, with the Luchese Family being the con-
                                    trolling family.

                                    Joseph Defede, acting boss of the Luchese organized crime




                                                       48
Semiannual Report to the Congress                                                   April 1, 1998 - September 30, 1998



                                    family and eleven others were charged with nine separate acts
                                    of racketeering, spanning from 1991 through 1996. In a sepa-
                                    rate indictment, five members and associates of the Gambino
                                    and the Genovese organized crime families were charged in
                                    connection with the extortion of the operators of Hudson Piece
                                    Dye and its affiliated companies. U.S. v. Defede, et al., U.S. v. Gallo et
                                    al., U.S. v. Gatto, et al. (S.D. of New York)


 INTERNAL UNION                     The OIG continues to investigate union officials engaging in la-
 AFFAIRS                            bor racketeering activities who continue to undermine and, in
                                    some cases, incapacitate internal union affairs. One of the most
                                    direct strategies that the OIG employs in this effort is the actual
                                    removal, dismissal, or debarment of those union officials that
                                    are being influenced or controlled by organized crime.
 International Union
 President Resigns                  In May 1998, Edward T. Hanley resigned from his position as
 under RICO                         General President of the Hotel Employees and Restaurant Em-
                                    ployees International Union (HEREIU). Hanley’s resignation is
                                    another facet in sweeping federal investigations that began with
                                    a successful civil RICO case against HEREIU’s Local 54 in At-
                                    lantic City, New Jersey. An OIG investigation of corruption in
                                    HEREIU predicated an investigation by the court appointed in-
                                    ternational monitor, Kurt Muellenberg.

                                    In a February 1998 agreement with the court appointed HEREIU
                                    monitor, Hanley agreed that he would announce his retirement
                                    on or before May 31, 1998, leave office by July 31, 1998, repay
                                    the HEREIU $13,944 and relieve the HEREIU of the responsibil-
                                    ity to pay premiums on a $500,000 life insurance policy for him.
                                    In addition, the agreement barred Hanley from accepting any
                                    union compensation (except for vested benefits) and barred him
                                    from further direct or indirect influence over the union’s affairs.
                                    The agreement also prohibited him from seeking union reim-
                                    bursement for legal fees. U.S. v. Hanley (D. of New Jersey)
 HEREIU Members
 Removed from Office                An investigation by the OIG assisted the investigations officer
 for Mob Ties                       for the HEREIU Court-Appointed Monitor in charging that Joseph
                                    A. Spano and Frank Riggio committed numerous violations of




                                                           49
Semiannual Report to the Congress                                                  April 1, 1998 - September 30, 1998




                                    the Civil RICO Consent Decree. Specifically, Spano and Riggio
                                    were charged with:

                                    •       Associating with known members and associates of an
                                            organized crime group in order to exercise influence over
                                            Local 450’s affairs.

                                    •       Permitting members and/or associates of a criminal group
                                            to exercise influence over Local 450’s affairs.

                                    •       Obstructing the Monitor’s efforts to effectuate terms of
                                            the Consent Decree.

                                    •       Embezzling from Local 450.

                                    Per the plea agreements, Spano resigned as Vice-President-
                                    At-Large of the HEREIU, and, as President of Local 450. Both
                                    resigned as executive board members of Local 450, as mem-
                                    bers of the Chicago Joint Executive Board, as Local 450 mem-
                                    bers, and as rank-and-file HEREIU members. Riggio resigned
                                    and retired as the Secretary-Treasurer of Local 450. In addition,
                                    both agreed that they would not participate in any manner in any
                                    of the activities or affairs of HEREIU or its affiliate entities. U.S. v.
                                    Spano, Riggio (D. of New Jersey)
  Bookkeeper Pleads
  Guilty to $500,000                In April 1998, Carmella “Chickie” Garofalo, a former bookkeeper
  Embezzlement from                 and office manager for the Philadelphia Building and Construc-
  Union                             tion Trades Council (BCTC), pled guilty to charges of embez-
                                    zling union funds.

                                    During her employment with the BCTC, Garofalo maintained
                                    control of the BCTC’s bank account as well as an account for the
                                    Allied Trades Assistance Program (ATAP), a union-related ac-
                                    count. An investigation and audit were triggered after a BCTC
                                    business agent received notification of the withdrawal of $31,220
                                    from his pension account. When confronted by union officials,
                                    Garofalo admitted to the embezzlement. The investigation re-
                                    vealed that between December 1993 and April 1995, Garofalo
                                    had stolen $177,177 from the BCTC account and $280,514 from
                                    the ATAP account, for a total loss of $457,691. U.S. v. Garofalo
                                    (E.D. of Pennsylvania)




                                                             50
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



 Former Teamster
 President Convicted                In April 1998, a federal jury in Houston, Texas, convicted former
 of Embezzlement                    Teamsters Local Union 988 President Richard A. Hammond of
                                    14 counts of embezzlement. The International Brotherhood of
                                    Teamsters (IBT), Washington, D.C., took over IBT Local Union
                                    988 in November 1995, pursuant to a court ordered trusteeship.
                                    Hammond denied the International trustee access to the union
                                    hall and records. The judge imposed a preliminary injunction
                                    forbidding the Local Union 988 officials from interfering with the
                                    International trustee.

                                    The investigation, conducted by the DOL-OIG, FBI, and IRS, dis-
                                    closed that Hammond embezzled $75,137 from a health and
                                    welfare trust fund; used his union American Express card to
                                    charge over $65,723 for personal goods; embezzled $44,620
                                    from the union’s Democratic Republican Independent Voter Edu-
                                    cation (drive) fund; and made false statements to the LaGrange-
                                    Bellville Federal Land Bank to obtain a $79,800 loan. U.S. v.
                                    Hammond (S.D. of Texas)
 Former Union
 Officials Sentenced                A total of 13 people have been convicted in an ongoing investi-
 for Embezzlement                   gation of corruption in the United Food and Commercial Work-
                                    ers (UFCW) Local Union 1 in Utica, New York, with the
                                    Department’s Office of Labor-Management Standards, IRS, FBI
                                    and Housing and Urban Development’s Office of Inspector Gen-
                                    eral. The latest were four high ranking officials of the Union. Jo-
                                    seph C. Talarico, his daughter, Marlene Talarico Biernat, and his
                                    son, Samuel John Talarico and Joseph’s brother, Samuel J.
                                    Talarico, Jr., pled guilty to tax evasion and embezzlement from
                                    the union.

                                    The union officials and building contractors and vendors were
                                    convicted in a scheme to perform work on the residences of the
                                    then president of Local 1, Joseph C. Talarico and other Local 1
                                    officers and charge the cost to Local 1.

                                    Joseph C. Talarico was president of Local Union 1, and secre-
                                    tary-treasurer of the United Food and Commercial Workers In-
                                    ternational Union until his resignation in July 1997. The Court
                                    sentenced Joseph C. Talarico to 30 months of incarceration, fol-
                                    lowed by 3 years of supervised release. He was also barred
                                    from union office for 13 years’ and ordered to pay $1,096,696.78




                                                        51
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    in restitution.
                                    Samuel John Talarico was sentenced to 12 months and a day of
                                    incarceration, to be followed by 3 years of supervised release.
                                    He was barred from union office for 4 years (he was executive
                                    vice president until succeeding his father as president) and or-
                                    dered to pay $81,195.60 in restitution. Samuel John Talarico is
                                    also barred from any relationships with UFCW and its affiliates
                                    for life. Marlene Talarico Biernat, administrator, was sentenced
                                    to 12 months of probation, and ordered to pay $27,462.16 in
                                    restitution.

                                    The Court sentenced Administrative Vice President Samuel J.
                                    Talarico, Jr. to 24 months of incarceration, followed by three years
                                    of supervised release. In addition, he was barred from union
                                    office for 13 years and ordered to pay $769,366.36 in restitu-
                                    tion. U.S. v. Talarico, et al. (N.D. of New York)




                                                        52
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998




  WORKPLACE SAFETY,
  HEALTH, AND STANDARDS
 OIG Goal: To optimize the use of funds appropriated for worker protection and
 workplace safety programs by enhancing program performance and accountabil-
 ity.



                                    Another major function of the Department is the administration
                                    of programs designed to protect workplace standards and en-
                                    sure workplace safety. To help the Department ensure the pro-
                                    tection of workplace standards and safety, the OIG has estab-
                                    lished a safety, health, and standards goal for our 6-year GPRA
                                    Strategic Plan. Listed below are OIG activities completed dur-
                                    ing this reporting period that contribute toward achieving this
                                    important goal.
 MINE, SAFETY AND
                                    The Mine Safety and Health Administration (MSHA) administers
 HEALTH
                                    the provisions of the Mine Safety and Health Act of 1977. This
 ADMINISTRATION
                                    Act was enacted to provide a means for improving working con-
                                    ditions and practices in the Nation’s mines and for promoting a
                                    safe and healthful environment for miners. MSHA’s major activi-
                                    ties are the development and enforcement of health and safety
                                    standards; development and implementation of educational
                                    policy; technical support in the approval and certification of mine
                                    equipment; and the collection, analysis, and publication of infor-
                                    mation pertinent to the mining industry.
 Audit of MSHA’s
 Approval and                       As part of its efforts to ensure miners work in a safe environ-
 Certification Center               ment, MSHA regulates certain specified mining products (equip-
                                    ment, components, materials, explosives, and instruments) by
                                    settings standards, reviewing manufacturers’ designs for con-
                                    formance with those standards, and issuing approvals for equip-
                                    ment to be used in gassy mines. MSHA’s product evaluation
                                    and approval process is administered by the Approval & Certifi-
                                    cation Center (A&CC) located in Triadelphia, West Virginia.

                                    We conducted an audit to examine MSHA’s performance with
                                    respect to: product approval or acceptance processes; quality



                                                        53
Semiannual Report to the Congress                                                 April 1, 1998 - September 30, 1998




                                    assurance and field audit reviews of approved products; and
                                    establishment and collection of user fees.

                                    To obtain feedback regarding the approval and certification pro-
                                    cess, we surveyed equipment manufacturers, mine operators,
                                    and miner representatives, and selected a judgmental sample
                                    of cases completed during FY 1997. The respondents generally
                                    agreed that the A&CC testing and approval evaluations, field
                                    product audits, and revisions/recalls were conducted timely and
                                    fairly. We also concluded that MSHA established user fees for
                                    testing, evaluation, and approval of products in accordance with
                                    Federal requirements.

                                    However, our audit identified several areas in which MSHA could
                                    make improvements to increase the efficiency and/or effective-
                                    ness of its equipment approval and certification process. Spe-
                                    cifically, we included recommendations in our report encourag-
                                    ing MSHA to:

                                    •      significantly reduce the mining industry’s expenditures for
                                           engineering and product development by identifying and
                                           adopting those international and other standards which
                                           MSHA determines provide an acceptable level of safety
                                           for U. S. miners;

                                    •      place greater emphasis on assessing the adequacy of
                                           manufacturers’ quality control processes in both the evalu-
                                           ation/approval of products and the planning of field audits
                                           of approved equipment; and

                                    •      amend current regulations to more specifically address
                                           the applicability of safety standards to reconditioned min-
                                           ing equipment.

                                    In their response to our draft report, MSHA disagreed with many
                                    of our specific findings and recommendations. However, in re-
                                    sponse to our final report, MSHA has indicated that they will be
                                    reporting back to the OIG with their corrective action plan. (Report
                                    No. 06-98-008-06-610; issued September 25, 1998)




                                                         54
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



 Evaluation of
 MSHA’s Coal Mine                   During this reporting period, the OIG completed an evaluation of
 Safety and Health                  the effectiveness of the MSHA inspection program in a district
 Inspection Program                 in Alabama. The United Mine Workers of America (UMWA) had
                                    filed a complaint with the OIG raising concerns that MSHA was
                                    not fulfilling its legal responsibility to protect mine workers under
                                    the Federal Mine Safety and Health Act of 1977 (Mine Act).
                                    Among the allegations reviewed were that the district did not:

                                    •      Conduct proper and timely inspections in accordance with
                                           the Mine Act
                                    •      Ensure abatement of long-term mining hazards at
                                           several mines
                                    •      Address potential conflicts of interest
                                    •      Cite all violations to mine operators
                                    •      Conduct appropriate or sufficient enforcement activities

                                    We concluded that the mines in Alabama have better safety
                                    records now than prior to the creation of the district, as indicated
                                    by the declining incidence rates of mining accidents and inju-
                                    ries. In addition, violations have decreased by 15 percent over
                                    the last 2 years, concurrent with an overall improvement in the
                                    quality of citations and orders. However, enforcement actions
                                    have not decreased at the majority of mines considered to be
                                    most hazardous.

                                    MSHA’s enforcement responsibilities in the Alabama district
                                    currently encompass 50 surface facilities, requiring inspection
                                    at least 2 times per year, and 10 underground mines,requiring
                                    inspection at least 4 times per year. Here, as elsewhere, MSHA’s
                                    inspection presence does not, by itself, result in violation-free
                                    mines. Therefore, MSHA encourages voluntary compliance with
                                    the Mine Act through training, technical assistance, and other
                                    non-enforcement activities.

                                    The OIG interviewed MSHA employees, miners, miner repre-
                                    sentatives, and mine operators, and reviewed documentation
                                    supplied by both MSHA and the UMWA. We also examined,
                                    with MSHA and UMWA officials, underground conditions in this
                                    district.




                                                        55
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998




                                    Our review identified the following areas warranting MSHA’s at-
                                    tention to improve the coal mine safety and health inspection
                                    program and we made the following recommendations and ob-
                                    servations:

                                    •      Inspectors be provided regular briefings regarding those
                                           judicial or commission decisions that affect the issuance
                                           of citations and orders and copies of those rulings that
                                           serve as the basis for a conference officer’s decision.

                                    •      All MSHA inspectors receive training on identifying po-
                                           tential above-ground structural failure as soon as pos-
                                           sible.

                                    •      The relationship between the district and UMWA be im-
                                           proved through joint meetings and dialogue sessions.

                                    •      Additional policies, consistent with MSHA’s ethics guide-
                                           lines and labor-management agreement, be instituted re-
                                           quiring inspection personnel to disclose to agency man-
                                           agement officials both immediate family relationships with
                                           mine employees and any other personal relationships that
                                           may give the appearance of a conflict of interest.

                                    The OIG is concerned that a major complaint was not addressed
                                    appropriately by the district, largely as a result of ineffective com-
                                    munication between district supervisors and union officials.
                                    MSHA has fully accepted our recommendations and began imple-
                                    mentation prior to issuance of the final report. Additionally, MSHA
                                    has provided their conference officers with access to the Legal
                                    Quarterly Digest of Mine Safety and Health Decisions, as well
                                    as the Westlaw database. These two sources will permit the
                                    conference officers to readily provide inspectors and their su-
                                    pervisors with all judicial and Federal Mine Safety and Health
                                    Review Commission decisions that impact MSHA enforcement
                                    actions. (Report No. 18-OACE-98-MSHA; issued September 30, 1998.)
 Certification of Mine
 Safety and Health                  Recently, an 18 year-old Rail Link, Inc. (RLI) employee, Dominic
 Training Falsified                 Wolf, sustained severe injuries when a rail car amputated both
                                    of his legs. The same day, RLI Operation Manager James
                                    Anderson provided Wolf’s training certificate to an MSHA Inspec-




                                                        56
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    tor. When Wolf was interviewed he stated he never received the
                                    mandatory safety training, but said he was told to sign the train-
                                    ing certificate if he wanted to work. Other RLI employees were
                                    interviewed and stated they did not receive the safety training as
                                    indicated on their certificates. All of the certificates were signed
                                    by RLI safety trainer Richard Davis.

                                    Rail Link, Inc., which furnishes locomotives and crews to shuttle
                                    rail cars between General Chemical Mine’s railroad storage fa-
                                    cility and the mine’s preparation plant is required by MSHA fed-
                                    eral regulations to provide mandatory health and safety training
                                    to all of its employees. Additionally, RLI was required to main-
                                    tain proof of training at the work site and have it available for
                                    review at all times. In May, a grand jury returned indictments
                                    against employees Richard Davis and James Anderson for mak-
                                    ing false statements, aiding and abetting, and false certification
                                    of mine safety and health training. U.S. v. Davis, Anderson (D. of
                                    Wyoming)


 OCCUPATIONAL                       The Occupational Safety and Health Administration (OSHA) ad-
 SAFETY AND                         ministers the Occupational Safety and Health Act of 1970. OSHA
 HEALTH                             develops, reviews, and promulgates occupational safety and
 ADMINISTRATION                     health standards to assure safe and healthful working conditions
                                    for the American worker.
 Review of Regional
 OSHA Office                        The OIG reviewed selected structural and operational issues to
                                    assess the efficiency of the New York OSHA office’s administra-
                                    tive and management operations, and any related impact on pro-
                                    gram performance. This review was triggered by a position pa-
                                    per from an OSHA manager and referred to the OIG by the Of-
                                    fice of the Secretary. Our review did not confirm the position
                                    paper’s conclusions that significant opportunities exist to stream-
                                    line regional administrative and program management opera-
                                    tions. However, our review yielded several findings, in particu-
                                    lar:

                                    •      Our review of program management reports prepared by
                                           the Program Planning and Support unit and interviews with
                                           New York area directors supported the contributions of
                                           these products to the effective administration of the re-
                                           gion.




                                                        57
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998




                                    •      The New York Office, through its Federal State Opera-
                                           tions (training, education, consultation, federal agency pro-
                                           grams), and Technical Services units, ensures uniform in-
                                           terpretations of OSHA regulations and contributes lead-
                                           ership and coordination in the accomplishment of the
                                           program’s goals. These units have provided services
                                           which supplement other OSHA units to enhance regional
                                           program performance. We found no evidence that the
                                           functions of the New York Office’s units could be readily
                                           assigned to the area offices, or that New York Office in-
                                           volvement delays the abatement of hazardous conditions,
                                           as indicated in the position paper.

                                    We concluded that the New York Office’s program support units
                                    contribute to, rather than detract from, the Region’s effectiveness
                                    in accomplishing OSHA’s mission. (Report No.14-OACE-98-OSHA;
                                    issued June 23, 1998)



WORKPLACE                           The Department’s Employment Standards Administration (ESA)
STANDARDS                           is charged with administering and enforcing a number of stat-
                                    utes related to Federal labor standards. Workplace standards
                                    cover a wide range of employment issues, including: minimum
                                    wages, prevailing wages for contractors and subcontractors for
                                    Federal projects, child labor, overtime, family and medical leave,
                                    and other laws and regulations governing employment standards
                                    and practices.
Wage and Hour
Division                            ESA’s Wage and Hour Division (WHD) is responsible for im-
                                    proving and protecting the wages and working conditions of
FAIR LABOR                          workers in the private and local government sectors. The WHD
STANDARDS ACT                       is also responsible for determining the prevailing wage and fringe
                                    benefits rates for particular geographic areas, as required by
                                    the Davis-Bacon Act.

The Wage and Hour
Division Should Make                In some circumstances, ESA’s Wage and Hour Division (WHD)
Use of Opportunities                assumes responsibility for distributing funds paid by employers
to Locate Workers                   who have violated labor laws to workers who are owed the
and Return                          backwages. WHD tracks collection and distribution of the funds
Backwages Owed                      through its automated Backwage Collection and Disbursement




                                                            58
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    System (BCDS). Generally, backwages held for workers who
                                    cannot be located within 3 years’ of WHD’s last receipt of funds
                                    revert to the U.S. Treasury’s general fund and are no longer avail-
                                    able for distribution.

                                    Annual OIG financial audits indicate that balances of the BCDS
                                    totaled $40 million in 1998. The audits also indicate time frames
                                    available to WHD for distributing large portions of the funds have
                                    lapsed, requiring reversion of substantial sums to Treasury. Con-
                                    sequently, the effectiveness of WHD’s efforts to locate workers
                                    became an OIG concern. In addition, past audits also cited ma-
                                    terial weaknesses in accounting and administrative controls as-
                                    sociated with the BCDS. Because of the many problems, WHD
                                    committed to redesign the BCDS and work with the OIG in as-
                                    sessing problems that must be addressed in its backwage col-
                                    lection and distribution functions.

                                    The OIG conducted an audit to determine whether WHD could
                                    improve its success in distributing backwages by using informa-
                                    tion from credit bureaus to find workers. We also studied WHD’s
                                    accounting and administrative controls to identify problems that
                                    should be addressed in the BCDS’ redesign, as complete and
                                    accurate information is essential for WHD to manage its
                                    backwage collection and disbursement responsibilities.

                                    As a result of the audit, we concluded that credit bureaus are an
                                    effective tool WHD can use to locate workers owed money. On
                                    March 17, we selected a random sample of 416 unlocated em-
                                    ployees who were owed monies, from among active cases in-
                                    cluded in WHD’s inventory. Through the credit bureau’s data,
                                    we found current addresses for 205 of the workers in our sample
                                    who were owed $50,238. We sent them letters that were similar
                                    to the one used by WHD in their mailings. The letters informed
                                    the workers that WHD was holding monies due to them. In order
                                    to receive payment, the workers were asked to confirm some
                                    basic information and return the confirmations in the postage-
                                    paid envelopes we provided.

                                    Of the 205 workers, we received responses from 77 workers
                                    (38 percent) who were owed $22,226 in backwages. Projec-
                                    tions from our sample of active cases in which WHD holds money
                                    in trust indicate some $5 million owed about 17,000 workers




                                                        59
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    could be distributed by using credit bureaus to locate workers’
                                    current addresses. While our audit focused on information sup-
                                    plied through credit bureaus, we also identified other modest-
                                    cost alternatives for locating workers that WHD should consider.

                                    However, better success in locating and returning funds to em-
                                    ployees is also dependent upon improvements in WHD’s data
                                    systems and the procedures it uses to track enforcement activi-
                                    ties. WHD tracks collection and distribution of the funds
                                    (backwages) through the BCDS.

                                    We identified many improvements in WHD’s accounting and
                                    administrative controls that must occur to allow effective efforts
                                    to distribute funds. Although many are interrelated, problems
                                    may be categorized as: (1) BCDS system design weaknesses,
                                    (2) accounting control problems, and (3) issues related to super-
                                    vision and review.

                                    We recommended the Assistant Secretary for Employment Stan-
                                    dards direct WHD to increase its efforts to locate workers and
                                    distribute backwages. The use of information from credit bu-
                                    reaus should be strongly considered and other techniques for
                                    locating workers explored. If WHD needs additional funding to
                                    support the activities, we recommend the Secretary’s support
                                    be solicited in asking the Congress to allow use of a portion of
                                    unclaimed backwages, that otherwise revert to the U.S. Trea-
                                    sury, to fund worker search activities.

                                    ESA agreed with our recommendations. The response indicates
                                    that WHD, on the basis of our report, will explore methods of
                                    improving their ability to locate workers due backwages. Re-
                                    garding the system and procedural weaknesses, the response
                                    indicates WHD has already implemented many of the recom-
                                    mendations in its BCDS redesign effort and will implement the
                                    remaining recommendations in the near future.

                                    WHD did not offer a time frame for establishing improved proce-
                                    dures to locate workers and distribute backwages to workers.
                                    However, we encourage WHD to implement improvements as
                                    soon as possible.

                                    We concur with actions WHD either plans to take or reports it




                                                       60
Semiannual Report to the Congress                                                 April 1, 1998 - September 30, 1998



                                    has taken to address system and procedural weaknesses. If the
                                    new system and procedures are properly implemented and main-
                                    tained, they should resolve long-standing difficulties with the
                                    backwage data. WHD’s progress in improving its systems and
                                    procedures will be evaluated through the OIG’s annual consoli-
                                    dated financial statement audits of the Department. (Report Num-
                                    ber 04-98-006-04-420; issued September 28, 1998)

DAVIS-BACON ACT
                                    In November 1995, Ribar Contracting Inc. was awarded a U.S.
Three Indicted for                  Coast Guard (USCG) contract to do repair work on a dock in
False Statements                    lower Manhattan. Ribar was owned by Benny Riven, who was
Involving                           also the project director. Moshe Avni, Ribar’s vice president for
Davis-Bacon                         operations, submitted Ribar’s bid on the project and supervised
Prevailing Wages                    work on the project daily. After being awarded the job, Ribar
                                    hired Rip Marine Systems, Inc., later known as T & A Specialty
                                    Contracting, solely owned and operated by Anton Stackhow, as
                                    a subcontractor to perform work on the project.

                                    All four defendants were charged with conspiring to obtain re-
                                    leases from employees that they had been paid the prevailing
                                    wages. Specifically, Stackhow, Riven and Avni allegedly pres-
                                    sured and requested employees of T & A to retract complaints
                                    they had registered with the USCG that they had not been paid
                                    the prevailing wage. In addition, Ribar is alleged to have submit-
                                    ted letters to the Department of Labor, purporting to have been
                                    signed by two employees of T & A, retracting a prior complaint
                                    that they had not been paid the prevailing wage rate. On July 13,
                                    1998, a Federal grand jury in the Southern District of New York
                                    returned a 51-count indictment against Stackhow, Ribar Con-
                                    tracting Inc., Benny Riven and Moshe Avni for their roles in alleg-
                                    edly submitting false certified payrolls to the USCG for repair
                                    work. The indictment also cited the submission by Ribar of Re-
                                    ceipt for Payment of backwages purporting to have been signed
                                    by T & A employees. However, it was determined that the signa-
                                    tures were forged. U.S. v. Stackhow, et al. (S.D. of New York)
New York Contractor
Sentenced in                        A jury recently found both Jabrail Shareef and James Nelson
Davis-Bacon Act                     guilty of three counts of conspiracy, extortion and mail fraud
Case                                charges. The charges stated that in 1991, and continuing through
                                    at least April 1992, Shareef and Nelson cheated workers on a
                                    New York State contract to demolish the interior of a public hous-




                                                         61
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



                                    ing apartment complex.
                                    Shareef entered into a contract with Integrated Waste Special
                                    Services, Inc. in December 1991 that included a requirement
                                    that each employee classified as a laborer be paid at a rate of
                                    $21.89 per hour, under the prevailing wage rate schedule. How-
                                    ever, Shareef and Nelson conspired to pay employees in cash,
                                    at a substantially lower hourly rate, ranging from $6 to $10 per
                                    hour. The evidence further revealed that the employees were
                                    required to endorse the back of their paycheck(s) without having
                                    the opportunity to see the front of the checks, and those that at-
                                    tempted to see the fronts of the checks were told they would be
                                    fired. After the employees endorsed the checks over to Shareef
                                    they were paid in cash. On August 11, 1998, Nelson, project
                                    supervisor for Shareef Enterprises, was sentenced in the West-
                                    ern District of New York to 30 months of incarceration, followed
                                    by 3 years of supervised release, and was ordered to pay
                                    $52,403 in restitution. On February 5, 1998, Shareef and Nelson
                                    were convicted of conspiracy, extortion and mail fraud charges.
                                    This investigation was conducted jointly with the FBI. U.S. v. Nelson,
                                    Shareef (W.D. of New York)
Virginia Contractor
Sentenced for                       Haywood Williams owned and operated Haywood Steel, a com-
Underpaying                         pany that worked on a variety of federally funded construction
Employees                           projects. From 1994 to 1996, Williams deliberately failed to pay
                                    his workers the requisite wage rates, according to Davis-Bacon
                                    wage determinations, on several construction jobs funded by the
                                    U.S. Navy. He submitted weekly certified payrolls indicating that
                                    he was paying his workers in accordance with the wage scale
                                    but was actually underpaying them. Williams admitted paying
                                    his employees $88,706 less than he had certified he had paid.

                                    In July, Williams was ordered to serve 5 months in prison, 6
                                    months in community confinement, 2 years probation, and or-
                                    dered to pay $16,685 in restitution after having pled guilty to one
                                    count of making false statements and violating the tax code. This
                                    investigation was conducted jointly with the FBI, the Naval Crimi-
                                    nal Investigative Service, and the IRS. U.S. v. Williams (E.D. of Vir-
                                    ginia)




                                                         62
Semiannual Report to the Congress                                             April 1, 1998 - September 30, 1998




  DEPARTMENTAL
  MANAGEMENT

OIG Goal:       Assist DOL in maintaining an effective management process.



                                    The OIG carried out many activities in the area of departmental
                                    management that help to contribute to program economy and
                                    efficiency of DOL programs and operations. During this semi-
                                    annual period, extensive work was accomplished in the areas of
                                    the Year 2000 computer compliance problem, and the imple-
                                    mentation of the Government Performance and Results Act
                                    (GPRA).
THE DEPARTMENT
OF LABOR Y2K                        During this period, we began to track the Department’s imple-
PROBLEM                             mentation of Year 2000 (Y2K) compliance solutions. The OIG
                                    performed audit work to establish a Y2K baseline, from which
                                    future departmental and agency Y2K progress could be judged.
                                    A report was issued in July 1998 that identified areas requiring
                                    management attention. Specifically, we examined the 61 agency
                                    mission-critical systems from a number of different perspectives
                                    including: the business priorities perspective, the Y2K impact
                                    perspective, the Office of Management and Budget (OMB) guide-
                                    lines’ perspective, and the state-operated UI programs’ perspec-
                                    tive.
Business Priorities
Perspective                         First, we examined the issue of business priorities and divided
                                    and ranked the DOL mission-critical functions into six priority
                                    categories: benefit payments (3) , economic (24), financial (3),
                                    enforcement (10), programmatic (15), and administrative (6).
                                    Notably, of these 61 systems, only the Davis-Bacon system, a
                                    programmatic system, was identified as requiring management
                                    action. Since the release of the report, the Department has ad-
                                    vised us that the Davis-Bacon system has been renovated and
                                    tested, but we have not yet independently verified their compli-
                                    ance.




                                                       63
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



Y2K Impact
Perspective                         The OIG examined the overall Y2K impact on agencies, and then
                                    determined whether the Y2K problem would have a high, me-
                                    dium, or low impact on the Department’s ability to provide ser-
                                    vices and information to people, businesses, and other govern-
                                    ment agencies. As of July, the status of the 61 mission-critical
                                    systems was as follows:

                                    •      9 have a high impact on services -- 1 of these is
                                           compliant
                                    •      10 have a medium impact on services -- 2 of these are
                                           compliant
                                    •      42 have a low impact -- 19 of these are compliant
OMB Guidelines
Perspective                         The OIG also examined the Department’s Y2K needs in terms of
                                    OMB’s Y2K approach that included five phases: awareness,
                                    assessment, renovation, validation and implementation. It is
                                    only after each phase has successfully been accomplished that
                                    OMB credits an agency with progress. When comparing DOL’s
                                    progress to OMB’s Government-wide Y2K percentages, DOL is
                                    behind in the renovation, validation and implementation of its
                                    systems.
State-Operated UI
Program Perspective                 One of the major areas of concern to the OIG is the unemploy-
                                    ment insurance program, particularly the system’s benefit com-
                                    ponent. The OIG raises this concern because the benefit com-
                                    ponent has to be compliant by January 1, 1999. This is because
                                    when initiating an unemployment insurance claim, a benefit year
                                    is established for 1 year forward from the date when the claim is
                                    filed. This means that if a claim is filed on January 4, 1999, the
                                    system will calculate a benefit year ending date of January 4,
                                    2000. Consequently, a system could deny benefits and/or eligi-
                                    bility to a claimant who files after January 1, 1999, if it is not Y2K
                                    compliant.

                                    Currently, as it relates to the UI system, there are seven states
                                    and territories struggling to maintain sufficient Y2K progress. They
                                    include: Arkansas, Delaware, the District of Columbia, Montana,
                                    New Mexico, Puerto Rico, and the Virgin Islands. In addition to
                                    the seven “at-risk” states and territories, other states were placed
                                    on a “watch list” due to previous poor performance relating to
                                    system development efforts. These states include: Illinois, Loui-




                                                         64
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    siana, Maine, and Nevada.
                                    Since we issued the audit report, the Department has made
                                    progress in addressing the Y2K compliance issue. (Report No. 17-
                                    98-004-50-598; issued July 23, 1998)



OIG REVIEWS                         GPRA was enacted to improve internal management of the Fed-
UNDER                               eral Government by holding Federal agencies accountable for
THE GOVERNMENT                      achieving program results and improving program effectiveness
PERFORMANCE AND                     and accountability to the public. Although GPRA has no special
RESULTS ACT                         requirements for Inspectors’ General (IG), congressional over-
                                    sight committees have expressed interest in OIGs actively en-
                                    gaging in work related to GPRA implementation. Thus, we have
                                    made a commitment to assist the Department in managing for
                                    results by providing consultation assistance and audit oversight.

                                    During the last 6 months, the OIG provided consultation assis-
                                    tance to all the major departmental agencies. We reviewed the
                                    strategic, annual performance, and information technology plans
                                    and issued reports to the Agency Heads of the following agen-
                                    cies: OSHA, BLS, Wage and Hour, MSHA, ETA, VETS, OCFO,
                                    SOL, WB, ILAB, and PWBA.

                                    The purpose of the review was to determine whether the plans
                                    complied with the GPRA, OMB Circular A-11, Part 2, the Infor-
                                    mation Technology Management and Reform Act (ITMRA), and
                                    whether the plans contained all the elements required by the Acts
                                    and the Circular.

                                    Overall, we found that the Department’s and the agencies’ stra-
                                    tegic, annual performance, and information technology plans
                                    generally complied with the GPRA, OMB Circular A-11, Part 2,
                                    and the ITMRA. We provided the following suggestions to the
                                    agencies on how their plans could better reflect their missions,
                                    planning and performance goals, and how the agencies will man-
                                    age for results.
Strategic Plans
                                    GPRA requires the inclusion of six elements in an agency’s stra-
                                    tegic plan and the congressional committee that evaluated stra-
                                    tegic plans included four additional elements. All of the strategic
                                    plans needed to address the elements of crosscutting issues,




                                                         65
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998




                                    data capacity, management problems, high risks areas, and
                                    stakeholder consultations. Further, a significant number of the
                                    agency plans needed to:

                                    •      include key functions that were originally omitted from their
                                           mission statements;

                                    •      develop performance goals that are outcome-based,
                                           achievable, and measurable;

                                    •      link long-term goals/objectives and the annual perfor-
                                           mance goals;

                                    •      distinguish the difference between performance goals and
                                           strategies;

                                    •      develop a target level of performance, indicators, and
                                           base line data for performance goals; and

                                    •      focus program evaluations on performance measures
                                           rather than on the internal strategic planning process.
Annual Performance
Plans                               OMB Circular A-11, Part 2 requires that the annual performance
                                    plan include a discussion on the performance goals and indica-
                                    tors; a description of the operational processes, skills, technol-
                                    ogy, human resources, and capital; and a description of the
                                    means of verifying and validating measured values.

                                    The annual performance plans contained the required elements
                                    and basically met the intent of GPRA. However, we noted that a
                                    significant number of the agencies’ annual performance plans
                                    needed to contain performance goals that are outcome-based,
                                    realistic and have baseline data. Also, most of the annual per-
                                    formance plans needed to clearly describe how measured val-
                                    ues will be verified and validated.
Information
Technology Strategic                The Information Technology Management and Reform Act
Plans                               (ITMRA) provides for a more effective and efficient operation by
                                    using information technology to be more accountable for invest-
                                    ments and providing services to the public. The ITMRA requires
                                    the development of an IT strategic plan that is consistent with the




                                                        66
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



                                    GPRA strategic plan.
                                    Our review disclosed that the Department’s and agencies’ infor-
                                    mation technology strategic plans need to provide a compre-
                                    hensive approach to managing information technology invest-
                                    ments. In addition, these plans must contain results-oriented,
                                    measurable, realistic, and outcome-based strategic goals that
                                    relate to the goals contained in the strategic plans.

                                    We recognize that strategic planning is an evolving process and
                                    that agencies’ skills in preparing strategic and performance plans
                                    will continue to improve over time. While the Department has
                                    made progress in this area, there is much that will need to be
                                    done in order to meet the requirements of ITMRA.


 EMPLOYEE                           The OIG is charged with the responsibility for conducting investi-
 INTEGRITY                          gations into possible misconduct of criminal activities involving
 INVESTIGATIONS                     DOL programs, individuals providing services to the Department,
                                    and DOL employees. To that end, the OIG conducted a number
                                    of cases that reflect our commitment to this process.
DOL Employee
Pleads Guilty to                    During this reporting period a criminal information charge was
Soliciting Bribes                   filed against Baby Violeta Knight, an Alien Certification Clerk at
                                    the U.S. Department of Labor, who allegedly solicited bribes in
                                    return for securing the approval of applications for alien employ-
                                    ment certification. Cesar De La Cruz, an attorney representing
                                    an alien labor certification applicant in Los Angeles,alleged that
                                    Knight solicited his client for a bribe in order to approve his ap-
                                    plication. During the investigation, evidence was obtained that
                                    Knight solicited a bribe from De La Cruz and an undercover OIG
                                    agent, posing as an alien, who had attempted to obtain a labor
                                    certificate. Knight pled guilty to soliciting bribes from alien appli-
                                    cants. Knight subsequently resigned from her position in ETA --
                                    sentencing is currently pending. U.S. v. Knight (N.D. of California)
Job Corps Contract
Fraud Stopped                       An OIG investigation revealed that James L. Maynard, while act-
                                    ing as the Senior Vice President and Executive Vice President
                                    of Wackenhut Educational Services, Inc., conspired with former
                                    Deputy Director of Job Corps, Norma Selvera Mendez, in the
                                    theft of ETA procurement documents from Job Corps’ national
                                    office. In exchange for the information, Maynard provided Mendez
                                    with professional services by a Washington, D.C. public rela-




                                                         67
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    tions firm, and an airline ticket that was purchased with frequent
                                    flyer mileage. In May, former ETA contractor Maynard, entered a
                                    guilty plea to a one count information, charging conspiracy, and
                                    receipt of stolen government property. Maynard’s sentence is
                                    currently pending. Norma Selvera Mendez was sentenced, in
                                    August, to two years’ probation, 200 hours of community ser-
                                    vice, and $10,000 fine. This investigation was conducted jointly
                                    with the FBI. U.S. v. Maynard, Mendez (D. of Columbia)
Contractor Sentenced
for Defrauding the                  From 1993 to 1997, Jennifer Spraitz, was an employee of the
Longshore Program                   Orkand Corporation, a contractor providing services to the DOL
of over $500,000                    Longshore and Harbor Workers’ Compensation (LHWC) Pro-
                                    gram. Spraitz was assigned to the national office and her duties
                                    included data entry for bills regarding the payment of all Longshore
                                    rehabilitation counseling services. Allegedly, Spraitz and her
                                    friend Rachel Gratton conspired to defraud the Longshore pro-
                                    gram of $524,722 by submitting fraudulent rehabilitation coun-
                                    selor invoices for payment in the name of Rachel Gratton.

                                    In this scheme, Spraitz allegedly created more than 150 fraudu-
                                    lent invoices for rehabilitation counselor services, listing the
                                    names of actual program claimants which she got from actual
                                    invoices that she handled as part of her job duties. Spraitz then
                                    allegedly submitted the fraudulent invoices for supervisory ap-
                                    proval (mixed with real invoices), and after the invoices were
                                    approved, entered the information into the U.S. Treasury elec-
                                    tronic payment system. As a result, payments for the fraudulent
                                    invoices were allegedly sent to Gratton, who split the proceeds
                                    with Spraitz. In June, a criminal information charge was filed
                                    charging Spraitz and Gratton with conspiracy and theft.

                                    In September 1998, Spraitz and Gratton were sentenced in U.S.
                                    District Court, D.C. Spraitz received 24 months’ imprisonment,
                                    and 3 years’ probation. Gratton received 23 months’ imprison-
                                    ment, and 3 years’ probation. Spraitz and Gratton were ordered
                                    to pay $524,722 in restitution to the Department of Labor. As a
                                    condition of the pre-sentencing agreement, Spraitz issued a
                                    check to the Department for $10,000. On a related note, an au-
                                    dit of the LHWC Fund, completed during this reporting period,
                                    disclosed weaknesses in the internal controls for reporting and
                                    authorizing payments to rehabilitation service providers. U.S. v.
                                    Spraitz, Gratton (D. of Columbia)




                                                          68
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



Mine Inspector Pleads
Guilty to Submitting                Henry E. Stevens, an MSHA coal mine inspector, was assigned
False Reports                       the responsibility of performing complete safety and health in-
                                    spections at the Solus Coal Company, between April 1997, and
                                    May 1997. Stevens indicated in his official inspection notes he
                                    was underground conducting an inspection on several of these
                                    days; however, witness statements and examination of various
                                    mine records indicate Stevens was not underground performing
                                    inspections. In addition, information obtained shows that Stevens
                                    falsified his records. Two days following Stevens alleged inspec-
                                    tion of the mine, a man was killed in a roof fall accident, and a
                                    second man was seriously injured. In August, Stevens pled guilty
                                    to a felony charge of falsifying various documents used in the
                                    performance of his official duties. The mine superintendent and
                                    two mine foremen were also charged with falsifying records dur-
                                    ing this same time period. Prior to Stevens’ indictment, he con-
                                    fessed to falsifying his inspection notes and reports. U.S. v. Stevens
                                    (W.D. of Virginia)
DOL Employee Sen-
tenced For Credit                   In April, Senetra N. Jones was sentenced for her conviction of
Card Fraud                          embezzling public funds and unauthorized use of credit cards.
                                    Jones admitted that while she was a DOL employee she know-
                                    ingly stole documents obtained from the personnel files of the
                                    United States Department of Labor in Atlanta. Jones then used
                                    the information from the files to fraudulently obtain credit cards.
                                    Jones was sentenced to six months’ home confinement, five
                                    years’ probation, and was ordered to pay restitution of
                                    $18,176.44. U.S. v. Jones (N.D. of Georgia)




                                                         69
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998




 LEGISLATIVE
 RECOMMENDATIONS


                                    Section 4(a) of the Inspector General Act requires the Office of
                                    Inspector General (OIG) to review existing and proposed legis-
                                    lation and regulations and to make recommendations in the semi-
                                    annual report, with regard to their impact on the economy and
                                    efficiency of the administration of the Department’s programs
                                    and operations, or to the prevention of fraud and abuse in such
                                    programs. During this reporting period the OIG has the following
                                    legislative recommendations:
AMEND THE
FEDERAL                             The Federal Employees’ Compensation Act (FECA) provides
EMPLOYEES’                          compensation and medical payments for Federal employees
COMPENSATION ACT                    suffering work-related illnesses or traumatic injuries. The De-
                                    partment of Labor administers this program, in cooperation with
                                    the other Federal agencies whose employees receive benefits
                                    under the Program.

                                    In order to ensure that this program operates as effectively and
                                    efficiently as possible, the OIG recommends amending the Inter-
                                    nal Revenue Code to allow the Office of Workers’ Compensa-
                                    tion Programs (OWCP) and the OIG access to Social Security
                                    wage information. Currently, OWCP can only access Social
                                    Security wage information if given specific permission by the
                                    FECA claimant, although refusal to grant such authorization has
                                    no adverse impact on the claim. However, without this informa-
                                    tion, OWCP staff, as well as OIG investigators, are hampered in
                                    being able to determine whether FECA beneficiaries are receiv-
                                    ing outside employment income, which can affect the entitlement
                                    to benefits.

                                    Therefore, for purposes of the effective and efficient administra-
                                    tion of FECA benefits and in furtherance of its oversight and
                                    criminal investigations of suspected benefit fraud by claimants,
                                    the OIG supports statutory authorization to provide OWCP and




                                                       70
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    the OIG with access to certain Social Security Administration
                                    data. Clearly, claimants who defraud the FECA program are
                                    unlikely to willingly grant the authority to access information on
                                    their earnings to OWCP or the OIG. Furthermore, both OWCP
                                    and the OIG are unable to even verify if the Social Security num-
                                    ber provided by the claimant is, in fact, the claimant’s issued
                                    number.

                                    Second, the OIG also recommends amending FECA to adjust
                                    time frames for the payment of benefits under the program. Be-
                                    fore receiving disability compensation, injured employees can
                                    receive a continuation of pay (COP) for up to 45 calendar days,
                                    following a disabling job-related traumatic injury, without having
                                    to use sick leave or leave-without-pay. If the claim for FECA
                                    compensation is not approved and the injured worker continues
                                    to remain away from the job, then the claimant must use accrued
                                    sick leave or leave-without-pay for the three work days immedi-
                                    ately following the end of the 45-day COP period.

                                    Prior to its being amended in 1974, the FECA statute had re-
                                    quired employees to use three days of their accrued sick leave
                                    or leave-without-pay before they could begin to receive COP.
                                    This three-day period near the beginning of the claim had been
                                    established to limit frivolous OWCP claims. However, immedi-
                                    ately following the 1974 change in the FECA law, there was a
                                    dramatic rise in the number of new and sometimes frivolous com-
                                    pensation claims. Therefore, the OIG recommends returning the
                                    three-day waiting period to a point prior to the commencement
                                    of the 45-day COP period. This small change would help to dis-
                                    courage unwarranted injury and disability claims.

                                    A third area warranting legislative attention deals with the level
                                    of benefits under the FECA disability program. Beneficiaries
                                    with dependants who are on the temporary total disability rolls
                                    currently receive, tax-free, 75 percent of the salary that they drew
                                    before their injury as compensation for the lost wage-earning
                                    capacity. (If there are no dependents, the benefit level is 66 2/3
                                    percent.) Because the compensation is untaxed, the level of
                                    these benefits is often much greater than would generally be re-
                                    alized by most Federal workers who work for many years and
                                    then retire from their jobs. Consequently, this aspect of the law
                                    can serve to actually discourage some Federal workers from




                                                        71
Semiannual Report to the Congress                                              April 1, 1998 - September 30, 1998



                                    returning to work. Therefore, the OIG recommends that consid-
                                    eration be given to establishing a reduced compensation level
                                    that would not exceed the amounts of money available to those
                                    who had continued to work.

                                    In order to curb other disincentives to reemployment, the OIG
                                    recommends several other technical changes to FECA. Under
                                    current law, beneficiaries can remain on the FECA disability rolls
                                    until they die. Because there is no incentive to leave the FECA
                                    disability rolls, the OIG recommends that a mandatory retirement
                                    age be established, whereby FECA recipients who reach the
                                    designated age would revert to benefit levels more consistent
                                    with the levels provided through the Civil Service Retirement
                                    System or the Federal Employees’ Retirement System. Of
                                    course, all approved medical benefits related to the injury would
                                    continue to be paid by OWCP, irrespective of the claimant’s age.

LIMITED SCOPE
AUDITS                              Within our jurisdiction, the OIG strives to help workers and retir-
                                    ees by safeguarding employment benefits and enhancing DOL’s
                                    effectiveness in administering related programs. We carry out
                                    this goal through oversight of the Pension and Welfare Benefits
                                    Administration (PWBA), review of proposed legislation, and
                                    criminal enforcement pursuant to special labor racketeering au-
                                    thority. It is essential that employee benefit plans be afforded
                                    sufficient protections to ensure that particular assets are ad-
                                    equately protected, and available when participants need them.
                                    However, over the years, the OIG has seen countless examples
                                    of criminal activity in the pension plan arena.

                                    To better protect the pension plan assets of American workers
                                    and to help combat this criminal element, we have identified ar-
                                    eas where protection of pension assets can beimproved. Fore-
                                    most among these areas, the OIG has recommended the re-
                                    peal of the limited scope audit provision of the Employee Retire-
                                    ment Income Security Act (ERISA). This repeal would require full
                                    scope audits of all pension plans audited under ERISA. The
                                    limited scope provision results in inadequate auditing of pen-
                                    sion plans because it exempts, from audit, all pension plan funds
                                    that have been invested in institutions such as savings and loans,
                                    banks, or insurance companies already regulated by Federal or
                                    State Governments. At the time ERISA was passed two de-




                                                        72
Semiannual Report to the Congress                                                April 1, 1998 - September 30, 1998



                                    cades ago, it was assumed that all of the funds invested in those
                                    regulated industries were being adequately reviewed. Unfortu-
                                    nately, as indicated by the savings and loan crisis, that is not
                                    always the case.

                                    Currently, because of this provision, independent public accoun-
                                    tants conducting audits of pension plans cannot render an opin-
                                    ion on the plan’s financial statements in accordance with profes-
                                    sional auditing standards. It is important to note that the audi-
                                    tors’ disclaimer of any opinion on the financial statements in-
                                    cludes even those assets that were audited. These “no opinion”
                                    audits provide no substantive assurance of plan integrity to ben-
                                    efit participants or the Department.

ACCESS TO                           With passage of the Government Performance and Results Act,
PROGRAM DATA                        the importance of program evaluation has been highlighted
                                    through the Act’s requirements that agencies demonstrate the
                                    impact of federally funded programs. For the Department of La-
                                    bor and the OIG, this means an increased need to access earn-
                                    ings and employment information held by other federal or state
                                    entities. In addition, this information is critical in identifying and
                                    stopping fraud in certain programs. In many cases, these records
                                    are the only accurate source of wage and employment informa-
                                    tion and, thus, critical to DOL and OIG activities. However, the
                                    OIG is concerned because access to such data for program evalu-
                                    ation or investigative purposes has at times proven to be a chal-
                                    lenge.

Unemployment                        Some states interpret the Social Security Act to limit DOL ac-
Insurance Wage                      cess to state Unemployment Insurance (UI) wage record data,
Records                             even though DOL funds the costs of the state wage data report-
                                    ing systems. Although the IG Act provides the OIG with adminis-
                                    trative subpoena authority to obtain these records, the enforce-
                                    ment of our subpoenas, when states fail to comply, is both time
                                    consuming and costly. The Employment and Training Adminis-
                                    tration has recently advised states to comply with OIG subpoe-
                                    nas. However, the statutory authority to obtain these records is
                                    preferable.




                                                        73
Semiannual Report to the Congress                                               April 1, 1998 - September 30, 1998



                                    The OIG recommends that Congress amend Section 303 of the
                                    Social Security Act, to provide DOL and the OIG with express
                                    statutory authority to access state UI wage records for purposes
                                    related to the administration and evaluation of any DOL program.

Access to SSA                       We are limited in our inability to obtain timely and useful informa-
Information                         tion regarding specific individuals’ Social Security earnings for
                                    program evaluation, investigative, and other purposes. The So-
                                    cial Security Administration (SSA) and the Internal Revenue Ser-
                                    vice (IRS) are, in most instances, prohibited by law from disclos-
                                    ing any personal information, including earnings. However, in-
                                    formation on such earnings is crucial if we are to identify fraud
                                    and evaluate the effectiveness of DOL’s programs, consistent
                                    with our mission under the IG Act, as amended.

                                    To enhance DOL and OIG’s ability to assess the effectiveness of
                                    DOL programs, we recommend that Congress amend Section
                                    6103(l) of the Internal Revenue Code to ensure our ability to en-
                                    able DOL and OIG to obtain individual wage data for program
                                    evaluation purposes.




                                                        74
Semiannual Report to the Congress        April 1, 1998 - September 30, 1998




                            APPENDIX




                                    75
Semiannual Report to the Congress                                                                 April 1, 1998 - September 30, 1998




REPORTING REQUIREMENTS
Requirement Under the Inspector General Act of 1978

Section 4(a)(2) - Review of Legislation and Regulations ............................................................ 75
Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies ......................................... ALL

Section 5(a)(2) - Recommendations With Respect to Significant Problems,
 Abuses, and Deficiencies ................................................................................................... ALL

Section 5(a)(4) - Matters Referred to Prosecutive Authorities ...................................................... x

Section 5(a)(5) and Section 6(b)(2) - Summary of Instances Where
 Information Was Refused .................................................................................................. None

Section 5(a)(6) - List of Audit Reports ....................................................................................... 87

Section 5(a)(8) - Statistical Tables on Management Decisions on
 Questioned Costs................................................................................................................... 80

Section 5(a)(9) - Statistical Tables on Management Decisions on
 Recommendations That Funds Be Put to Better Use ........................................................ 78-79

Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old for
 Which No Management Decision Has Been Made ........................................................... 83-86

Section 5(a)(11) - Description and Explanation for Any Significant
 Revised Management Decision ........................................................................................ None

Section 5(a)(12) - Information on Any Significant Management Decisions with
 which the Inspector General Disagrees ............................................................................. None

Senate Report No. 96-829
Resolution of Audits ............................................................................................................ 87-87
Money Owed to the Department ................................................................................................ 82

Note: This table cross-references the reporting requirements prescribed by the Inspector General Act of 1978, as amended,
and Senate Report No. 96-829 (Supplemental 1980 Appropriations and Rescissions Bill) to the specific pages where they are
addressed. The amount of "delinquent debts" owed to the Department can be found in the annual Consolidated Financial
Statement Audit.




                                                                 76
Semiannual Report to the Congress                                                                           April 1, 1998 - September 30, 1998



EXPLANATION OF AUDIT SCHEDULES
Questioned Costs ................................................................................................................................ 80

This schedule shows the extent to which DOL management has taken steps, during the 6-month reporting
period, to resolve the costs questioned as having been improperly expended. Audit resolution occurs
when management either agrees with the auditor’s finding and disallows those costs that were ques-
tioned, or management decides that the expenditure should be allowed. (This schedule is required by
Section 5(a)(8) of the Inspector General Act, as amended.)

Disallowed Costs ................................................................................................................................. 81

This schedule presents the activity for costs that have been disallowed during the 6-month period. This
schedule is included in the OIG Semiannual Report to demonstrate the flow of information to the Secretary’s
Semiannual Management Report, which is issued by the Secretary as required by Section 5(b)(2) of the
Inspector General Act, as amended.

Recommendations that Funds be Put to Better Use (Agreed & Implemented) ....................... 78-79

These schedules depict the activity during the 6-month reporting period for those funds that were recom-
mended by the auditor to be put to better use. These schedules are included in the OIG Semiannual
Report to demonstrate the flow of information to the Secretary’s Semiannual Management Report, which
is issued by the Secretary as required by Section 5(b)(3) of the Inspector General Act, as amended.

Unresolved Audits Over 6 Months ............................................................................................... 83-86

This schedule presents a summary of all audit reports that continue to remain unresolved for more than 6
months. For these reports, a management decision is still outstanding. (This schedule is required by
Section 5(a)(10) of the Inspector General Act, as amended.)

Final Audit Reports Issued by the OIG ......................................................................................... 87-88

This schedule is a listing, subdivided according to subject matter, of all audit reports that were issued by
the OIG during the 6-month reporting period, as required by Section 5(a)(6) of the Inspector General Act,
as amended. This listing also provides for each audit report, where applicable, the total dollar value of
questioned costs and the total dollar value of recommendations that funds be put to better use.

Note: The schedule that lists the significant audit recommendations which have not been resolved for over 1 year and on which corrective action
has not been completed is reported in the Secretary's Semiannual Management Report.




                                                                        77
Semiannual Report to the Congress                                     April 1, 1998 - September 30, 1998




                                FUNDS PUT TO BETTER USE
                                     (Agreed to by DOL)

                                                               Number of Dollar Value
                                                               Reports   ($ millions)

 A.      For which no management decision had been
         made as of the commencement of the reporting period      5                $5.6

 B.      Which were issued during the reporting period            2                $2.3

                 Subtotals (A + B)                                7                $7.9

 C.      For which a management decision was made
         during the reporting period                              1                $0.6

         —       Dollar value of recommendations
                 that were agreed to by management                                 $0.6

         —       Dollar value of recommendations
                 that were not agreed to by
                 management                                                      $ ---

 D.      For which no management decision had been
         made as of the end of the reporting period              6               $ 7.3

 E.      For which no management decision has been
         made within 6 months of issuance                        3               $ 5.0




                                                   78
Semiannual Report to the Congress                                            April 1, 1998 - September 30, 1998




                             FUNDS PUT TO BETTER USE
                                       (Implemented by DOL)


                                                                      Funds Recommended
                                                   Number of          for Better Use
                                                    Reports           ($ millions)
   A.      For which final action had
           not been taken by the
           commencement of the
           reporting period                              6             $73.8

   B.      On which management
           decisions were made during
           the reporting period                          1              $ 0.6

                   Subtotals (A + B)                     7             $74.4

   C.      For which final action was
           taken during the reporting
           period                                          3           $50.9

           —       Dollar value of
                   recommendations that
                   were actually completed                                  $0.9

           —       Dollar value of
                   recommendations that
                   management has subsequently
                   concluded should not or could
                   not be implemented or completed                     $50.0*

   D.      For which no final action
           had been taken by the end
           of the reporting period                         4           $23.5


                       *Congress has not acted on our recommendation that the
                         Foreign Labor Certification Program be termined.




                                                      79
Semiannual Report to the Congress                           April 1, 1998 - September 30, 1998




               RESOLUTION ACTIVITY RELATED TO
          INSPECTOR GENERAL ISSUED AUDIT REPORTS

                                      QUESTIONED COSTS

                                              Number of Questioned Costs
                                              Reports   ($ millions)
  A.      For which no management
          decision had been made as
          of the commencement of the
          reporting period (as adjusted)           70    $35.5

  B.      Which were issued during
          the reporting period                     13    $20.8

                  Subtotals (A + B)                83    $56.3

  C.      For which a management
          decision was made during
          the reporting period                     12     $9.3

          —       Dollar value of
                  disallowed costs                        $8.3

          —       Dollar value of
                  costs not disallowed                    $1.0

  D.      For which no management
          decision had been made as
          of the end of the reporting
          period                                   71    $47.0

  E.      For which no management
          decision has been made
          within 6 months of issuance              59    $32.3




                                              80
Semiannual Report to the Congress                              April 1, 1998 - September 30, 1998



             AGENCY FINAL ACTIONS RELATED TO
         INSPECTOR GENERAL ISSUED AUDIT REPORTS
                                       DISALLOWED COSTS


                                               Number of    Disallowed Costs
                                                Reports           ($ millions)
   A.      For which final action had
           not been taken by the
           commencement of the
           reporting period (asadjusted)           118       $44.4

   B.      On which management
           decisions were made during
           the reporting period                     11         8.3

                   Subtotals (A + B)               129       $52.7

   C.      For which final action was
           taken during the reporting
           period                                   15       $11.4

           —       Dollar value of
                   disallowed costs that
                   were recovered                             $9.7

           —       Dollar value of
                   disallowed costs that
                   were written off by
                   management                                 $1.7

   D.      For which no final action
           had been taken by the end
           of the reporting period                 114      $41.4*


   * Includes management decisions which are under appeal




                                                  81
Semiannual Report to the Congress                                                             April 1, 1998 - September 30, 1998



                                DELINQUENT DEBTS OWED
                               THE DEPARTMENT OF LABOR
                                           As of September 30, 1998

 Agency/Program                   Accounts Receivable
                                              Current                       Delinquent                            Total
 ESA:
         Black Lung                          38,198,104                    4,786,392                    42,984,496
         FECA                                22,082,100                   14,035,036                    36,117,136
         Longshore                              802,344                    1,311,316                     2,113,660
         Back Wage                            4,497,192                    5,327,248                     9,824,440
         CMP                                    151,507                    4,922,003                     5,073,510

 ETA                                          3,332,179                   18,408,746                    21,740,925

 MSHA                                            362,845                    9,591,178                     9,954,023

 OSHA                                        13,142,007                   31,347,660                    44,489,667

 PWBA                                            302,506                  11,560,652                    11,863,158

 Total                                     $82,870,784                $101,290,231                   $184,161,015


NOTE: Figures provided by agencies are unaudited and may represent estimates. Amounts due to the Unemployment Trust Fund (inter-
agency receivables, state unemployment taxes and benefit overpayments) are not included. Amounts due from other Federal Agencies
for FECA workers’ compensation benefits paid are not included.




                                                                    82
                                                 UNRESOLVED AUDITS OVER 6 MONTHS
                                                              April 1, 1998 - September 30, 1998

     Agency                    Date                     Report                                                   No. of Non-Monetary   Questioned
     Program                   Issued                   Number                   Name of Audit/Auditee           Recommendations       Costs

     Management Decision Being Evaluated By OIG:

     OASAM/ADMIN               05/15/97                   12-94-012-07-001       DOL CONSOLIDATED FINANCIALS     2                     0
     ETA/ADMIN                 03/28/97                   04-97-014-03-001       HOMELESS GRANTS SE TENN PIC     3                     125,575
     ETA/SESA                  06/03/97                   18-97-019-03-325       TEXAS WORKFORCE COMM.           7                     2,656,279
     ETA/JTPA                  09/28/95                   04-95-041-03-340       METRA NASHVILLE TENN            1                     27,802
     ETA/DINAP                 03/31/98                   18-98-006-03-355       UNITED SIOUX TRIBE OF SD        1                     303,615
     ESA/FECA                  01/09/98                   12-98-001-04-431       FY97 SPECIAL REPORTS            1                     588,674
     MULTI/ALLDOL              05/03/96                    09-96-550-50-598      STATE OF WASHINGTON             6                     43,057
     MULTI/ALLDOL              03/31/97                   04-97-017-50-598       STATE OF ALABAMA                1                     4,610
     CFO/ADMIN                 02/28/97                   12-97-005-13-001       FY96 DOL CNSLDTD FINANCIALS     10                    480,393
                                                                                                                 32                    4,230,005
     Pending Further Action:

     ETA/OJC                   09/29/92                   18-92-033-03-370       NAT’L PLASTERING INDUS          1                     0
     ETA/OJC                   04/21/97                   18-97-016-03-370       KIMBERLY INDUSTRIES, INC        1                     4,041,655
     ETA/OJC                   09/10/96                   18-96-024-03-370       NAT’L PLASTERING INDUS          2                     145,344
83




                                                                                                                 4                     4,186,999
     Program Agency Returned Single Audit to OIG:

     ETA/OJC                   04/02/96                   02-96-208-03-370       PUERTO RICO VOLUN YOUTH         21                    219,435
     ETA/OJC                   04/02/96                   02-96-209-03-370       PUERTO RICO VOLUN YOUTH         13                    1,716
     ETA/OJC                   05/23/96                   02-96-248-03-370       PUERTO RICO VOLUN YOUTH         6                     0
     ETA/OJC                   05/23/96                   02-96-249-03-370       PUERTO RICO VOLUN YOUTH         6                     0
     MULTI/ALLDOL              04/01/96                   02-96-210-50-598       DEPT OF LABOR/HUMAN RESOURCES   39                    287,065
     MULTI/ALLDOL              04/01/96                   02-96-211-50-598       DEPT OF LABOR/HUMAN RESOURCES   28                    15,943
     MULTI/ALLDOL              04/01/96                   02-96-212-50-598       DEPT OF LABOR/HUMAN RESOURCES   29                    60,680
                                                                                                                 142                   584,839
     Being Resolved in Conjunction with DOL Consolidated Financial Statement Audit:

     ETA/OJC                   08/19/96                   12-96-004-03-370       JOB CORPS COMBINING SCHEDULES   3                     0
     OSHA/ADMIN                09/29/92                   05-92-014-10-001       FY91 OSHA FINANCIAL STATEMENT   2                     0
     OSHA/ADMIN                01/17/95                   05-95-004-10-001       OSHA FY93 INTERNAL CONTROL      1                     0
                                                                                                                 6                     0

     Working with U. S. Department of Education to resolve:

     ETA/STW                   05/09/97                   05-97-002-03-385       SCHOOL TO WORK OPPORTUNITIES    17                    16,821
     ETA/STW                   05/09/97                   05-97-003-03-385       SCHOOL TO WORK OPPORTUNITIES    21                    34,847
     ETA/STW                   09/30/96                   18-96-025-03-385       TEXAS COUNCIL ON WORKFORCE      4                     249,514
     ETA/STW                   07/15/97                   05-97-112-03-385       FOX CITIES CHAMBER FOUNDATION   1                     20,388
     43 321,570
                                              UNRESOLVED AUDITS OVER 6 MONTHS
                                                          October 1, 1997 - March 31, 1998

     Agency                   Date                   Report                                            No. of Non-Monetary   Questioned
     Program                  Issued                 Number             Name of Audit/Auditee          Recommendations       Costs

     Pending Indirect Cost Negotiations:

     ETA/JTPA                 01/08/97               18-97-007-03-340   ACADEMY FOR EDUCATIONAL DEV    1                     180,162
     ETA/OJC                  08/07/97               18-97-024-03-370   MAINSTREAM, INC.               5                     31,998
     ETA/OJC                  09/10/96               18-96-023-03-370   DAU, WALKER & ASSOC            5                     101,468
     OASAM/OPGM               11/04/94               18-95-001-07-735   HOME BUILDERS INSTITUTE        1                     628,158
     OASAM/OPGM               11/04/94               18-95-002-07-735   HOME BUILDERS INSTITUTE        2                     748,379
     OASAM/OPGM               11/04/94               18-95-003-07-735   HOME BUILDERS INSTITUTE        7                     353,479
     OASAM/OPGM               09/20/95               18-95-025-07-735   ASOCIACION NACIONAL PRO        6                     76,274
     OASAM/OPGM               08/14/97               18-97-025-07-735   CONSULTING & PROGRAN MGMT      4                     604,510
     OASAM/OPGM               09/26/97               18-97-032-07-735   KRA 1/CFYS 1994/1995           1                     437,272
                                                                                                       32                    3,161,700

     Management Decision Not Yet Issued by Agency:

     ETA/UIS                  09/26/97               02-97-220-03-315   VIRGIN ISLANDS UI              8                     269,404
     ETA/UIS                  03/27/98               05-98-003-03-315   IOWA WORKFORCE DEVELOPMENT     1                     0
84




     ETA/SESA                 01/17/96               06-96-001-03-325   PROPOSED FY96 RENTAL RATES     4                     194,815
     ETA/SESA                 03/21/97               06-97-010-03-325   SESA REAL PROPERTY - CO        1                     79,346
     ETA/SESA                 05/08/97               06-97-011-03-325   SESA REAL PROPERTY - ND        1                     150,939
     ETA/SESA                 05/05/97               06-97-016-03-325   SESA REAL PROPERTY - MT        1                     164,471
     ETA/SESA                 03/27/97               06-97-019-03-325   SESA REAL PROPERTY - VA        4                     940,465
     ETA/SESA                 03/28/97               06-97-025-03-325   SESA REAL PROPERTY - TN        4                     281,260
     ETA/SESA                 06/13/97               06-97-034-03-325   SESA REAL PROPERTY - FL        4                     254,860
     ETA/SESA                 07/23/97               06-97-039-03-325   SESA REAL PROPERTY - WI        1                     309,388
     ETA/SESA                 07/29/97               06-97-048-03-325   SESA REAL PROPERTY - CA        1                     711,701
     ETA/SESA                 08/13/97               06-97-051-03-325   SESA REAL PROPERTY - NY        1                     3,952,692
     ETA/SESA                 08/21/97               06-97-053-03-325   SESA REAL PROPERTY - OR        1                     739,444
     ETA/SESA                 08/22/97               06-97-054-03-325   SESA REAL PROPERTY - ID        1                     542,465
     ETA/SESA                 09/30/97               06-97-056-03-325   SESA REAL PROPERTY             7                     0
     ETA/JTPA                 02/20/97               02-96-258-03-340   COMPARATIVE ANALYSIS OF JTPA   2                     0
     ETA/JTPA                 09/13/96               04-96-030-03-340   GA DEPT OF TECH AND ADULT      3                     409,512
     ETA/JTPA                 02/26/96               05-96-001-03-340   CITY OF CHICAGO JTPA-OJT       3                     679,773
     ETA/JTPA                 03/03/98               05-98-002-03-340   ST. LOUIS COUNTY SPEC REV      4                     704,311
     ETA/JTPA                 02/25/92               06-92-010-03-340   EAST TEXAS COUNCIL OF GOVT     13                    5,780,925
     ETA/JTPA                 11/05/97               06-98-001-03-340   SER JOBS FOR PROGRESS NAT’L    6                     54,935
     ETA/JTPA                 02/06/98               06-98-003-03-340   CENTRAL TEXAS COUNCIL OF GOV   3                     117,785
     ETA/JTPA                 09/03/97               18-97-026-03-340   MARE ISLAND NAVAL SHIPYARD     1                     154,101
     ETA/DINAP                03/06/97               06-97-223-03-355   STANDING ROCK SIOUX TRIBE      3                     0
     ETA/DINAP                03/07/97               06-97-224-03-355   STANDING ROCK SIOUX TRIBE      1                     0
     ETA/DINAP                06/22/96               09-96-551-03-355   TOHONO O’ODHAM NATION          2                     1,530
     ETA/DINAP                09/06/96               09-96-555-03-355   SHOSHONE-BANNOCK TRIBES        2                     0
     ETA/DSFP                 08/30/96               06-96-128-03-365   HOME EDUCATON LIVELIHOOD       1                     0
                                                 UNRESOLVED AUDITS OVER 6 MONTHS
                                                            October 1, 1997 - March 31, 1998

     Agency                   Date                    Report                                              No. of Non-Monetary   Questioned
     Program                  Issued                  Number              Name of Audit/Auditee           Recommendations       Costs

     ETA/DSFP                 03/31/95                 18-95-013-03-365   MISSISSIPPI DELTA COUNCIL       3                     33,837
     ETA/OJC                  03/28/97                 18-97-014-03-370   NAT’L PLASTERING INDUS          12                    859,115
     ETA/OJC                  09/23/97                 18-97-031-03-370   OVERSIGHT OF JOB CORPS          2                     0
     ETA/OJC                  09/30/97                 18-97-033-03-370   NPIJATF PERFORMANCE AUDIT       9                     0
     ETA/OJC                  03/31/98                 09-98-001-03-370   FORT SIMCOE JOB CORPS CENTER    18                    580,485
     ETA/STW                  07/03/96                 05-96-003-03-385   SCHOOL TO WORK OPPORTUNITIES    13                    135,298
     ETA/STW                  07/12/96                 18-96-015-03-385   CAPITAL AREA TRNG FOUNDATION    7                     632,460
     ESA/FECA                 03/31/98                 03-98-003-04-431   DECEASED CLAIMANT BENEFITS      2                     439,086
     ESA/CMWC                 07/25/97                 12-97-013-04-433   BLOIF MGMT ADVISORY COM         1                     0
     OASAM/OPGM               07/20/95                 18-95-014-07-735   CENTRAL VALLEY OPPORTUNITIES    1                     0
     OASAM/OPGM               02/11/97                 18-97-012-07-735   RES CARE INC.                   2                     196,322
     OSHA/OSHAG               01/08/97                 18-97-006-10-101   EASTERN RESEARCH GROUP          3                     7,286

     Management Decision Not Yet Issued by Agency, Continued:

     ETA/ADMIN                08/25/92                 12-92-022-03-001   ETA FY92 FIN STATEMENT          2                     0
     ETA/ADMIN                09/30/93                 12-93-001-03-001   FY92 ETA FIN SCHEDULES          4                     0
85




     CFO/ADMIN                05/01/96                 12-96-007-13-001   FY95 DOL CNSLDTD FINANCIALS     7                     0
     CFO/ADMIN                06/11/97                 12-97-010-13-001   FY96 DOL MGMT ADVISORY          2                     0
     CFO/ADMIN                02/27/98                 12-98-002-13-001   FY97 CNSOLDTD FINANCIALS        27                    0
     MULTI/ALLDOL             08/12/97                 02-97-213-50-598   STATE OF MAINE                  22                    0
     MULTI/ALLDOL             08/12/97                 02-97-225-50-598   STATE OF CONNECTICUT            9                     0
     MULTI/ALLDOL             08/11/97                 03-97-035-50-598   STATE OF DELAWARE               2                     306,932
     MULTI/ALLDOL             04/10/96                 09-96-544-50-598   GOVERNMENT OF GUAM              1                     0
     MULTI/ALLDOL             09/20/96                 09-96-560-50-598   STATE OF ARIZONA                2                     0
     MULTI/ALLDOL             02/11/97                 09-97-507-50-598   STATE OF ALASKA                 12                    123,334
     MULTI/ALLDOL             10/15/97                 03-98-001-50-598   D.C. DEPARTMENT OF EMPLOYMENT   5                     0
                                                                                                          252                   19,808,277
     Congressional Action Required to Resolve:

     ETA/FLC                  03/31/98                 04-98-004-03-321   H2-A PROGRAM                    2                     0
                                                                                                          2                     0

     TOTAL QUESTIONED COSTS                                                                               513                   32,293,390
                                               UNRESOLVED AUDITS OVER 6 MONTHS
                                                          October 1, 1997 - March 31, 1998

     Agency                  Date                    Report                                      No. of Non-Monetary   Questioned
     Program                 Issued                  Number             Name of Audit/Auditee    Recommendations       Costs

     Management Decision Not Yet Issued by Agency:

     ETA/ADMIN               03/31/97                03-97-024-03-001   ELECTRONICALLY LINKED    1                     3,400,000
     ETA/OJC                 03/28/97                18-97-014-03-370   NAT’L PLASTERING INDUS   1                     137,127
                                                                                                 2                     3,537,127
     Management Decision Being Evaluated by OIG:

     ETA/ADMIN               10/09/97                04-98-002-03-001   CASH MANAGEMENT          2                     1,204,439
     OASAM/OPGM              09/18/97                18-97-029-07-735   JOB CORPS PROPERTY       3                     300,000
                                                                                                 5                     1,504,439

     TOTAL FUNDS RECOMMENDED FOR BETTER USE                                                      7                     5,041,566

     TOTAL QUESTIONED COSTS AND
     FUNDS RECOMMENDED FOR BETTER USE                                                            520                   37,334,956
86
                                          FINAL AUDIT REPORTS ISSUED BY THE OIG
                                                        April 1, 1998 - September 30, 1998

                                                                                    No. of Non-     Questioned   Funds Put to Other Monetary
     Name of Audit                                       Program Report Number      Monetary Rec.        Costs    Better Use          Impact

     01 GOAL 1 - A PREPARED WORKFORCE

     REVIEW VET’S GPRA PLANS (CA)                        ADMIN   17-98-011-02-001   0               0            0            0
     REVIEW OF ETA GPRA PLANS (CA)                       ADMIN   17-98-010-03-001   0               0            0            0
     COMMUNITY AND SENIOR SERVICES
     OF LOS ANGELES COUNTY                               ADMIN   18-98-007-03-001   3               89,576       0            0
     FLORIDA FED FIN ASSISTANCE (SA)                     USES    12-98-501-03-320   1               3,864        0            0
     MICHIGAN JOBS COMMISSION (SA)                       USES    12-98-502-03-320   0               372,727      0            0
     FL MISUSED JTPA FUNDS IN ITS PERF
     BASED INCERT. FUNDING PROG                          JTPA    04-98-005-03-340   1               11,419,499   0            0
     PROFILING JTPA TITLE IIA’S AFDC PARTICIPARTS        JTPA    06-98-002-03-340   0               0            0            0
     CONCERNS FOR THE WELFARE-TO-WORK
     PROGRAM FROM THE SERVICE                            JTPA    06-98-005-03-340   0               0            0            0
     FINANCIAL AND PERFORMANCE AUDIT OF
     THE ARC OF THE US                                   JTPA    06-98-007-03-340   0               0            0            0
     F & C AUDIT CHEROKEE NATION JTPA PROGRAM            JTPA    06-98-009-03-340   3               529,272      0            0
     AUDIT OF THE JOBMATCH PROJECT                       JTPA    09-98-003-03-340   3               243,078      0            0
87




     DISTRICT OF COLUMBIA DEPT OF ES (SA)                JTPA    12-98-504-03-340   0               39,968       0            0
     CALIFORNIA INDIAN MANPOWER CONSORTIUM, INC (SA)     DINAP   12-98-503-03-355   0               22,244       0            0
     BALTIMORE AMERICAN INDIAN CENTER, INC.              DINAP   18-98-010-03-355   4               43,834       0            0
     AUDIT OF NAPCA                                      DOWP    09-98-201-03-360   0               157,872      0            172,274
     NCSC/DOL UNEMPLOYMENT CORPENSATION TRUST            DOWP    18-98-009-03-360   1               6,099,673    0            0
     NEW ENGLAND FARMWORKERS’ COUNCIL                    DSFP    02-98-201-03-365   0               0            0            0
     AUDIT OF PPEP, INC.                                 DSFP    09-98-004-03-365   2               183,286      0            0
     MIDWEST FARMWORKDER
     EMPLOYMENT & TRAINING, INC. (SA)                    DSFP    12-98-500-03-365   0               0            0            0
     TRAFALGAR HOUSE CONSTRUCTION, INC.                  OJC     18-98-008-03-370   0               0            1,684,088    0
     ASPINET CONSTRUCTION CO.                            OJC     18-98-011-03-370   0               0            618,776      0
     STW OPPOTUNITIES PROGRAM IN IOWA -
     SYSTEM SUSTAINABLILITY                              STW     05-98-006-03-385   4               0            0            0
     DEPAUL LETTER REPORT - WTW POST-AWARD SURVEY        WTW     05-98-008-03-386   0               0            0            0

     02 GOAL 2 - A SECURE WORKFORCE - INCOME SECURITY

     EFFECT EMPLOYEE LEASING ON THE STATE
     OF GEORGIA UNEMPLOYMENT                             UIS     03-98-007-03-315   4               1,603,629    0            0
     IMPROVEMENTS ARE NEEDED IN THE EVALVATION
     OF AUDIT QUALITY                                    UIS     03-98-008-03-315   2               0            0            0
     CLARIFICATION OF UIPL NO. 23-96                     UIS     05-98-005-03-315   0               0            0            0
     STATE UI CONTINGENCY AND DISASTER RECOVERY PLAN     UIS     17-98-006-03-315   0               0            0            0
     UNEMPLOYMENT INSURANCE SYSTEMS                      UIS     17-98-007-03-315   4               0            0            0
                                                                                       No. of Non-      Questioned   Funds Put to Other Monetary
     Name of Audit                                         Program Report Number       Monetary Rec.         Costs    Better Use          Impact

     LONGSHORE & HARBOR WORKERS’ COMPENSATION ACT          DLHWC    12-98-004-04-432   0                0            0            0
     DISTRICT OF COLUMBIA WORKERS’ COMPENSATION ACT        DLHWC    12-98-005-04-432   0                0            0            0

     03 GOAL 2 - A SECURE WORKFORCE - PENSIONS

     REVIEW OF PWBA 5-YR & FY 99 PERF. PLANS               ADMIN    17-98-018-12-001   0                0            0            0
     STREAMLINING EFAST AND EM’S                           ADMIN    17-98-019-12-001   0                0            0            0
     PWBA’S ADMINISTRATION OF THE DFVC PROGRAM
     NEEDS IMPROVEMENT                                     ENFORC   09-98-005-12-121   7                0            0            0

     04 GOAL 3 - A QUALITY WORKPLACE - SAFETY AND HEALTH

     AUDIT OF MSHA’S APPROVAL AND CERTIFICATION
     CENTER                                                ADMIN    06-98-008-06-001   7                0            0            0
     REVIEW OF MSHA’S GPRA PLANS (CA)                      ADMIN    17-98-009-06-001   0                0            0            0
     OSHA PROCUREMENT                                      ADMIN    17-98-005-10-001   0                0            0            0
     REVIEW OF OSHA’S GPRA PLANS (CA)                      ADMIN    17-98-008-10-001   0                0            0            0
     (X01C)

     05 GOAL 3 - A QUALITY WORKPLACE - LABOR RIGHTS ENFORCEMENT

     REVIEW OF ILAB’S GPRA PLANS (CA)                      ILAB     17-98-017-01-070   0                0            0            0
     THE WAGE AND HOUR DIVISION SHOULD MAKE
     USE OF OPPORTUNITIES                                  WHD      04-98-006-04-420   1                0            0            5,000,000
     REVIEW OF WAGE AND HOUR GPRA PLANS (CA)               WHD      17-98-016-04-420   0                0            0            0
88




     06 DOL MANAGEMENT

     AUDIT OF THE YEAR 2000 CHALLENGE
     IN THE DEPARTMENT OF LABOR                            OSECY    17-98-004-01-001   0                0            0            0
     REVIEW OF WB’S GPRA PLANS (CA)                        WB       17-98-015-01-020   0                0            0            0
     OASAM IMPREST FUND VERIFICATION AUDIT                 OA       05-98-007-07-711   0                0            0            0
     HUMAN RESOURCE MANAGEMENT IN SOL                      ADMIN    17-98-002-08-001   0                0            0            0
     REVIEW OF SOL’S GPRA PLANS (CA)                       ADMIN    17-98-014-08-001   0                0            0            0
     REVIEW OF OFCO’S GPRA PLANS (CA)                      ADMIN    17-98-013-13-001   0                0            0            0

     07 LABOR STATISTICS


     REVIEW OF BLS GPRA PLANS (CA)                         ADMIN    17-98-012-11-001   0                0            0            0

         Totals                                            47       47                 20,808,522       2,302,864                 5,172,274

     SINGLE AUDITS


         Totals                                            0        0                  0            0       0
Semiannual Report to the Congress                       April 1, 1998 - September 30, 1998




   INVESTIGATIONS: DETAIL OF ACCOMPLISHMENTS

                                                     Division       OI
                                                     Totals         Total
            Cases Opened
                    Program Fraud                        244
                    Labor Racketeering                    69          313

            Cases Closed
                    Program Fraud                        166
                    Labor Racketeering                    58           224

            Referred for Prosecution
                    Program Fraud                        168
                    Labor Racketeering                    59          227

            Cases Referred for
            Administrative/Civil Action
                    Program Fraud                        168
                    Labor Racketeering                     7           175

            Indictments
                    Program Fraud                        140
                    Labor Racketeering                    55           195

            Convictions
                    Program Fraud                        108
                    Labor Racketeering                    36          144

            Debarments
                    Program Fraud                          2
                    Labor Racketeering                    25            27

            Recoveries, Cost Efficiencies,
            Restitutions, Fines/Penalites,
            Forfietures and Civil Monetary Actions
                    Program Fraud                      $10.8
                    Labor Racketeering                 $18.4        $29.2



                                          89
Semiannual Report to the Congress                                             April 1, 1998 - September 30, 1998




  INVESTIGATIONS: FINANCIAL ACCOMPLISHMENTS
                          Categories                                                        $ Amount

                          Recoveries:                                                       5,201,076

                          (The dollar amount/value of an agency’s action to recover or reprogram funds
                          or to make other adjustments in response to OI investigations.)

                          Cost Efficiencies:                                                3,591,813

                          (The one-time or per annum dollar amount/value of management’s
                          commitment, in response to OI investigations, to more efficiently utilize the
                          Government’s resources.)

                          Restitutions:                                                    19,056,320

                          (The dollar amount/value of restitutions resulting from OI criminal
                          investigations.)

                          Fines/Penalties                                                      864,060

                          (The dollar amount/value of fines, assessments, seizures, investigative/
                          court costs, or other penalties resulting from OI criminal investigations.)

                          Civil Monetary Actions:                                              500,516

                          (The dollar amount/value of forfeitures, settlements, damages, judgments,
                          court costs, or other penalties resulting from OI civil investigations.)



                          Total:                                                          29,214,485




                                                    90
Semiannual Report to the Congress                                         April 1, 1998 - September 30, 1998



                     OFFICE OF INVESTIGATIONS CASE LIST
                                    April 1, 1998 - September 30 , 1998
Defendant/Subject                     Indicted    Convicted   Sentenced      Monetary


ALIEN CERTIFICATION

CORTEZ, JULIET L.                        X                                   0
ESTRELLER, HOLLY ARTHUR                                           X          5,050
GARCIA, LORENZO LEON                                  X           X          300
GARRETT, JAMES                                                    X          2,100
HEWITT, SIDNEY                                                    X          50
JEWELL, BILLY                                                     X          1,646,445
KIM, HAESOOK C.                                                   X          5,050
MONROY, ANTONIO                                       X           X          0
POLANCO, MARTHA                                                   X          1,050
SHELDON, MATTHEW P.                      X                                   0
                                         ——           ——          ——         —————
                  TOTAL                  2            2           8          1,660,045


BLS/OTHER

ROGERS, DARNELL                          X            X           X          6,068
                                         ——           ——          ——         —————
                  TOTAL                  1            1           1          6,068


EMPLOYEE MISCONDUCT

FOX, KATHRYN L.                                                   X          38,315
GOLDEN, LISA                                                      X          4,066
GRATTON, RACHEL                          X            X           X          262,361
JONES, SENETRA N.                                                 X          18,301
KNIGHT, VIOLETA                                       X                      0
MAESTAS, JOHN R                          X            X                      0
MURPHY, DOUGLAS E                                                 X          5,771
SCOTT, KELVIN                            X                                   0
SPRAITZ, JENNIFER M                      X            X           X          262,361
STEVENS, HENRY                           X            X                      0
SULLIVAN, SHARON DENISE                               X           X          13,488
SWARINGER, SEAN M                                     X           X          13,511
                                         ——           ——          ——         —————
                  TOTAL                  5            7           8          618,174

ESA-CMW

MAES, GILBERT                            X            X           X          2,661
                                         ——           ——          ——         —————
                  TOTAL                  1            1           1          2,661




                                                     91
Semiannual Report to the Congress                                        April 1, 1998 - September 30, 1998



                       OFFICE OF INVESTIGATIONS CASE LIST
                                    April 1, 1998 - September 30, 1998
  Defendant/Subject                  Indicted    Convicted   Sentenced        Monetary


  ESA-FECA

  ANGER, CHARLES                        X            X           X            96,433
  BIEGANOWSKI, VICTOR JACOB             X                                     0
  BIEGNOWSKI, ARTHUR DR.                X                                     0
  BREMER, LEWIS                         X            X                        0
  CAMPOS, LUCY                          X                                     0
  CLIFTON, MARVIN M. D.,                X            X                        15,000
  CRENSHAW, CHARLES ARNOLD              X            X                        0
  DE MARIANO, JENA                                                            6,594
  DIAZ, GUSTAVO M                       X                                     0
  DOLENZ, BERNARD J. DR.                             X                        0
  EACKER, ANNA ELIZABETH                X                                     0
  EASTERBROOK, WALTER                   X            X                        0
  FOWLER, THOMAS                        X            X           X            3,925
  FUTRELL, ELIZABETH                                 X                        0
  FUTRELL, ROYCE                                     X                        0
  GIESE, DARWIN O.                                               X            3,055
  GLOWSKI, MARK RN                                               X            3,606
  GOLDBERG, RICHARD JOSEPH JR           X                                     0
  GRASSO, RUDOLPH G.                                             X            16,245
  HOSS, JOHN L.                         X                                     0
  LOPEZ, JESSE J                        X                                     0
  MALDONADO, MARIA                                   X           X            57,970
  MILLS, JOHN                           X                                     0
  MIRANDA, EDWARD                       X            X                        0
  MORALES, GUADALUPE G                  X                                     0
  MYERS, KRIK                                                    X            6,850
  NUTT, DONNIE BOBBY                                 X                        0
  OGDEN, RONALD                                                  X            6,337
  OSWIK, RICHARD                                                 X            124,495
  PASCUCCI, NICHOLAS                                 X                        0
  POOLE, RANDY                                                   X            700
  REARY, PATRICK A                      X                                     0
  REEVES, REGINALD                      X                                     0
  REYES, PATRICIA YVONNE                X                                     0
  ROBERTS, CAROLYN                                   X                        0
  ROBERTS, JUNIOUS WARREN                            X                        0
  ROGERS, JERRY RODNEY                  X                                     0
  ROJAS, JOSUA M.D.                     X            X           X            55,817
  ROMERO, MARIA CCONCEPCION             X                                     0
  RUSSO, ANGELA                                                  X            27,000
  SHEPHARD, WILLAIM                                  X                        0
  SMOLINSKY, EDWARD J.                                           X            0
  TOLSON, JAMES O.                                   X           X            671




                                                   92
Semiannual Report to the Congress                                         April 1, 1998 - September 30, 1998



                      OFFICE OF INVESTIGATIONS CASE LIST
                                    April 1, 1998 - September 30 , 1998
Defendant/Subject                     Indicted    Convicted   Sentenced      Monetary

TRUJILLO, RALPH A.                       X                                   0
WARD, RICHARD                                                     X          84,500
WELCH, BRENDA GAIL                                                X          67,745
WILKINSON, MICHAEL                                                X          13,425
YOUST-RENTZ, LINDA                                    X                      0
                                         ——           ——          ——         —————
                  TOTAL                  23           20          17         590,368


ESA-LSHWC

SPENCE, JOHN                             X                                   0
                                         ——           ——          ——         —————
                  TOTAL                  1            0           0          0


ESA-W&H

 *** SEALED ***                          X                                   0
CANALE, ALFRED                           X                                   0
LOKESH, BOMMEGOWDA                       X                                   0
*** SEALED ***                           X                                   0
*** SEALED ***                           X                                   0
SHARP CONSTRUCTION CO.,                  X                                   0
*** SEALED ***                           X                                   0
                                         ——           ——          ——         —————
                  TOTAL                  7            0           0          0


ESA-OTHER

BOWMAN, DAVID T.                                                  X          25,600
FENASCI, MICHAEL A                                                           250,489
GILMARTIN, JAMES B.                      X            X                      0
                                         ——           ——          ——         —————
                  TOTAL                  1            1           1          276,089


ETA-JOB CORPS

MAYNARD, JAMES                           X            X                      0
SELVERA, NORMA                                                    X          10,000
                                         ——           ——          ——         —————
                  TOTAL                  1            1           1          10,000




                                                     93
Semiannual Report to the Congress                                         April 1, 1998 - September 30, 1998



                      OFFICE OF INVESTIGATIONS CASE LIST
                                    April 1, 1998 - September 30 , 1998
  Defendant/Subject                   Indicted    Convicted   Sentenced        Monetary


  ETA-JTPA

  ABDULLAH, GARY                                                  X            9,569
  BARKLEY, GORDON L                      X                                     0
  CHERNICK, PAUL                                      X                        0
  MADDEN, DONNA                          X                                     0
  NAIMAN, ELIMELECH                                   X                        0
  SIMMS, GARRY H                         X                                     0
  SMART, JAMES                           X                                     0
  UPREACH INC,                                                                 37,874
  VINSON, BOBBY                                       X           X            6,979
  WALLACE, BERNADINE                     X            X                        0
                                         ——           ——          ——           —————
  TOTAL                                  5            4           2            54,422


  ETA-SESA/UI

  ACEVEDO, DENNIS                        X                                     0
  ACEVEDO, GILBERT                       X                                     0
  ADAMS, JAUNEECE S                      X                                     0
  ALLARD, THOMAS                                                  X            86,980
  ALTHEN, COLLEN K                       X                                     0
  ARELLANO, YOLANDA L.                                            X            1,771
  ASTACIO, SAMUEL                        X                                     0
  BABINEAUX, PHILLIP                     X                                     0
  BACON, DARRELL C                       X                                     0
  BARRY, LINDA C                                                  X            5,554
  BIBB-NICHOLS, CHARLENE A               X                                     0
  BLACK, LEONARD M                                    X           X            5,106
  BR0OKS, ANTHONY                                                              7,764
  BROOKS, LAMAR J                        X            X           X            2,352
  *** SEALED ***                         X                                     0
  CANADY, REGINA S                       X            X           X            2,680
  CARPENTER, CHRISTOPHER                 X            X           X            5,599
  CATRON, ROLAND R.                                   X           X            588
  CHINN, JAMES JR.                                                X            3,326
  CHURCHILL, WAYNE                                    X           X            3,103
  CLAYTON, GEORGE                                     X           X            8,316
  CLEMENTS, MICHAEL                                   X           X            1,246
  COLAR, KENNETH R.                      X                                     0
  COLLINS, ANTHONY                       X                                     0
  COSTALES, JOHNNY                                                X            8,053
  CRAWFORD, JULIA A                      X                                     0
  DAVIS, JEFFREY S.                                                            32,968
  DEBERNARDI, TAMMY                      X                                     0
  DEGUZMAN, CAROLINA                                                           3,000
  DIAMOND, PERRY J                       X                                     0




                                                    94
Semiannual Report to the Congress                                         April 1, 1998 - September 30, 1998



                     OFFICE OF INVESTIGATIONS CASE LIST
                                    April 1, 1998 - September 30 , 1998
Defendant/Subject                     Indicted    Convicted   Sentenced      Monetary


DIAZ, JUAN                               X            X           X          4,300
DINKINS, CELESIA T.                      X                                   0
DOUGLAS, RHONDA R                                     X           X          4,200
DUNCAN, JENNIFER                                      X           X          5,460
DUNN, ROBERT K                           X            X           X          3,132
EDWARDS, BARBARA                         X                                   0
EDWARDS, GEORGE                          X                                   0
FARRINGTON, CHARLES                                   X           X          600
FENNER, ANTHONY                          X                                   0
GAFFNEY, PAUL M                          X                                   0
GALLOWAY, MICHELLE L                     X                                   0
GARDNER, ROBERT D                                     X                      0
GILES, DUANE C                           X            X           X          55,272
GLOVER, BANKS                            X                                   0
GODOY, ARTURO J.                         X                                   0
GOODWIN, SEAN                            X                                   0
GOUDY, JEFF JR                           X                                   0
GOVERNOR, JOSEPH                                      X           X          3,206
GRAVES, ANGELA L                         X            X           X          3,314
GUILFU, EFRAIN                                        X                      0
HALL, EUGENE JR                                       X           X          3,000
HAMILTON, CURTIS J                       X                                   0
HARDING, CONXAVIA C.                     X            X           X          3,455
HARRIS-PEGROSS, SHERMAN                               X           X          50
HOLMES, BRADLEY                                       X                      0
HOLZ, JEFFREY W                          X            X           X          2,700
HOWARD, JAMES                            X                                   0
HOWSE, DERRICK F                         X                                   0
SAAC, FRANK L                            X            X           X          4,032
JACKSON, KELSEY                          X            X           X          2,792
JACKSON, RONALD C                        X                                   0
JACKSON, STEPHANIE D.                    X                                   0
JACOBS, MICHAEL DWYANE                   X            X           X          2,817
JESTER, ANTHONY J                        X                                   0
JOHNS, TROY C.                                        X           X          1,980
JONES, ROBERT JR                         X            X           X          3,862
JONES, STACY                                          X           X          772
KEEN, HAROLD                                          X           X          4,937
KILGORE, GARY L                                       X           X          1,450
KOVACH, MARILYN A                                     X           X          7,414
LANG, VINCE                              X            X           X          5,640
LITTLE, TERRISS W                        X            X           X          4,284
LOPEZ, ZAVIER G                          X            X           X          1,172
LOUVIERE, DENISE F.                      X                                   0
MARTINEZ, NIKKI                                       X           X          2,099
MASTROSIMONE, JOSEPH                                  X           X          6,801
MAYO, HENRY JR.                          X                                   0




                                                     95
Semiannual Report to the Congress                                         April 1, 1998 - September 30, 1998



                      OFFICE OF INVESTIGATIONS CASE LIST
                                    April 1, 1998 - September 30 , 1998
  Defendant/Subject                   Indicted    Convicted   Sentenced        Monetary

  MCCRORY, JAMES W                                    X           X            4,550
  MCKENZIE, OREN (O.T.)                  X            X           X            4,973
  MCLENDON, MICHAEL L.                                            X            4,977
  MILES, LINDA G                                      X           X            7,750
  MOORE, PRESTON                         X                                     0
  MORAN, EMMET A. III                    X                                     0
  MORRIS, CARDRIENNE                     X                                     0
  MOSS, CARL A                           X                                     0
  MUNGIA, JUAN                           X                                     0
  NURSE, WANDA L.                                     X           X            61,648
  OLMEDA, HECTOR L                       X            X           X            2,196
  PARKER, CATHERYN KALANI                                         X            36,473
  PATINO, JOSE                                        X                        0
  PAUL, MICHAEL C.                                    X           X            6,185
  PEREZ, JAMES J                         X            X           X            1,407
  PERKINS, ANTHONY                       X                                     0
  PERRY, DARLENE                         X                                     0
  PETTIS, CHARLES                        X            X           X            4,575
  PHILLIPS, DANITA T                     X                                     0
  PHILLIPS, IDA L.                                                X            3,901
  PINSON, DION T                         X                                     0
  PONTALION, DANE E                                   X           X            3,084
  PRINCE, IVORY                          X                                     0
  QUEZADA, IRMA                                       X                        0
  RAYEL, JAMES E                         X                                     0
  RESLEY, CHRISTINE M                    X            X           X            1,782
  RHODES, JUAN D                                      X           X            3,762
  ROADES, KELLY                          X            X           X            3,675
  ROBERTS, ANGELA C.                     X                                     0
  ROBINSON-HAYES, AVIS                   X                                     0
  ROCHA, PATRICIA J                                   X                        0
  ROMERO, CORIOLANO                                               X            58,250
  ROUSSELLE, DOROTHY L                   X            X           X            3,301
  SAM, LARRY                             X            X           X            3,311
  SANCHEZ, ANTONIO ANGELES               X                                     0
  SANCHEZ, RAMON                         X            X           X            2,528
  SAXENA, SANJAY                         X                                     0
  SERVANT, RHONDA D.                                                           5,436
  SHAWLER, KAREN E                                    X                        0
  SMITH, DWIGHT                                       X           X            4,223
  SMITH, JAMES L                         X            X           X            2,116
  SMITH, MICHAEL A                       X                                     0
  SMITH, NORMAN J                                     X           X            2,600
  *** SEALED ***                         X                                     0
  STALLWORTH, DARRELL                    X            X           X            4,591
  STEVENSON, STACEY                                   X           X            1,980
  STROTHER, MICHAEL E                                 X           X            3,311
  SUTLEY, DALE                                        X           X            7,127




                                                    96
Semiannual Report to the Congress                                         April 1, 1998 - September 30, 1998



                     OFFICE OF INVESTIGATIONS CASE LIST
                                    April 1, 1998 - September 30 , 1998
Defendant/Subject                     Indicted    Convicted   Sentenced      Monetary


TERRANCE, ROBERT L                                                X          2,256
THOMAS, EVETTE MARIE                     X            X           X          3,288
*** SEALED ***                           X                                   0
THOMAS, SANDY L                          X            X           X          1,255
TINSLEY, RENEE D                         X                                   0
TOURVILLE, DEBBIE                        X                                   0
VELASQUEZ, PETER L                       X                                   0
WACKER, RAY W                            X                                   0
WALLIS, RONALD                                        X           X          3,267
WARD, RALPH                              X                                   0
WEATHERFORD, TROY                                                 X          3,258
*** SEALED ***                           X                                   0
WEST, REGINALD                           X            X           X          3,371
WHITTHORNE, JOSEPH R                     X                                   0
WILLIAMS, CHERYL D.                      X            X           X          3,254
WILLIAMS, MILTON JR                      X            X                      0
WILLIAMS, ZOE                            X                                   0
                                         ——           ——          ——         —————
                   TOTAL                 90           69          72         586,808


MSHA

ANDERSON, JAMES                          X                                   0
DAVIS, RICHARD                           X            X                      0
PARSONS, DEIDRE K.                                    X                      0
                                         ——           ——          ——         —————
TOTAL                                    2            2           0          0


OTHER - PF

JOSE L. ARREOLA,                         X                                   0
                                         ——           ——          ——         —————
                   TOTAL                 1            0           0          0


OTHER - LR

AGARWAL, MANGI                           X                                   0
ALY, ABRAHAM                                          X                      0
BURKE, STEPHEN G                                                  X          250,000
MCGONAGLE, PATRICK J                                              X          250,000
                                         ——           ——          ——         —————
TOTAL                                    1            1           2          500,000




                                                     97
Semiannual Report to the Congress                                         April 1, 1998 - September 30, 1998



                      OFFICE OF INVESTIGATIONS CASE LIST
                                    April 1, 1998 - September 30 , 1998
  Defendant/Subject                   Indicted    Convicted   Sentenced        Monetary


  BENEFIT PLAN

  BONAR, MATTHEW                                      X           X            50,000
  BRAGER, DENNIS                         X            X                        0
  BROSS, DAVID                                        X                        0
  BURKE, DESMOND                         X            X                        0
  CALLIHAN, OTHA RAY                                              X            100
  CICCOTELLI, GINA                       X            X                        0
  DEMILIA, RAYMOND                       X            X                        0
  FANTASKI, JAMES F                                   X           X            0
  FIREQUENCH,                            X            X                        0
  FISHER, ROBERT PATRICK                                          X            4,250,000
  FREEMAN, TERRENCE K                                 X                        0
  GARAVAGLIA, CHARLES                                             X            757,100
  HOLLENBACH, PETER J                                             X            75,050
  *** SEALED ***                         X                                     0
  JOHNSTONE, LINDA                                                X            100
  KARKOWSKI, JOSEPH                                               X            50,000
  KLISSER, CHARLES                                    X                        0
  KO, ED                                                          X            5,450
  KRAEMER, JOHN                          X                                     0
  L.B. ELECTRIC CO,                                   X           X            0
  LEDDY, THOMAS                          X                                     0
  MADDEN, KENNETH                        X            X                        0
  MEZZATESTA, ANTHONY                                 X           X            50,333
  MOORE, GARY D                          X            X                        0
  NEW ENGLAND JOB CENTER,                X                                     0
  NGUYEN, BINH                           X                                     0
  NGUYEN, TAM THANK                      X                                     0
  NOVOSEL, MARK E                                                 X            3,150
  PURTELL, RICHARD F                     X                                     0
  ROSEN, MICHAEL                                                  X            6,500,300
  SAINATO, ALBERT JR                                  X                        0
  SHIPSEY, GEORGE MICHAEL                                         X            708,235
  SMOKROVIC, JERE                        X            X                        0
  SOMERSTEIN, MARIANNA                                            X            150
  SOMERSTEIN, STUART                                              X            628,155
  TONG, TRUNG VA                         X                                     0
  WEBSTER, LARRY, OWNER PARTNER                       X           X            50,333
  WEST, CHARLES ALLEN                                 X                        0
  WILLIAMS, HAYWOOD                      X            X           X            16,685
                                         ——           ——          ——           —————
                    TOTAL                17           19          18           13,145,141




                                                    98
Semiannual Report to the Congress                                         April 1, 1998 - September 30, 1998



                     OFFICE OF INVESTIGATIONS CASE LIST
                                    April 1, 1998 - September 30 , 1998
Defendant/Subject                     Indicted    Convicted   Sentenced      Monetary


INTERNAL UNION

BROADDUS, ROBERT                         X                                   0
C & C INDUSTRIAL MAINTENANCE,
CORPORATION                              X                                   0
CARMELLA GAROFALO, FORMER
OFFICE MANAGE                                         X                      0
CIBELLIS, EILEEN                                      X                      0
DIRUBBO, NICHOLAS                                                            5,391
GEDDES, KEVIN                                         X           X          50
HARTSEL, NORMAN                                                   X          50,115
HUMPHREYS, GEORGE                        X                                   0
KELLER, CLAUDIA                          X                                   0
LYON, JAMES D                            X                                   0
NARDI, NICK                                                       X          2,000
PICARRO, CARMEN                          X            X                      0
REDMERSKI, ROBERT “BO”                                X           X          50
SASSO, ROBERT                                                                136,000
WYMER, MICHAEL                                        X                      0
YELLOVICH, STEPHEN                                                X          0
                                         ——           ——          ——         —————
                  TOTAL                  3            9           5          193,606


LABOR-MANAGEMENT

AMERI, PAUL                              X                                   0
ARTECA, ROBERT                           X                                   0
ASOURIAN, OSCAR                          X                                   0
BARRON, DONALD L                                                  X          83,544
BIANCO, ANTHONY T                                                 X          58,080
BIERNAT, MARLENE                                                  X          27,512
BLOOM, JAY                                                        X          82,319
BORING, JOETTE MARIE                     X                                   0
CALLE AREVALO, MARIA                     X                                   0
CANNISTRA, PATRICK D                     X            X                      0
CARENAS GUAMAN, RUTH                     X                                   0
CASTILLO, CELIA MARIA                    X                                   0
DANELLA, DENNIS G                                                 X          19,550
DEFALCO, ELLIOT                                                   X          21,011
DEFEDE, JOSEPH                           X                                   0
DIMARTILE, FRANK                         X            X           X          100
ESTEVEZ, LEOBERTO                        X                                   0
FERDINAND DANIELLI, CRISTINA             X                                   0
FINKLE, JAMES                                                     X          12,416
GALLO, JOSEPH C.                         X                                   0
GATTO, JOSEPH                            X                                   0




                                                     99
Semiannual Report to the Congress                                         April 1, 1998 - September 30, 1998



                      OFFICE OF INVESTIGATIONS CASE LIST
                                    April 1, 1998 - September 30 , 1998
  Defendant/Subject                   Indicted    Convicted   Sentenced        Monetary


  GATTO, LOUIS                           X                                     0
  GUIDICE, ANTHONY                       X                                     0
  IBT LU 988,                                         X           X            394,700
  KURIAKOSE, ALEYAMMA                    X                                     0
  LIEBERMAN, SIDNEY                      X                                     0
  MANDARINI, JOSEPH                      X            X           X            45,220
  MANDARINI, LOUIS A SR                  X            X           X            45,105
  MANELLA, MARIO                                                  X            3,050
  MATHEW, ROY                            X                                     0
  MEASE, WILLIAM                                                  X            600
  MIRANDA AGUIRRE, GLORIA                X                                     0
  MURNO, JOHN                            X                                     0
  NELSON, JAMES                                                   X            52,553
  OLEARY, JAMES F                                                 X            1,025
  PANCLE MEJIA, ESTER                    X                                     0
  POTTACKAL, KURIAKOSE KIZHAKKE          X                                     0
  RIZZIO, DANIEL                         X                                     0
  RIZZO, DAN                             X                                     0
  ROMERO CHAMBA, ANDREA                  X                                     0
  ROSSETTI, ASCANIO                      X            X                        0
  ROY, SHELLA                            X                                     0
  SCHLACTER, IRWIN                       X                                     0
  SOSA TORRES, ALBA CAMILA               X                                     0
  TALARICO, JOSEPH C                                              X            1,096,847
  TALARICO, SAMUEL J JR                                           X            769,516
  TALARICO, SAMUEL JOHN                                           X            81,346
  VANEGAS MORALES, ELDER OVIDIO          X                                     0
  VUOLO, MICHAEL                         X                                     0
  WELLS, DONOVAN LEON                                 X                        0
                                         ——           ——          ——           —————
                          TOTAL          34           7           18           2,794,494




                                                   100
Semiannual Report to the Congress                                   April 1, 1998 - September 30, 1998



OFFICE OF ANALYSIS, COMPLAINTS AND EVALUATIONS:
COMPLAINT ACTIVITY


              ANALYSIS OF COMPLAINT ACTIVITY
              Breakdown of Allegation Reports by Source:

               Hotline Operations - Calls, Letters, and
               Walk-ins from Individuals or Organizations      113
               Letters from Congress                           21
               Letters from DOL agencies                       14
               Incident Reports from DOL agencies               1
               Reports by Special Agents and Auditors           1

               GAO                                              1
                                                       Total   151


                     Breakdown of Allegation Reports by Referral:


               Referred to Office of Audit                          3

               Referred to OI Regional/Field Offices            35

               Referred to DOL Program Management               78

               Referred to other Agencies                       15

               No further action required                       15

               Pending disposition at end of period                 5

                                                       Total   151




                                             101
